No. __________

IN THE SUPREME COURT
OF THE UNITED STATES
ELIM ROMANIAN PENTECOSTAL CHURCH,
and LOGOS BAPTIST MINISTRIEES
Petitioners
v.
JAY ROBERT PRITZKER, in his official capacity
as Governor of the State of Illinois
Respondent
-----------------------------------------------------------------------On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Seventh
Circuit
APPENDIX
Mathew D. Staver (Counsel of Record)
Anita L. Staver
Horatio G. Mihet
Roger K. Gannam
Daniel J. Schmid
LIBERTY COUNSEL
P.O. Box 540774
Orlando, FL 32854
Phone: (407) 875-1776
court@LC.org
Counsel for Petitioners

ii

TABLE OF CONTENTS
OPINION FROM THE UNITED STATES
COURT OF APPEALS FOR THE SEVENTH
CIRCUIT
AFFIRMING
DENIAL
OF
PETITIONERS’
MOTION
FOR
PRELIMINARY
INJUNCTION, FILED JUNE 16, 2020…….…..001a
ORDER FROM THE UNITED STATES
COURT OF APPEALS FOR THE SEVENTH
CIRCUIT
DENYING
PETITIONERS’
PETITION FOR REHEARING EN BANC,
FILED JULY 27, 2020…………………………….013a
ORDER FROM THE SUPREME COURT OF
THE
UNITED
STATES
DENYING
PETITIONERS’ EMERGENCY MOTION
FOR WRIT OF INJUNCTION, FILED MAY
29, 2020……………………………………………...014a
ORDER FROM THE UNITED STATES
COURT OF APPEALS FOR THE SEVENTH
CIRCUIT
DENYING
PETITIONERS’
MOTION FOR INJUNCTION PENDING
APPEAL, FILED MAY 16, 2020…………………015a
OPINION AND ORDER FROM UNITED
STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF ILLINOIS
DENYING PETITIONERS’ MOTION FOR
PRELIMINARY INJUNCTION, FILED MAY
13, 2020……………………………………………...018a

iii

ILLINOIS EXECUTIVE ORDER 2020-32,
FILEDD APRIL 30, 2020………………………….030a
RESTORE ILLINOIS, A PUBLIC HEALTH
APPROACH TO SAFELY REOPEN OUR
STATE, FILE MAY 5, 2020……………………….042a
PETITIONERS’ VERIFIED COMPLAINT
FOR
DECLARATORY
RELIEF,
TEMPORARY RESTRAINING ORDER,
PRELIMINARY
AND
PERMANENT
INJUNCTIVE RELIEF, AND DAMAGES,
FILED MAY 7, 2020……………………………….052a
PETITIONERS’
LETTER
TO
THE
GOVERNOR OF ILLINOIS REQUESTING
ACCOMMODATION
FOR
RELIGIOUS
SERVICES, EXHIBIT L TO VERIFIED
COMPLAINT, FILED MAY 7, 2020……………..098a
SUPPLEMENTAL
DECLARATION
OF
PASTOR CHRISTIAN INONESCU IN
SUPPORT OF PLAINTIFFS’ MOTION FOR
TEMPORARY RESTRAINING ORDER AND
PRELIMINARY INJUNCTION, FILED MAY
10, 2020 ……………………………………………..102a
SECOND
SUPPLEMENTAL
DECLARATION OF PASTOR CHRISTIAN
INONESCU IN SUPPORT OF PLAINTIFFS’
MOTION
FOR
TEMPORARY
RESTRAINING
ORDER
AND
PRELIMINARY INJUNCTION, FILED MAY
12, 2020……………………………………………...108a

iv

LETTER FROM CHICAGO DEPARTMENT
OF
PUBLIC
HEATH
TO
PASTOR
CHRISTIAN
IONESCU
OF
ELIM
ROMANIAN PENTECSTOAL CHURCH,
SENT MAY 15, 2020……………………………….113a
CRIMINAL CITATIONS FOR DISORDERLY
CONDUCT
AND
ADMINISTRATIVE
NOTICE OF ORDINANCE VIOLATION
AND ORDER TO APPEAR AT HEARING
ISSUED TO PASTOR CHRISTIAN
IONESCU ON MAY 17, 2020…………………….115a
CRIMINAL CITATIONS FOR DISORDERLY
CONDUCT
AND
ADMINISTRATIVE
NOTICE OF ORDINANCE VIOLATION
AND ORDER TO APPEAR AT HEARING
ISSUED TO PASTOR DANIEL CHIU ON
MAY 17, 2020……………………………………….117a
LETTER FROM CHICAGO DEPARTMENT
OF
PUBLIC
HEATH
TO
PASTOR
CHRISTIAN
IONESCU
OF
ELIM
ROMANIAN PENTECSTOAL CHURCH,
SENT MAY 22, 2020……………………………….119a
TRANSCRIPT OF JUNE 12, 2020 ORAL
ARGUMENT AT THE UNITED STATES
COURT OF APPEALS FOR THE SEVENTH
CIRCUIT IN CASE NO. 20-1811, ELIM
ROMANIAN PENTECOSTAL CHURCH, ET
AL. V. PRITZKER………………………………….122a

Case: 20-1811

Document: 72

Filed: 06/16/2020

Pages: 12

In the

United States Court of Appeals
For the Seventh Circuit
____________________

No. 20-1811
ELIM ROMANIAN PENTECOSTAL CHURCH and LOGOS BAPTIST
MINISTRIES,
Plaintiffs-Appellants,
v.
JAY ROBERT PRITZKER, Governor of Illinois,
Defendant-Appellee.
____________________
Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 20 C 2782 — Robert W. Gettleman, Judge.

____________________

ARGUED JUNE 12, 2020 — DECIDED JUNE 16, 2020
____________________
Before EASTERBROOK, KANNE, and HAMILTON, Circuit
Judges.
EASTERBROOK, Circuit Judge. Two churches contend, in
this suit under 42 U.S.C. §1983, that an executive order limiting the size of public assemblies (including religious services) to ten persons violates their rights under the Free Exercise Clause of the First Amendment, applied to the states

Appendix 001a

Case: 20-1811

Document: 72

Filed: 06/16/2020

2

Pages: 12

No. 20-1811

by the Fourteenth Amendment. The Governor of Illinois issued this order to reduce transmission of the coronavirus
SARS-CoV-2, which causes the disease COVID-19. The disease is readily transmissible and has caused a global pandemic. As of June 16, 2020, 133,639 persons in Illinois have
tested positive for COVID-19, and 6,398 of these have died.
Epidemiologists believe that those numbers are undercounts—persons with no or mild symptoms may not be tested, some people die of the disease without being tested, and
some deaths aaributed to other causes may have been hastened or facilitated by the eﬀect of COVID-19 weakening the
immune system or particular organs.
Experts think that, without controls, each infected person
will infect two to three others, causing an exponential
growth in the number of cases. Because many of those cases
require intensive medical care, infections could overwhelm
the medical system. The World Health Organization, the
Centers for Disease Control, and many epidemiologists recommend limiting the maximum size of gatherings (the Governor’s cap of ten comes from a CDC recommendation),
adopting a policy of social distancing (everyone staying at
least six feet away from anyone not living in the same
household—ten feet if the other person is singing or talking
loudly), isolating people who have the disease, wearing face
coverings so that people who have the disease but don’t
know it are less likely to infect others, and tracing the contacts of those who test positive. Reducing the number of
people at gatherings protects those persons, and perhaps
more important it protects others not at the gathering from
disease transmiaed by persons who contract COVID-19 by
aaending a gathering that includes infected persons.

Appendix 002a

Case: 20-1811

Document: 72

Filed: 06/16/2020

Pages: 12

No. 20-1811

3

Plaintiﬀs contend, however, that a limit of ten persons
eﬀectively forecloses their in-person religious services, even
though they are free to hold multiple ten-person services
every week, and that the Governor’s proposed alternatives—
services over the Internet or in parking lots while worshipers
remain in cars—are inadequate for them.
Here is the relevant text of the order in question:
All public and private gatherings of any number of people occurring outside a single household or living unit are prohibited,
except for the limited purposes permiaed by this Executive Order. Pursuant to current guidance from the CDC, any gathering
of more than ten people is prohibited unless exempted by this
Executive Order. Nothing in this Executive Order prohibits the
gathering of members of a household or residence.
All places of public amusement, whether indoors or outdoors,
including but not limited to, locations with amusement rides,
carnivals, amusement parks, water parks, aquariums, zoos, museums, arcades, fairs, children’s play centers, playgrounds, funplexes, theme parks, bowling alleys, movie and other theaters,
concert and music halls, and country clubs or social clubs shall
be closed to the public.

Executive Order 2020-32 §2(3) (Apr. 30, 2020) (boldface in
original). Section 2(5)(vi) adds that people are free to leave
their homes
[t]o engage in the free exercise of religion, provided that such
exercise must comply with Social Distancing Requirements and
the limit on gatherings of more than ten people in keeping with
CDC guidelines for the protection of public health. Religious organizations and houses of worship are encouraged to use online
or drive-in services to protect the health and safety of their congregants.

Appendix 003a

Case: 20-1811

Document: 72

Filed: 06/16/2020

4

Pages: 12

No. 20-1811

One other section of this order bears on religious activities.
Section 2(12)(c) includes in the list of “essential” functions
exempt from the ten-person cap:
Businesses and religious and secular nonproﬁt organizations, including food banks, when providing food, shelter, and social
services, and other necessities of life for economically disadvantaged or otherwise needy individuals, individuals who need assistance as a result of this emergency, and people with disabilities[.]

Religious services, too, are deemed “essential,” see §2(5)(vi),
which is why they can proceed while concerts are forbidden,
but they have not been exempted from the size limit.
The churches contend that these rules burden the free exercise of their faith, which requires adherents to assemble in
person, and discriminates against religious services compared with the many economic and charitable activities that
the Governor has exempted from the ten-person limit. The
churches are particularly put out that their members may
assemble to feed the poor but not to celebrate their faith. A
district court, however, concluded that Executive Order
2020-32 is neutral with respect to religion and supported by
the compelling need to safeguard the public health during a
pandemic. The court denied the motion for a preliminary
injunction. 2020 U.S. Dist. LEXIS 84348 (N.D. Ill. May 13,
2020). Plaintiﬀs appealed under 28 U.S.C. §1292(a)(1).
We denied the churches’ motion for an injunction pending appeal, with this explanation:
Based on this court’s preliminary review of this appeal for purposes of this motion, we ﬁnd that plaintiﬀs have not shown a
suﬃcient likelihood of success on the merits to warrant the extraordinary relief of an injunction pending appeal. The Governor’s Executive Order 2020-32 responds to an extraordinary pub-

Appendix 004a

Case: 20-1811

Document: 72

Filed: 06/16/2020

Pages: 12

No. 20-1811

5

lic health emergency. See generally Jacobson v. Massachuse<s, 197
U.S. 11 (1905). The Executive Order does not discriminate
against religious activities, nor does it show hostility toward religion. It appears instead to impose neutral and generally applicable rules, as in Employment Division v. Smith, 494 U.S. 872
(1990). The Executive Order’s temporary numerical restrictions
on public gatherings apply not only to worship services but also
to the most comparable types of secular gatherings, such as concerts, lectures, theatrical performances, or choir practices, in
which groups of people gather together for extended periods,
especially where speech and singing feature prominently and
raise risks of transmiaing the COVID-19 virus. Worship services
do not seem comparable to secular activities permiaed under the
Executive Order, such as shopping, in which people do not congregate or remain for extended periods. Further, plaintiﬀsappellants may not obtain injunctive relief against the Governor
in federal court on the basis of the Illinois Religious Freedom
Restoration Act. See Pennhurst State School & Hospital v. Halderman, 465 U.S. 89 (1984).

No. 20-1811 (7th Cir. May 16, 2020). We expedited brieﬁng
and oral argument.
Before the case could be argued, the Governor replaced
Executive Order 2020-32 with Executive Order 2020-38 (May
29, 2020), which permits the resumption of all religious services. Section 4(a) of Order 2020-38 contains this exemption:
This Executive Order does not limit the free exercise of religion.
To protect the health and safety of faith leaders, staﬀ, congregants and visitors, religious organizations and houses of worship are encouraged to consult and follow the recommended
practices and guidelines from the Illinois Department of Public
Health. As set forth in the IDPH guidelines, the safest practices
for religious organizations at this time are to provide services
online, in a drive-in format, or outdoors (and consistent with social distancing requirements and guidance regarding wearing
face coverings), and to limit indoor services to 10 people. Religious organizations are encouraged to take steps to ensure social

Appendix 005a

Case: 20-1811

Document: 72

Filed: 06/16/2020

6

Pages: 12

No. 20-1811
distancing, the use of face coverings, and implementation of other public health measures.

What used to be a cap of ten persons became a recommendation. Because this section is an “exemption,” none of Executive Order 2020-38’s rules applies to religious exercise. The
guidelines, issued on May 28 and available at
haps://www.dph.illinois.gov/covid19/communityguidance/places-worship-guidance, contain eight singlespaced pages of recommendations but do not impose any
legal obligation.
Illinois contends that Executive Order 2020-38 makes this
suit moot, because it gives the churches all of the relief they
wanted from a judge. Plaintiﬀs observe, however, that the
Governor could restore the approach of Executive Order
2020-32 as easily as he replaced it—and that the “Restore Illinois Plan” (May 5, 2020) reserves the option of doing just
this if conditions deteriorate. Executive Order 2020-38
moved Illinois to Phase 3 of this Plan, which cautions that
some things “could cause us to move back”:
IDPH will closely monitor data and receive on-the-ground feedback from local health departments and regional healthcare
councils and will recommend moving back to the previous
phase based on the following factors:
• Sustained rise in positivity rate [of COVID-19 test results]
• Sustained increase in hospital admissions for COVID-19 like
illness
• Reduction in hospital capacity threatening surge capabilities
• Significant outbreak in the region that threatens the health of
the region

Voluntary cessation of the contested conduct makes litigation moot only if it is “absolutely clear that the allegedly
wrongful behavior could not reasonably be expected to re-

Appendix 006a

Case: 20-1811

Document: 72

Filed: 06/16/2020

No. 20-1811

Pages: 12

7

cur.” Friends of the Earth, Inc. v. Laidlaw Environmental Services
(TOC), Inc., 528 U.S. 167, 189 (2000). Otherwise the defendant
could resume the challenged conduct as soon as the suit was
dismissed. The list of criteria for moving back to Phase 2
(that is, replacing the current rules with older ones) shows
that it is not “absolutely clear” that the terms of Executive
Order 2020-32 will never be restored. It follows that the dispute is not moot and that we must address the merits of
plaintiﬀs’ challenge to Executive Order 2020-32 even though
it is no longer in eﬀect.
The churches contend that any limit on religious gatherings is permissible only if supported by a compelling interest, which they say is lacking. Yet Employment Division v.
Smith, 494 U.S. 872 (1990), holds that the Free Exercise
Clause does not require a state to accommodate religious
functions or exempt them from generally applicable laws.
The Justices recently granted certiorari in a case presenting
the question whether Smith should be overruled, Fulton v.
Philadelphia, 140 S. Ct. 1104 (2020), but Fulton will not be argued until next fall. Unless the Justices overrule or modify
Smith, we must implement its approach.
Congress established rules more favorable to religion
through the Religious Freedom Restoration Act, 42 U.S.C.
§§ 2000bb to 2000bb–4, but Boerne v. Flores, 521 U.S. 507
(1997), holds that those rules cannot be applied to the states.
Illinois has itself created rules more favorable to religion
through the Illinois Religious Freedom Restoration Act, 775
ILCS 35/1 to 35/30, and plaintiﬀs want to take advantage of
that statute. Given the Eleventh Amendment and principles
of sovereign immunity, however, a federal court cannot issue relief against a state under state law. See, e.g., Pennhurst

Appendix 007a

Case: 20-1811

Document: 72

Filed: 06/16/2020

8

Pages: 12

No. 20-1811

State School & Hospital v. Halderman, 465 U.S. 89 (1984). Plaintiﬀs maintain that Pennhurst is irrelevant because Illinois has
consented to the enforcement of the Illinois Religious Freedom Restoration Act, thus waiving its sovereign immunity.
Consent to be sued in state court does not imply consent to
be sued in federal court, however; that takes a “clear declaration”. See, e.g., College Savings Bank v. Florida Prepaid Postsecondary Education Expense Board, 527 U.S. 666, 676 (1999) (citing other cases). Section 35/20 provides:
If a person’s exercise of religion has been burdened in violation
of this Act, that person may assert that violation as a claim or defense in a judicial proceeding and may obtain appropriate relief
against a government. A party who prevails in an action to enforce this Act against a government is entitled to recover aaorney’s fees and costs incurred in maintaining the claim or defense.

See also §35/10(b)(2). This language authorizes judicial relief
but does not clearly authorize suit against the state in federal
court. As a result, neither the federal nor the state Religious
Freedom Restoration Act can be applied in this case.
The vital question therefore is whether Executive Order
2020-32 discriminates against religion. Funerals, weddings,
and similar activities are subject to the same size limit that
applies to worship services. Illinois did not set out to disadvantage religious services compared with secular events.
Nor does the order discriminate among faiths. Cf. Church of
the Lukumi Babalu Aye, Inc. v. Hialeah, 508 U.S. 520 (1993).
Plaintiﬀs maintain, however, that the ten-person cap disfavors religious services compared with, say, grocery shopping (more than ten people at a time may be in a store) or
warehouses (where a substantial staﬀ may congregate to
prepare and deliver the goods that retail shops sell). If those

Appendix 008a

Case: 20-1811

Document: 72

Filed: 06/16/2020

Pages: 12

No. 20-1811

9

businesses, and other essential functions such as feeding and
housing the poor under §2(12)(c), may place ten unrelated
persons in close contact, it amounts to disparate treatment
that a religious service cannot do so as well.
For its part, Illinois reminds us how Executive Order
2020-32 §2(3) itself classiﬁes religious worship: with other
indoor public gatherings of unrelated persons. At least worship services can proceed (with a size limit), while concerts,
movies, and similar events are forbidden.
So what is the right comparison group: grocery shopping, warehouses, and soup kitchens, as plaintiﬀs contend,
or concerts and lectures, as Illinois maintains? Judges of other appellate courts have supported both comparisons. Plaintiﬀs point us to two opinions of the Sixth Circuit plus two
opinions dissenting from orders denying injunctions pending appeal. See Maryville Baptist Church, Inc. v. Beshear, 957
F.3d 610 (6th Cir. 2020); Roberts v. Neace, 958 F.3d 409 (6th
Cir. 2020); South Bay United Pentecostal Church v. Newsom,
2020 U.S. App. LEXIS 16464 (9th Cir. May 22, 2020) (Collins,
J., dissenting); South Bay United Pentecostal Church v. Newsom,
No. 19A1044 (U.S. May 29, 2020) (Kavanaugh, J., joined by
Thomas & Gorsuch, JJ., dissenting). Illinois relies on the majorities in South Bay United Pentecostal Church: the Ninth Circuit’s panel did not provide much analysis when denying
the motion for an injunction, nor did a majority of the Supreme Court, but Chief Justice Roberts ﬁled a concurring
opinion with these observations:
Although California’s guidelines place restrictions on places of
worship, … [s]imilar or more severe restrictions apply to comparable secular gatherings, including lectures, concerts, movie
showings, spectator sports, and theatrical performances, where
large groups of people gather in close proximity for extended

Appendix 009a

Case: 20-1811

Document: 72

Filed: 06/16/2020

10

Pages: 12

No. 20-1811
periods of time. And the Order exempts or treats more leniently
only dissimilar activities, such as operating grocery stores,
banks, and laundromats, in which people neither congregate in
large groups nor remain in close proximity for extended periods.

We line up with Chief Justice Roberts.
It would be foolish to pretend that worship services are
exactly like any of the possible comparisons, but they seem
most like other congregate functions that occur in auditoriums, such as concerts and movies. Any of these indoor activities puts members of multiple families close to one another
for extended periods, while invisible droplets containing the
virus may linger in the air. Functions that include speaking
and singing by the audience increase the chance that persons
with COVID-19 may transmit the virus through the droplets
that speech or song inevitably produce. As Chief Justice
Roberts observed, concerts and church services diﬀer from
grocery stores and pharmacies, “in which people neither
congregate in large groups nor remain in close proximity for
extended periods.”
The churches reply that people do remain together for extended periods in warehouses, and potentially in oﬃce
seaings (though most oﬃces contain spaces that provide social distancing). It is not clear to us that warehouse workers
engage in the sort of speech or singing that elevates the risk
of transmiaing the virus, or that they remain close to one
another for extended periods, but some workplaces present
both risks. Meatpacking plants and nursing homes come to
mind, and they have been centers of COVID-19 outbreaks.
But it is hard to see how food production, care for the elderly, or the distribution of vital goods through warehouses
could be halted.

Appendix 010a

Case: 20-1811

Document: 72

Filed: 06/16/2020

No. 20-1811

Pages: 12

11

Reducing the rate of transmission would not be much
use if people starved or could not get medicine. That’s also
why soup kitchens and housing for the homeless have been
treated as essential. Those activities must be carried on in
person, while concerts can be replaced by recorded music,
movie-going by streaming video, and large in-person worship services by smaller gatherings, radio and TV worship
services, drive-in worship services, and the Internet. Feeding
the body requires teams of people to work together in physical spaces, but churches can feed the spirit in other ways.
Perhaps a state could diﬀerentiate between the maximum
gathering permiaed in a small church and a cathedral with
seats for 3,000, but we do not evaluate orders issued in response to public-health emergencies by the standard that
might be appropriate for years-long notice-and-comment
rulemaking. See Jacobson v. Massachuse<s, 197 U.S. 11 (1905),
which sustains a public-health order against a constitutional
challenge. Perhaps with more time—and more data from
contact tracing—Illinois could ﬁgure out just how dangerous
religious services are compared with warehouses and similar
activities, but no one contends that such data were available
when Executive Order 2020-32 was promulgated (or, for that
maaer, now).
So we do not deny that warehouse workers and people
who assist the poor or elderly may be at much the same risk
as people who gather for large, in-person religious worship.
Still, movies and concerts seem a beaer comparison group,
and by that standard the discrimination has been in favor of
religion. While all theaters and concert halls in Illinois have
been closed since mid-March, sanctuaries and other houses
of worship were open, though to smaller gatherings. And

Appendix 011a

Case: 20-1811

Document: 72

Filed: 06/16/2020

12

Pages: 12

No. 20-1811

under Executive Order 2020-38 all arrangements for worship
are permiaed while schools, theaters, and auditoriums remain closed. Illinois has not discriminated against religion
and so has not violated the First Amendment, as Smith understands the constitutional requirements.
Plaintiﬀs present some additional arguments, which have
been considered but need not be discussed separately.
AFFIRMED

Appendix 012a

Case: 20-1811

Document: 82

Filed: 07/27/2020

Pages: 1

United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
July 27, 2020

Before
FRANK H. EASTERBROOK, Circuit Judge
MICHAEL S. KANNE, Circuit Judge
DAVID F. HAMILTON, Circuit Judge

No. 20-1811
ELIM ROMANIAN PENTECOSTAL CHURCH and
LOGOS BAPTIST MINISTRIES,
Plaintiffs-Appellants,

Appeal from the United States
District Court for the Northern
District of Illinois, Eastern
Division.
No. 20 C 2782
Robert W. Gettleman, Judge.

v.
JAY ROBERT PRITZKER, Governor of Illinois,
Defendant-Appellee.

Order
Plaintiffs-Appellants filed a petition for rehearing and rehearing en banc on July 10,
2020. No judge in regular active service has requested a vote on the petition for
rehearing en banc, and all of the judges on the panel have voted to deny rehearing. The
petition for rehearing is therefore DENIED.

Appendix 013a

(ORDER LIST:

590 U.S.)
FRIDAY, MAY 29, 2020

ORDER IN PENDING CASE
19A1046

ELIM ROMANIAN CHURCH, ET AL. V. PRITZKER, GOV. OF IL
The application for injunctive relief presented to Justice
Kavanaugh and by him referred to the Court is denied.
The Illinois Department of Public Health issued new
guidance on May 28. The denial is without prejudice to Applicants
filing a new motion for appropriate relief if circumstances
warrant.

Appendix 014a

Case: 20-1811

Document: 16

Filed: 05/16/2020

Pages: 3

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

ORDER
May 16, 2020
Before
FRANK H. EASTERBROOK, Circuit Judge
MICHAEL S. KANNE, Circuit Judge
DAVID F. HAMILTON, Circuit Judge
ELIM ROMANIAN PENTECOSTAL CHURCH, et al.,
Plaintiffs - Appellants
No. 20-1811

v.
JAY R. PRITZKER, in his official capacity as Governor of the State of
Illinois,
Defendant - Appellee

Originating Case Information:
District Court No: 1:20-cv-02782
Northern District of Illinois, Eastern Division
District Judge Robert W. Gettleman

The following are before the court:
1.

PLAINTIFFS-APPELLANTS’ EMERGENCY MOTION FOR INJUNCTION
PENDING APPEAL AND TO EXPEDITE APPEAL, filed on May 15, 2020,
by counsel for the appellants.

2.

BRIEF OF AMICUS CURIAE AMERICANS UNITED FOR SEPARATION
OF CHURCH AND STATE IN SUPPORT OF APPELLEES AND IN
OPPOSITION TO APPELLANTS’ EMERGENCY MOTION FOR
INJUNCTION PENDING APPEAL, filed on May 16, 2020, by counsel for
amicus curiae.

Appendix 015a

Case: 20-1811

Document: 16

Filed: 05/16/2020

Pages: 3

Appeal no. 20-1811

Page 2

3.

DEFENDANT-APPELLEE’S RESPONSE TO PLAINTIFFS’ EMERGENCY
MOTION FOR INJUNCTION PENDING APPEAL AND TO EXPEDITE
APPEAL, filed on May 16, 2020, by counsel for the appellee.

4.

PLAINTIFFS-APPELLANTS’ REPLY IN SUPPORT OF EMERGENCY
MOTION FOR INJUNCTION PENDING APPEAL AND TO EXPEDITE
APPEAL AND ALTERNATIVE MOTION TO STRIKE RESPONSE, filed
on May 16, 2020, by counsel for the appellants.

IT IS ORDERED that plaintiffs-appellants’ emergency motion for an injunction
pending appeal, filed on May 15, 2020, is DENIED. Based on this court’s preliminary
review of this appeal for purposes of this motion, we find that plaintiffs have not shown a
sufficient likelihood of success on the merits to warrant the extraordinary relief of an
injunction pending appeal. The Governor’s Executive Order 2020-32 responds to an
extraordinary public health emergency. See generally Jacobson v. Massachusetts, 197 U.S. 11
(1905). The Executive Order does not discriminate against religious activities, nor does it
show hostility toward religion. It appears instead to impose neutral and generally
applicable rules, as in Employment Division v. Smith, 494 U.S. 872 (1990). The Executive
Order’s temporary numerical restrictions on public gatherings apply not only to worship
services but also to the most comparable types of secular gatherings, such as concerts,
lectures, theatrical performances, or choir practices, in which groups of people gather
together for extended periods, especially where speech and singing feature prominently
and raise risks of transmitting the COVID-19 virus. Worship services do not seem
comparable to secular activities permitted under the Executive Order, such as shopping, in
which people do not congregate or remain for extended periods. Further, plaintiffsappellants may not obtain injunctive relief against the Governor in federal court on the
basis of the Illinois Religious Freedom Restoration Act. See Pennhurst State School & Hospital
v. Halderman, 465 U.S. 89 (1984).
IT IS FURTHER ORDERED that plaintiffs-appellants’ motion to expedite the
appeal is GRANTED. Briefing shall proceed as follows:
1.

The brief and required short appendix of the appellants are due by
May 22, 2020.

2.

The brief of the appellee is due by June 1, 2020.

3.

The reply brief of the appellant, if any, is due by June 5, 2020.

Appendix 016a

Case: 20-1811

Document: 16

Filed: 05/16/2020

Pages: 3

Appeal no. 20-1811

Page 3

Oral argument will be set by separate order after briefing is completed.
IT IS FINALLY ORDERED that plaintiffs-appellants’ motion to strike is DENIED.
The defendant-appellee is GRANTED leave to file his overlength response, which was
prepared and filed in less than 12 hours in accordance with this court’s order.

Important Scheduling Notice !
Notices of hearing for particular appeals are mailed shortly before the date of oral argument. Criminal appeals are
scheduled shortly after the filing of the appellant's main brief; civil appeals after the filing of the appellee's brief. If you
foresee that you will be unavailable during a period in which your particular appeal might be scheduled, please write
the clerk advising him of the time period and the reason for such unavailability. Session data is located at
http://www.ca7.uscourts.gov/cal/calendar.pdf. Once an appeal is formally scheduled for a certain date, it is very difficult
to have the setting changed. See Circuit Rule 34(e).

form name: c7_Order_3J(form ID: 177)

Appendix 017a

Case: 1:20-cv-02782 Document #: 33 Filed: 05/13/20 Page 1 of 12 PageID #:547

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
ELIM ROMANIAN PENTECOSTAL CHURCH, )
LOGOS BATIST MINISTRIES
)
)
Plaintiff,
)
)
v.
)
)
JAY ROBERT PRITZKER,
)
in his official capacity as Governor of the
)
State of Illinois,
)
)
Defendant.
)

Case No. 20 C 2782

Judge Robert W. Gettleman

MEMORANDUM OPINION AND ORDER1
“These are the times that try men’s souls.”2 Illinois, the nation, and the world are in the
grip of a deadly pandemic the likes of which haven’t been experienced in more than a century. As
of yesterday, May 12, 2020, Illinois has experienced more than 83,000 known infections and more
than 3,600 deaths from the COVID-19 virus, with more than 4,000 new cases and 144 new deaths
reported on that date alone. In the nation, some 1.4 million cases and 82,000 deaths have been
reported. In the world, more than 291,000 have died from the disease, which has infected more
than 4 million people.
The virus is highly contagious and easily transferable. Because people may be infected but
asymptomatic, they may be infecting others without knowing. At this time there is no known cure,
no effective treatment and no vaccine. The only preventative measures agreed upon by all medical
experts is to avoid contact with infected persons. To that end people have been cautioned to stay at
home if at all possible, practice social distancing when it is not, and to wear face coverings when
1
2

The facts discussed in this opinion are uncontested and principally taken from the parties’ submissions.
Thomas Payne, “The Crisis” (December 23, 1776).

Appendix 018a

Case: 1:20-cv-02782 Document #: 33 Filed: 05/13/20 Page 2 of 12 PageID #:548

coming near others. Despite the dire numbers and warnings, some people have refused to
comply, causing governors across the country to issue what have been described as “stay-at-home”
orders. Defendant Governor Jay Pritzker has issued a number of such orders, including,
Executive Order 2020-32 (the “Order”), which requires wearing a face covering in public places or
when working, the cessation of all non-essential business and operations, and most importantly for
the instant case, prohibits “All public and private gatherings of any number of people occurring
outside a single household or living unit” except for limited purposes. “[A]ny gathering of more
than ten people is prohibited unless exempted …” Individuals may leave their residences only to
perform certain “Essential Activities” and must follow social distancing requirements set forth in
the Order, including wearing face coverings when in public and work. Among the Essential
Activities listed is “to engage in the free exercise of religion.” That provision of the Order
provides:
To engage in the free exercise of religion, provided that such exercise must comply
with Social Distancing Requirements and the limit on gatherings of more than ten
people in keeping with CDC guidelines for the protection of public health.
Religious organizations and houses of worship are encouraged to use online or
drive-in services to protect the health and safety of their congregants.
Plaintiffs have sued Governor Pritzker, challenging the Order to the extent that it restricts
religious gatherings to ten persons, arguing that it violates numerous of their federal constitutional
rights, most notably the right to free exercise of religion contained in the First Amendment. They
filed their complaint on Thursday, May 7, 2020 at 11:16 p.m. and their motion for a temporary
restraining order (“TRO”) and preliminary injunction at 1:47 a.m. Friday, May 8, 2020. The
motion sought a TRO enjoining defendant from enforcing the Order against them starting on
Sunday, May 10, 2020. The court ordered defendant to respond to the motion by 5:00 p.m.
2

Appendix 019a

Case: 1:20-cv-02782 Document #: 33 Filed: 05/13/20 Page 3 of 12 PageID #:549

Saturday May 9, 2020 with plaintiffs to reply by 5:00 p.m. Sunday, May 10, 2020. Because of the
briefing schedule, the court denied the request for a TRO effective for May 10, 2020.
Undeterred by the court’s refusal to grant the TRO motion, plaintiff Elim Romanian
Pentecostal Church (“Elim”) elected to disobey the Order and hold services at its church with more
than the allotted ten persons. The pictures that plaintiffs have included in their reply show that
none of the congregants were wearing face coverings, contrary to CDC guidelines. Because
plaintiffs’ reply brief contained new factual matter, the court granted defendant leave to file a
sur-reply by noon on Tuesday, May 12, 2020, with no further briefing to be accepted.
Nevertheless, plaintiffs submitted a response to the sur-reply, principally to contend that the
congregants and clergy were social distancing. The motion is now fully briefed and ready for
resolution. For the reasons described below, the motion is denied.
Temporary restraining orders and preliminary injunctions, are extraordinary and drastic
remedies that should not be granted unless the movant, “by a clear showing, carries the burden of
persuasion.” Mazurek v. Armstrong, 520 U.S. 968, 972 (1997). The party seeking such relief must
show that: 1) it has some likelihood of success on the merits; 2) it has no adequate remedy at law;
and, 3) that without relief it will suffer irreparable harm. Planned Parenthood of Ind. and Ky, Inc.
v. Comm’r of Ind. State Dep’t of Health, 896 F.3d 809, 816 (7th Cir. 2018). If the movant meets
these requirements, the court must then weigh the harm the movant will suffer without an
injunction against the harm the non-movant will suffer if an injunction is issued. The court makes
this assessment using a sliding scale. The more likely the movant is to win, the less heavily need
the balance of harm weigh in its favor. The less likely the movant is to win, the more the balance
must weigh in its favor. Finally, the court must also determine whether the injunction is in the
3

Appendix 020a

Case: 1:20-cv-02782 Document #: 33 Filed: 05/13/20 Page 4 of 12 PageID #:550

public interest, taking into account any effects on non-parties. Courthouse News Serv. v. Brown,
908 F.3d 1063, 1068 (7th Cir. 2018).
Likelihood of Success on the Merits
Plaintiffs need show only that their chances of success are better than negligible. Ill.
Council on Long Term Care v. Bradley, 957 F.2d 305, 310 (7th Cir. 1992). Plaintiffs’ complaint
challenges the Order on both federal and state constitutional grounds, as well as on state statutory
grounds. Their motion, however, raises only that the Order violates their First Amendment Rights
to Free Exercise of Religion and to “Be Free from Government Hostility and Disparate Treatment
Under the Establishment Clause,” and that the Order restricts their First Amendment rights to
speech and assembly.
Over one hundred years ago the Supreme Court established a framework governing the
emergency exercise of state authority during a public health crisis. Jacobson v Commonwealth of
Mass., 197 U.S. 11, 27 (1905). The “liberty secured by the Constitution … does not import an
absolute right in each person to be, at all times and in all circumstances, wholly freed from
restraint.” Id. at 26. “Even liberty itself, the greatest right, is not unrestricted license to act
according to one’s will.” Id. “[A] community has the right to protect itself against an epidemic of
disease which threatens the safety of its members.” Id. at 28. As the Court explained, “[t]he
possession and enjoyment of all rights are subject to such reasonable conditions as may be deemed
by the governing authority of the country essential to the safety, health, peace, good order, and
morals of the community.” Id. at 26-27 (emphasis added).
In Jacobson, the Court was faced with a claim that the state’s compulsory vaccination law
enacted during the smallpox epidemic violated the Fourteenth Amendment. Rejecting the claim,
4

Appendix 021a

Case: 1:20-cv-02782 Document #: 33 Filed: 05/13/20 Page 5 of 12 PageID #:551

the court described the state’s police power to combat an epidemic, id at 29:
In every well-ordered society charged with the duty of conserving the safety of its
members the rights of the individual in respect of his liberty may at times, under the
pressure of great dangers, be subjected to such restraint, to be enforced by
reasonable regulations, as the safety of the public may demand.
Courts have acknowledged this principle numerous times, applying it to various
constitutional claims. For example, in Compagnie Francaise de Navigation a Vapeur v. State Bd.
of Health, 186 US 380 (1902), the court upheld Louisiana’s right to quarantine passengers aboard
a vessel despite the fact that all were healthy. And in Prince v Mass., 321 U.S. 158, 166-67
(1944), the Court stated “[t]he right to practice religion freely does not include the liberty to expose
the community … to communicable disease.” Under such emergency circumstances, such as
when faced with a society-threatening epidemic, “a state may implement emergency measures that
curtail constitutional rights so long as the measures have at least some ‘real or substantial relation’
to the public health crisis and are not ‘beyond all question, a plain, palpable violation of rights
secured by the fundamental law.” In re Abbot, 954 F.3d 772, 784-85 (5th Cir. 2020) (quoting
Jacobson, 197 U.S. at 31).
As described above, there is no question that the world, the country, and Illinois in
particular are in the midst of a deadly pandemic of epic proportions. Plaintiffs do not dispute that
COVID-19 threatens the lives of the citizens of Illinois and all Americans. The court finds, as did
the court in Cassell v Snyders, 2020 WL 2112374 at *7 (N.D. Ill. May 3, 2020), that the
COVID-19 pandemic qualifies as the type of public health crisis that Jacobson contemplated. That
finding means that to have any likelihood of success on the merits plaintiffs must demonstrate
either that the Order has no real or substantial relation to the public health crisis or that it is a plain,
5

Appendix 022a

Case: 1:20-cv-02782 Document #: 33 Filed: 05/13/20 Page 6 of 12 PageID #:552

palpable invasion of their rights. They have failed to demonstrate either. Indeed, nowhere in any of
their briefs do they cite Jacobson or mention its standard. As a result, because Jacobson is
implicated by the current health crisis, and because the Order advances the State’s interest in
protecting its citizens from the pandemic, the court concludes that plaintiffs have a less than
negligible chance of success on their constitutional claims.
Moreover, even if Jacobson’s emergency crisis standard does not apply, plaintiffs have
failed to show any likelihood of success under traditional First Amendment analysis. The Free
Exercise Clause of the First Amendment (applied to the states through the Fourteenth
Amendment) provides that “Congress shall make no law respecting an establishment of religion or
prohibiting the free exercise thereof ….” It prohibits government from “[p]lacing a substantial
burden on the observation of a central religious belief or practice without first demonstrating that a
“compelling governmental interest justifies the burden.” St. Johns United Church of Christ v. City
of Chicago, 502 F.3d 616, 631 (7th Cir. 2007). In Employment Division v. Smith, 494 U.S. 872,
883 (1990), however, the Supreme Court held that neutral laws of general applicability do not
violate the Free Exercise Clause even if they have the incidental effect of burdening a particular
religious practice, and thus need not be justified by a compelling governmental interest. Put
another way, a “neutral law of general applicability is constitutional if it is supported by a rational
basis.” Ill. Bible Colleges Ass’n v. Anderson, 870 F.3d 631, 639 (7th Cir. 2017). Neutrality and
general application are interrelated, and failure to satisfy one likely indicates a failure to satisfy the
other. Church of the Lukkumi Babalu Aye, Inc. v. City of Hialeah, 508 U.S. 520, 531 (1993).
Whether a law qualifies as neutral depends on its object. A law is not neutral if “the object
of the law is to infringe upon or restrict practices because of their religious motivation.” Lukumi,
6

Appendix 023a

Case: 1:20-cv-02782 Document #: 33 Filed: 05/13/20 Page 7 of 12 PageID #:553

508 U.S. at 533. General applicability forbids the government from “imposing burdens only on
conduct motivated by religious belief in a selective manner.” Id. In short, if the Order does not
target religion, “the First Amendment has not been offended.” Employment Division, 494 U.S. at
878.
In the instant case, plaintiffs have provided no evidence that the Order targets religion.
They point to the Order’s exemptions for essential businesses that may host more than ten people
and argue “if large gatherings at liquor stores, warehouse supercenters, and cannabis stores are not
prohibited – and distancing and hygiene practices are only required to the greatest extent possible –
even though endangering citizens (or not) to an equal degree, then it is obvious religious
gatherings have been targeted for discriminatory treatment.” The court disagrees.
Gatherings at places of worship pose higher risks of infection than gatherings at
businesses. As Judge Lee explained in Cassell, 2020 WL 2112374 at *9, when analyzing the same
Order:
[I]n person religious services create a higher risk of contagion than operating
grocery stores or staffing manufacturing plants. The key distinction turns on the
nature of each activity. When people buy groceries, for example, they typically
enter a building quickly, do not engage directly with others except at point of sale,
and leave once the task is complete. The purpose of shopping is not to gather with
others or engage them in conversation and fellowship, but to purchase necessary
items and then leave as soon as possible.
By comparison, religious services involve sustained interactions between
many people … Given that religious gatherings seek to promote conversation and
fellowship, they “endanger” the government’s interest in fighting COVID-19 to a
“greater degree” than the secular businesses that Plaintiffs identify.
Plaintiffs do not address Cassell’s reasoning (they don’t even cite it in their reply) except to
argue in their initial motion that COVID-19 does not care about people’s intentions - what matters
is hygiene and social distancing. That distorts Cassell’s reasoning and common sense. The
7

Appendix 024a

Case: 1:20-cv-02782 Document #: 33 Filed: 05/13/20 Page 8 of 12 PageID #:554

congregants do not just stop by Elim Church. They congregate to sing, pray, and worship together.
That takes more time than shopping for liquor or groceries. The word “congregate,” from which
the term “congregation” derives, means to “gather into a crowd or mass.” Indeed, the church’s
YouTube channel lists a live recording from last Sunday’s service that was one hour, forty-seven
minutes long, with virtually no one in the congregation or clergy wearing a face covering.
Plaintiffs also complain that the Order classifies law and accounting firms as essential,
with no ten-person limit, suggesting that this somehow shows that the Order targets religion.
Again, however, people do not go to those places to gather in groups for hours at a time. In this
regard the court agrees with Judge Lee that a more apt analysis is between places of worship and
schools, both of which involve “activities where people sit together in an enclosed space to share a
common experience,” exacerbating the risk of contracting the virus. Cassell, 2020 2112374 at *10.
All public and private schools serving pre-kindergarten through twelfth grade students have been
closed under other Executive Orders. And under this Order, theaters and concert halls, which
clearly resemble the layout of plaintiffs’ churches, are completely banned from hosting any
gatherings.
As a result, the court concludes that the Order is both neutral and of general applicability.
As such, it does not violate the Free Exercise Clause so long as it is supported by a rational basis.
Anderson, 870 F.3d at 639. The Order, without doubt, is rationally based in light of the need to
slow the spread of COVID-19 in Illinois. Consequently, the court concludes that plaintiffs have a
less than negligible likelihood of success on the merits of this claim.
Plaintiff’s Establishment Clause claim fares no better. “[T]he Establishment Clause
prohibits government from abandoning secular purposes in order to put an imprimatur on one
8

Appendix 025a

Case: 1:20-cv-02782 Document #: 33 Filed: 05/13/20 Page 9 of 12 PageID #:555

religion, or on religion as such, or to favor the adherents of any sect or religious organization.”
Gillette v. U.S., 401 U.S. 437, 450 (1971). “Its central purpose is to ensure government neutrality
in matters of religion.” Id. at 449. To comply with the Establishment Clause, government action
must: 1) have a secular purpose; 2) have a primary effect that neither advances nor inhibits
religion; and 3) not foster an excessive government entanglement with religion.” Lemon v
Kurtzman, 403 U.S. 602, 612-13 (1972).
There is no doubt that the Order passes the Lemon test, and plaintiffs do not argue
otherwise. Indeed, once again, they fail to address Lemon in any of their three briefs. In any event,
the Order obviously has a secular purpose to prevent the spread of COVID-19. Its primary effect
neither advances nor prohibits religion. It does not favor one religion over another, or religion as
such. Plaintiff’s argument that the Order inhibits religion because it does not limit other essential
businesses to ten persons or fewer fails for the same reason its Free Exercise Claim fails. Finally,
the Order in no way fosters government entanglement with religion. Consequently, the court
concludes that plaintiffs have a less than negligible change of success on their Establishment
Clause claim.
Nor do plaintiffs have even a negligible change of success on their Free Speech and
Assembly claim. The First Amendment bars the government from “abridging the freedom of
speech.” A law must pass strict scrutiny when it restricts speech based on content. A speech
restriction is content-based when “it applies to particular speech because of the topic discussed or
the idea or message expressed.” Reed v. Town of Gilbert, Ariz., 576 U.S. 155 (2015). A
commonsense meaning of content-based requires the court to consider “whether a regulation of
speech on its face draws distinctions based on the message the speaker conveys.” Id. (internal
9

Appendix 026a

Case: 1:20-cv-02782 Document #: 33 Filed: 05/13/20 Page 10 of 12 PageID #:556

quotations omitted). Some such distinctions are obvious, such as defining speech by particular
subject matter; others are more subtle, defining regulated speech by its function or purpose. “Both
are distinctions drawn based on the message a speaker conveys, and, therefore, are subject to strict
scrutiny.” Id. Additionally, some facially content neutral laws will be considered content-based
regulations of speech if they “cannot be justified without reference to the content of the regulated
speech, or that were adopted by the government because of disagreement with the message the
speech conveys.” Id.
Plaintiffs have failed to present any evidence to demonstrate that the Order is based on the
content discussed at churches or the ideas or messages expressed. They again rely on the
exemptions for other essential businesses that are not restricted to gatherings of ten persons. From
this, plaintiffs conclude that the Order restricts religious speech because it is religious speech.
Once again, the court disagrees.
As noted in Cassell, the Order has nothing to do with suppressing religion and everything
to do with reducing infections and saving lives. There is no evidence that defendant has a history of
animus toward religion. Cassell noted the example of a church choir practice in Washington State
where members actually used hand sanitizer and practiced social distancing. Despite those efforts,
forty-five of the sixty choir members contracted COVID-19 and two died. Cassell, 2020 WL
2112374 at *13. That example illustrates the purpose of the Order. Large gatherings magnify the
risk of contagion even when participants practice preventative measures as plaintiffs claim they
are prepared to do.3 Consequently, the court concludes that plaintiffs’ chance of success on this
claim is less than negligible.
3

As mentioned above, the pictures of the services held by Elim on Sunday, May 10, 2020, show that the participants
were not wearing face coverings, as required by the CDC guidelines.

10

Appendix 027a

Case: 1:20-cv-02782 Document #: 33 Filed: 05/13/20 Page 11 of 12 PageID #:557

Balancing of Harms
Because plaintiffs have not shown a greater than negligible chance of success on the
merits, they are not entitled to preliminary relief. But, even if they had a slight chance of success,
under the sliding scale approach, the less likely their chance of success the more the balance of
harms must weigh in their favor. Valencia v. City of Springfield, Ill., 883 F.3d 959, 966 (7th Cir.
2018). Because their likelihood of success is so remote, plaintiffs must show that the scales weigh
heavily in their favor. They do not and cannot.
Indeed, quite the contrary is true. The harm to plaintiffs if the Order is enforced pales in
comparison to the dangers to society if it is not. The record clearly reveals how virulent and
dangerous COVID-19 is, and how many people have died and continue to die from it. “[T]he sad
reality is that places where people congregate, like churches, often act as vectors for the disease.”
Cassell, 2020 WL 2112374 at *15. Plaintiffs’ request for an injunction, and their blatant refusal to
follow the mandates of the Order are both ill-founded and selfish. An injunction would risk the
lives of plaintiffs’ congregants, as well as the lives of their family members, friends, co-workers
and other members of their communities with whom they come in contact. Their interest in
communal services cannot and does not outweigh the health and safety of the public.

11

Appendix 028a

Case: 1:20-cv-02782 Document #: 33 Filed: 05/13/20 Page 12 of 12 PageID #:558

CONCLUSION
For the reasons described above, plaintiffs’ motion for temporary restraining order and
preliminary injunction (Doc. 4) is denied.

ENTER: May 13, 2020

__________________________________________
Robert W. Gettleman
United States District Judge

12

Appendix 029a

Case: 1:20-cv-02782 Document #: 1-8 Filed: 05/07/20 Page 1 of 12 PageID #:78

Appendix 030a

Case: 1:20-cv-02782 Document #: 1-8 Filed: 05/07/20 Page 2 of 12 PageID #:79

Appendix 031a

Case: 1:20-cv-02782 Document #: 1-8 Filed: 05/07/20 Page 3 of 12 PageID #:80

Appendix 032a

Case: 1:20-cv-02782 Document #: 1-8 Filed: 05/07/20 Page 4 of 12 PageID #:81

Appendix 033a

Case: 1:20-cv-02782 Document #: 1-8 Filed: 05/07/20 Page 5 of 12 PageID #:82

Appendix 034a

Case: 1:20-cv-02782 Document #: 1-8 Filed: 05/07/20 Page 6 of 12 PageID #:83

Appendix 035a

Case: 1:20-cv-02782 Document #: 1-8 Filed: 05/07/20 Page 7 of 12 PageID #:84

Appendix 036a

Case: 1:20-cv-02782 Document #: 1-8 Filed: 05/07/20 Page 8 of 12 PageID #:85

Appendix 037a

Case: 1:20-cv-02782 Document #: 1-8 Filed: 05/07/20 Page 9 of 12 PageID #:86

Appendix 038a

Case: 1:20-cv-02782 Document #: 1-8 Filed: 05/07/20 Page 10 of 12 PageID #:87

Appendix 039a

Case: 1:20-cv-02782 Document #: 1-8 Filed: 05/07/20 Page 11 of 12 PageID #:88

Appendix 040a

Case: 1:20-cv-02782 Document #: 1-8 Filed: 05/07/20 Page 12 of 12 PageID #:89

Appendix 041a

Case: 1:20-cv-02782 Document #: 1-10 Filed: 05/07/20 Page 1 of 10 PageID #:96

RESTORE
ILLINOIS
A Public Health Approach To Safely Reopen Our State

Office of the Governor
JB Pritzker

May 5, 2020

Appendix 042a

Case: 1:20-cv-02782 Document #: 1-10 Filed: 05/07/20 Page 2 of 10 PageID #:97

Appendix 043a

Case: 1:20-cv-02782 Document #: 1-10 Filed: 05/07/20 Page 3 of 10 PageID #:98

An Introduction
tt

From the beginning of the new coronavirus pandemic, Illinois’ response has been guided by data, science, and public
health experts. As community spread rapidly increased, Governor Pritzker moved quickly to issue a Disaster
Proclamation on March 9, restrict visitors to nursing homes on March 11, close bars and restaurants for on-site
consumption on March 16, move schools to remote learning on March 17, and issue a Stay at Home order on March
21. This virus has caused painful, cascading consequences for everyone in Illinois, but the science has been clear: in
the face of a new coronavirus with unknown characteristics and in the absence of widespread testing availability and
contact tracing, mitigation and maintaining a 6-foot social distance have been the only options to reduce the spread
and save as many lives as possible.
Millions of Illinoisans working together by staying at home and following experts’ recommendations have proven
these mitigation and social distancing measures effective so far. The result has been a lower infection rate, fewer
hospitalizations, and lower number of fatalities than projected without these measures. Our curve has begun to
flatten. Nevertheless, the risk of spread remains, and modeling and data point to a rapid surge in new cases if all
mitigation measures were to be immediately lifted.
Now that Illinois is bending the curve, it is vitally important that we follow a safe and deliberate path forward to get
our Illinois economy moving. That path forward is not what everyone wants or hopes for, but it will keep Illinoisans as
safe as possible from this virus as our economy is reopening.
Restore Illinois is about saving lives and livelihoods. This five-phased plan will reopen our state, guided by health
metrics and with distinct business, education, and recreation activities characterizing each phase. This is an initial
framework that will likely be updated as research and science develop and as the potential for treatments or vaccines
is realized. The plan is based upon regional healthcare availability, and it recognizes the distinct impact COVID-19 has
had on different regions of our state as well as regional variations in hospital capacity. The Illinois Department of
Public Health (IDPH) has 11 Emergency Medical Services Regions that have traditionally guided its statewide public
health work and will continue to inform this reopening plan. For the purposes of this plan, from those 11, four health
regions are established, each with the ability to independently move through a phased approach: Northeast Illinois;
North-Central Illinois; Central Illinois; and Southern Illinois.

Appendix 044a

Case: 1:20-cv-02782 Document #: 1-10 Filed: 05/07/20 Page 4 of 10 PageID #:99

The five phases for each health region are as follows:
Phase 1 – Rapid Spread: The rate of infection among those tested and the number of patients admitted to the
hospital is high or rapidly increasing. Strict stay at home and social distancing guidelines are put in place and only
essential businesses remain open. Every region has experienced this phase once already, and could return to it if
mitigation efforts are unsuccessful.
Phase 2 – Flattening: The rate of infection among those tested and the number of patients admitted to the hospital
beds and ICU beds increases at an ever slower rate, moving toward a flat and even a downward trajectory. Nonessential retail stores reopen for curb-side pickup and delivery. Illinoisans are directed to wear a face covering when
outside the home and can begin enjoying additional outdoor activities like golf, boating and fishing while practicing
social distancing. To varying degrees, every region is experiencing flattening as of early May.
Phase 3 – Recovery: The rate of infection among those surveillance tested, the number of patients admitted to the
hospital, and the number of patients needing ICU beds is stable or declining. Manufacturing, offices, retail,
barbershops and salons can reopen to the public with capacity and other limits and safety precautions. Gatherings
limited to 10 people or fewer are allowed. Face coverings and social distancing are the norm.
Phase 4 – Revitalization: The rate of infection among those surveillance tested and the number of patients admitted
to the hospital continues to decline. Gatherings of 50 people or fewer are allowed, restaurants and bars reopen, travel
resumes, child care and schools reopen under guidance from the Illinois Department of Public Health. Face coverings
and social distancing are the norm.
Phase 5 – Illinois Restored: With a vaccine or highly effective treatment widely available or the elimination of any
new cases over a sustained period, the economy fully reopens with safety precautions continuing. Conventions,
festivals and large events are permitted, and all businesses, schools and places of recreation can open with new
safety guidance and procedures in place reflecting the lessons learned during the COVID-19 pandemic.
Until COVID-19 is defeated, this plan also recognizes that just as health metrics will tell us it is safe to move forward,
health metrics may also tell us to return to a prior phase. With a vaccine or highly effective treatment not yet
available, IDPH will be closely monitoring key metrics to immediately identify trends in cases and hospitalizations to
determine whether a return to a prior phase may become necessary.

All public health criteria included in this document are subject to change.
As research and data on this novel coronavirus continue to develop, this plan
can and will be updated to reflect the latest science and data.

Appendix 045a

Case: 1:20-cv-02782 Document #: 1-10 Filed: 05/07/20 Page 5 of 10 PageID #:100

RESTORE ILLINOIS HEALTH REGIONS
Winnebago

Stephenson

Boone

Jo Daviess

1
Carroll

Lake

9

Ogle

Kane

DeKalb
Whiteside

10

McHenry

DuPage

8

Lee
Kendall

Rock Island

Henry

Mercer

7

Bureau

2

LaSalle
Putnam

Kankakee

Henderson

Marshall
Knox

Livingston

Warren
Peoria

McDonough

Iroquois

Woodford

Tazewell

Fulton

Ford

McLean

Mason
Schuyler
Adams

Scott

Pike

Vermilion

Menard

Cass

Brown

Champaign

DeWitt Piatt

Logan

3

Macon

Morgan

Edgar

Douglas

Sangamon

Moultrie

6

Christian

Coles

Shelby

Greene

Calhoun

Clark
Cumberland

Macoupin
Montgomery
Fayette

Jersey

Madison

Bond

Clay

Richland

Wayne

Jefferson

5

Monroe
Perry

Hamilton

White

Franklin
Jackson

Crawford

Lawrence

Williamson

Saline

Hardin

Johnson

Union

Pope

Alexander

Pulaski Massac

Appendix 046a

Gallatin

Wabash

Washington

Jasper

Marion

Clinton

St. Clair

Randolph

Effingham

Edwards

4

NORTHEAST
NORTH-CENTRAL
CENTRAL
SOUTHERN

Cook

Will

Grundy

Stark

Hancock

11

Case: 1:20-cv-02782 Document #: 1-10 Filed: 05/07/20 Page 6 of 10 PageID #:101

Phase 1: Rapid Spread
WHAT THIS PHASE LOOKS LIKE
COVID-19 is rapidly spreading. The number of COVID-19 positive patients in the hospital, in ICU beds, and on
ventilators is increasing. The public health response relies on dramatic mitigation measures, like stay at home orders
and social distancing, to slow the spread of the virus and prevent a surge that overwhelms the health care system.
With a Stay at Home order in place, only essential businesses are in operation and activities outside of the home are
limited to essentials, like grocery shopping.
WHAT’S OPEN?
Gatherings: Essential gatherings, such as religious services, of 10 or fewer allowed; No non-essential gatherings of
any size
Travel: Non-essential travel discouraged
Health care: Emergency procedures and COVID-19 care only
Education and child care: Remote learning in P-12 schools and higher education; Child care in groups of 10 or fewer
for essential workers
Outdoor recreation: Walking, hiking and biking permitted; State parks closed
Businesses:
•
•
•
•
•
•

Manufacturing: Essential manufacturing only
“Non-essential” businesses: Employees of “non-essential” businesses are required to work from home except
for Minimum Basic Operations
Bars and restaurants: Open for delivery, pickup and drive-through only
Entertainment: Closed
Personal care services and health clubs: Closed
Retail: Essential stores are open with strict restrictions; Non-essential stores are closed

HOW WE MOVE TO THE NEXT PHASE
Cases and Capacity:
•
•

Slowing of new case growth
Availability of surge capacity in adult medical and surgical beds, ICU beds, and ventilators

Testing:
•
•

Ability to perform 10,000 tests per day statewide
Testing available in region for any symptomatic health care workers and first responders

Appendix 047a

Case: 1:20-cv-02782 Document #: 1-10 Filed: 05/07/20 Page 7 of 10 PageID #:102

Phase 2: Flattening
WHAT THIS PHASE LOOKS LIKE
The rise in the rate of infection is beginning to slow and stabilize. Hospitalizations and ICU bed usage continue to
increase but are flattening, and hospital capacity remains stable. Face coverings must always be worn when social
distancing is not possible. Testing capacity increases and tracing programs are put in place to contain outbreaks and
limit the spread.
WHAT’S OPEN
Gatherings: Essential gatherings, such as religious services, of 10 or fewer allowed; No non-essential gatherings
Travel: Non-essential travel discouraged
Health care: Emergency and COVID-19 care continue; Elective procedures allowed once IDPH criteria met
Education and child care: Remote learning in P-12 schools and higher education; Child care in groups of 10 or fewer
for essential workers
Outdoor recreation: Walking, hiking, and biking permitted; Select state parks open; Boating and fishing permitted;
Golf courses open; All with IDPH approved safety guidance
Businesses:
•
•
•
•
•

Manufacturing: Essential manufacturing only
“Non-essential” businesses: Employees of “non-essential” businesses are required to work from home except
for Minimum Basic Operations
Bars and restaurants: Open for delivery, pickup, and drive through only
Personal care services and health clubs: Closed
Retail: Essential stores are open with restrictions; Non-essential stores open for delivery and curbside pickup

HOW WE MOVE TO THE NEXT PHASE
Cases and Capacity: The determination of moving from Phase 2 to Phase 3 will be driven by the COVID-19 positivity
rate in each region and measures of maintaining regional hospital surge capacity. This data will be tracked from the
time a region enters Phase 2, onwards.
•

At or under a 20 percent positivity rate and increasing no more than 10 percentage points over a 14-day period, AND

•

No overall increase (i.e. stability or decrease) in hospital admissions for COVID-19-like illness for 28 days, AND

•

Available surge capacity of at least 14 percent of ICU beds, medical and surgical beds, and ventilators

Testing: Testing available for all patients, health care workers, first responders, people with underlying conditions,
and residents and staff in congregate living facilities
Tracing: Begin contact tracing and monitoring within 24 hours of diagnosis
WHAT COULD CAUSE US TO MOVE BACK
IDPH will closely monitor data and receive on-the-ground feedback from local health departments and regional
healthcare councils and will recommend moving back to the previous phase based on the following factors:
•
•
•
•

Sustained rise in positivity rate
Sustained increase in hospital admissions for COVID-19 like illness
Reduction in hospital capacity threatening surge capabilities
Significant outbreak in the region that threatens the health of the region

Appendix 048a

Case: 1:20-cv-02782 Document #: 1-10 Filed: 05/07/20 Page 8 of 10 PageID #:103

Phase 3: Recovery
t
WHAT THIS PHASE LOOKS LIKE
The rate of infection among those surveillance tested is stable or declining. COVID-19-related hospitalizations and
ICU capacity remains stable or is decreasing. Face coverings in public continue to be required. Gatherings of 10
people or fewer for any reason can resume. Select industries can begin returning to workplaces with social
distancing and sanitization practices in place. Retail establishments reopen with limited capacity, and select
categories of personal care establishments can also begin to reopen with social distancing guidelines and personal
protective equipment. Robust testing is available along with contact tracing to limit spread and closely monitor the
trend of new cases.
WHAT’S OPEN
Gatherings: All gatherings of 10 people or fewer are allowed with this limit subject to change based on latest data & guidance
Travel: Travel should follow IDPH and CDC approved guidance
Health Care: All health care providers are open with DPH approved safety guidance
Education and child care: Remote learning in P-12 schools and higher education; Limited child care and summer
programs open with IDPH approved safety guidance
Outdoor recreation: State parks open; Activities permitted in groups of 10 or fewer with social distancing
Businesses:
•
•
•
•
•

Manufacturing: Non-essential manufacturing that can safely operate with social distancing can reopen with
IDPH approved safety guidance
“Non-essential” businesses: Employees of “non-essential” businesses are allowed to return to work with
IDPH approved safety guidance depending upon risk level, tele-work strongly encouraged wherever possible;
Employers are encouraged to provide accommodations for COVID-19-vulnerable employees
Bars and restaurants: Open for delivery, pickup, and drive through only
Personal care services and health clubs: Barbershops and salons open with IDPH approved safety guidance; Health
and fitness clubs can provide outdoor classes and one-on-one personal training with IDPH approved safety guidance
Retail: Open with capacity limits and IDPH approved safety guidance, including face coverings

HOW WE MOVE TO THE NEXT PHASE
Cases and Capacity: The determination of moving from Phase 3 to Phase 4 will be driven by the COVID-19 positivity
rate in each region and measures of maintaining regional hospital surge capacity. This data will be tracked from the
time a region enters Phase 3, onwards.
•

At or under a 20 percent positivity rate and increasing no more than 10 percentage points over a 14-day period, AND

•

No overall increase (i.e. stability or decrease) in hospital admissions for COVID-19-like illness for 28 days, AND

•

Available surge capacity of at least 14 percent of ICU beds, medical and surgical beds, and ventilators

Testing: Testing available in region regardless of symptoms or risk factors
Tracing: Begin contact tracing and monitoring within 24 hours of diagnosis for more than 90% of cases in region
WHAT COULD CAUSE US TO MOVE BACK
IDPH will closely monitor data and receive on-the-ground feedback from local health departments and regional
healthcare councils and will recommend moving back to the previous phase based on the following factors:
•
•
•
•

Sustained rise in positivity rate
Sustained increase in hospital admissions for COVID-19 like illness
Reduction in hospital capacity threatening surge capabilities
Significant outbreak in the region that threatens the health of the region

Appendix 049a

Case: 1:20-cv-02782 Document #: 1-10 Filed: 05/07/20 Page 9 of 10 PageID #:104

Phase 4: Revitalization
t
WHAT THIS PHASE LOOKS LIKE
There is a continued decline in the rate of infection in new COVID-19 cases. Hospitals have capacity and can quickly
adapt for a surge of new cases in their communities. Additional measures can be carefully lifted allowing for schools
and child care programs to reopen with social distancing policies in place. Restaurants can open with limited
capacity and following strict public health procedures, including personal protective equipment for employees.
Gatherings with 50 people or fewer will be permitted. Testing is widely available, and tracing is commonplace.
WHAT’S OPEN
Gatherings: Gatherings of 50 people or fewer are allowed with this limit subject to change based on latest data and
guidance
Travel: Travel should follow IDPH and CDC approved guidance
Health care: All health care providers are open
Education and child care: P-12 schools, higher education, all summer programs, and child care open with IDPH
approved safety guidance
Outdoor Recreation: All outdoor recreation allowed
Businesses:
•
•
•
•
•
•

Manufacturing: All manufacturing open with IDPH approved safety guidance
“Non-essential” businesses: All employees return to work with IDPH approved safety guidance; Employers
are encouraged to provide accommodations for COVID-19-vulnerable employees
Bars and restaurants: Open with capacity limits and IDPH approved safety guidance
Personal care services and health clubs: All barbershops, salons, spas and health and fitness clubs open
with capacity limits and IDPH approved safety guidance
Entertainment: Cinema and theaters open with capacity limits and IDPH approved safety guidance
Retail: Open with capacity limits and IDPH approved safety guidance

HOW WE MOVE TO THE NEXT PHASE
Post-pandemic: Vaccine, effective and widely available treatment, or the elimination of new cases over a sustained
period of time through herd immunity or other factors.
WHAT COULD CAUSE US TO MOVE BACK
IDPH will closely monitor data and receive on-the-ground feedback from local health departments and regional
healthcare councils and will recommend moving back to the previous phase based on the following factors:
•
•
•
•

Sustained rise in positivity rate
Sustained increase in hospital admissions for COVID-19 like illness
Reduction in hospital capacity threatening surge capabilities
Significant outbreak in the region that threatens the health of the region

Appendix 050a

Case: 1:20-cv-02782 Document #: 1-10 Filed: 05/07/20 Page 10 of 10 PageID #:105

Phase 5: Illinois Restored
t
WHAT THIS PHASE LOOKS LIKE
Testing, tracing and treatment are widely available throughout the state. Either a vaccine is developed to prevent
additional spread of COVID-19, a treatment option is readily available that ensures health care capacity is no longer a
concern, or there are no new cases over a sustained period. All sectors of the economy reopen with new health and
hygiene practices permanently in place. Large gatherings of all sizes can resume. Public health experts focus on
lessons learned and building out the public health infrastructure needed to meet and overcome future challenges.
Heath care equity is made a priority to improve health outcomes and ensure vulnerable communities receive the
quality care they deserve.
WHAT’S OPEN
•
•

All sectors of the economy reopen with businesses, schools, and recreation resuming normal operations with
new safety guidance and procedures.
Conventions, festivals, and large events can take place.

Appendix 051a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 1 of 46 PageID #:1

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
Eastern Division
ELIM ROMANIAN PENTECOSTAL CHURCH,
and LOGOS BAPTIST MINISTRIES,

)
)
)
Plaintiffs,
)
)
v.
)
)
JAY ROBERT PRITZKER, in his official capacity
)
as Governor of the State of Illinois,
)
)
Defendant.
)
)

Case No.

VERIFIED COMPLAINT FOR DECLARATORY RELIEF,
TEMPORARY RESTRAINING ORDER, PRELIMINARY AND
PERMANENT INJUNCTIVE RELIEF, AND DAMAGES
Plaintiffs, ELIM ROMANIAN PENTECOSTAL CHURCH, and LOGOS BAPTIST
MINISTRIES (collectively, “Churches”), sue Defendant, JAY ROBERT PRITZKER, in his
official capacity as Governor of the State of Illinois (“Governor Pritzker” or the “State”), and
allege:
URGENCIES JUSTIFYING TEMPORARY RESTRAINING ORDER
1.

In their Prayer for Relief, infra, and in the contemporaneously filed Motion for

Temporary Restraining Order (TRO), Plaintiffs seek a TRO restraining enforcement against
Plaintiffs of the various COVID-19 orders issued by Governor Pritzker and other State officials
purporting to prohibit Plaintiffs, on pain of criminal sanctions, from gathering in-person at
Plaintiffs’ Churches for worship services that include more than 10 people, regardless of whether
Plaintiffs meet or exceed the social distancing and hygiene guidelines pursuant to which the State
disparately and discriminatorily allows so-called “essential” commercial and non-religious entities
(e.g., liquor stores, marijuana dispensaries, warehouse clubs, and ‘big box’ stores) to accommodate
Appendix 052a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 2 of 46 PageID #:2

large crowds and masses of persons without scrutiny or the 10-person limit. Governor Pritzker
has made it clear that churches, such as Plaintiffs, will not be able to hold in-person
gatherings of more than 10 people until Phase 4 of his Restore Illinois plan, and that
gatherings of more than 50 cannot take place until Phase 5—which he has stated may take
more than 1 year to achieve, and will only be available if there is some vaccine widely
available.
2.

As shown in the verified allegations below, Governor Pritzker’s Executive Orders

relating to COVID-19 have been interpreted, applied, and enforced, including against Plaintiffs,
such that Plaintiffs have been forced not to hold in-person religious services at their churches and
forced to prohibit their congregants from attending their houses of worship.
3.

At around the same time as Governor Pritzker’s Executive Orders surrounding

COVID-19 were being used to threaten criminal sanctions on Plaintiffs, officials in other
jurisdictions had similarly threatened to impose criminal sanctions on other religious gatherings.
In Louisville, Kentucky, for example, the government threatened to use police to impose criminal
sanctions on those individuals found in violation of similar COVID-19 orders and threatened to
impose various sanctions on individuals found in violation of such orders. The United States
District Court for the Western District of Kentucky found that the mere threat of such criminal
sanction warranted a TRO. See On Fire Christian Center, Inc. v. Fischer, No. 3:20-cv-264-JRW,
2020 WL 1820249 (W.D. Ky. Apr. 11, 2020) [hereinafter On Fire]. The On Fire TRO enjoined
the Mayor of Louisville from “enforcing, attempting to enforce, threatening to enforce, or
otherwise requiring compliance with any prohibition on drive-in church services at On Fire.”
Id. at *1 (emphasis added).

2
Appendix 053a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 3 of 46 PageID #:3

4.

In fact, the Illinois State Police—acting under the direction of Governor Pritzker’s

orders—have publicly declared that they would enforce the Governor’s orders and have threatened
to impose criminal sanctions on those found in violation of them.
5.

Additionally, the Governor of Kansas had imposed a similar restriction on religious

gatherings in Kansas, stating that gatherings of more than 10 individuals are prohibited, including
religious gatherings. On April 18, 2020, the United States District for the District of Kansas issued
a TRO enjoining Kansas officials from enforcing its discriminatory prohibition on religious
gatherings and required the government to treat “religious” worship services the same as other
similar gatherings that are permitted. See First Baptist Church. v. Kelly, No. 20-1102-JWB, 2020
WL 1910021, *6–7 (D. Kan. Apr. 18, 2020) [hereinafter First Baptist]. The First Baptist TRO
specifically stated that the government’s disparate treatment of religious gatherings was a violation
of the Free Exercise Clause because it showed that “religious activities were specifically targeted
for more onerous restrictions than comparable secular activities,” and that the churches had
shown irreparable harm because they would “be prevented from gathering for worship at their
churches” during the pendency of the executive order. Id. at *7–8 (emphasis added).
6.

In discussing the Kansas orders—which imposed a 10-person limit on in-person

gatherings similar to Governor Pritzker’s orders here—the court said that specifically singling out
religious gatherings for disparate treatment while permitting other non-religious activities
“show[s] that these executive orders expressly target religious gatherings on a broad scale and are,
therefore, not facially neutral,” First Baptist, 2020 WL 1910021, at *7, and—much like here—
“churches and religious activities appear to have been singled out among essential functions for
stricter treatment. It appears to be the only essential function whose core purpose—association
for the purpose of worship—had been basically eliminated.” Id. (emphasis added). Thus, the
court found that a TRO was necessary, and that Kansas should be enjoined from enforcing its
3
Appendix 054a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 4 of 46 PageID #:4

orders’ disparate terms against churches. Indeed, “it goes without saying that the government
could not lawfully expressly prohibit individuals from meeting together for religious
services.” Id. at *6 (emphasis added).
7.

Additionally, the Sixth Circuit of Appeals has issued an emergency injunction

pending appeal prohibiting the Kentucky Governor from enforcing prohibitions on religious
worship services. See Maryville Baptist Church, Inc. v. Beshear, -- F.3d --, 2020 WL 2111316 (6th
Cir. May 2, 2020). In that appeal challenging orders similar to Governor Pritzker’s orders here,
the Sixth Circuit stated that “[t]he Governor’s actions substantially burden the congregants’
sincerely held religious practices—and plainly so. . . . Orders prohibiting religious gatherings,
enforced by police officers telling congregants they violated a criminal law and by officers
taking down license plate numbers, amount to a significant burden on worship gatherings.”
2020 WL 2111316, at *2 (emphasis added). Additionally, “[t]he way the orders treat comparable
religious and non-religious activities suggests that they do not amount to the least restrictive way
of regulating the churches.” Id. “Outright bans on religious activity alone obviously count. So do
general bans that cover religious activity when there are exceptions for comparable secular
activities.” Id., at *3. In discussing the prohibitions on religious gatherings, the Sixth Circuit posed
several questions of equal import here:
Assuming all of the same precautions are taken, why is it safe to wait in a car for a
liquor store to open but dangerous to wait in a car to hear morning prayers? Why
can someone safely walk down a grocery store aisle but not a pew? And why
can someone safely interact with a brave deliverywoman but not with a stoic
minister? The Commonwealth has no good answers. While the law may take
periodic naps during a pandemic, we will not let it sleep through one.
Id., at *4 (emphasis added).
8.

Because the prohibition on religious gatherings substantially burdened Maryville

Baptist’s sincerely held religious beliefs and was not the least restrictive means, the Sixth Circuit

4
Appendix 055a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 5 of 46 PageID #:5

issued an injunction pending appeal enjoining the Kentucky Governor from enforcing his
unconstitutional orders. Id., at *5.
9.

Plaintiffs’ congregants are also threatened with criminal sanctions and penalties if,

at any time, any number of individuals gather together for in-person worship services at Plaintiffs’
churches, and regardless of whether social distancing, enhanced sanitization, and personal hygiene
practices are followed. Because of the government threat of criminal sanction, Plaintiffs were
forced not to host services on Easter Sunday, the most treasured day in Christianity.
10.

Absent emergency relief from this Court, Plaintiffs, their pastors, and all

congregants will suffer immediate and irreparable injury from the threat of criminal prosecution
for the mere act of engaging in the free exercise of religion and going to church. Indeed, if
Plaintiffs, their pastors, or their members do not subscribe to what Governor Pritzker has
prescribed as orthodox in a worship service, they risk becoming criminals in the State. A
temporary restraining should issue.
INTRODUCTION
11.

Due to the unprecedented nature of the 2019 novel coronavirus disease

(COVID-19) and the indisputable health tragedy the disease has wrought on our great Republic
and those victims suffering under its yoke, there are those who may find it “tempting to hold that
First Amendment rights should acquiesce to national security in this instance.” Tobey v. Jones,
706 F.3d 379, 393 (4th Cir. 2013). One could be forgiven for hastily reaching such a conclusion
in such uncertain times, but “our Forefather Benjamin Franklin warned against such a temptation
by opining that those who can give up essential liberty to obtain a little temporary safety, deserve
neither liberty nor safety.” Id.
12.

When the great American experiment was first implemented, our revered Founders

took pains to note that the Constitution—and all of the rights it recognized and enshrined—was
5
Appendix 056a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 6 of 46 PageID #:6

instituted “in order to form a more perfect Union, establish Justice, insure domestic Tranquility,
provide for the common defense, promote the general Welfare, and secure the Blessings of
Liberty to ourselves and our Posterity.” U.S. Const. Pmbl. (emphasis added). To this very day,
“we continue to strive toward ‘[that] more perfect union.’” Smith v. City of New Smyrna Beach,
No. 6:110cv01110-Orl-37KRS, 2013 WL 5230659, *1 (M.D. Fla. Sept. 16, 2013). That work is
not easy, and governments acting in good faith can and sometimes do miss the mark. This is such
a case.
13.

Recognizing that times of crisis would arise, that such times might lead

governments to seek to repress precious freedoms, and that the Republic’s survival depended upon
defeating such repressive instincts, the genius of our founding document is that it placed explicit
protections into the text of the Bill of Rights. And, importantly, “[o]ur Bill of Rights placed our
survival on firmer ground—that of freedom, not repression.” Konigsberg v. State Bar of
California, 366 U.S. 36, 79 (1961) (Black, J., dissenting).
14.

During times of national crisis, such as the current uncertainty arising from

COVID-19, “the fog of public excitement obscures the ancient landmarks set up in our Bill of
Rights.” American Communist Ass’n, C.I.O. v. Douds, 339 U.S. 382, 453 (1950) (Black, J.,
dissenting). But, where the fog of public excitement is at its apex, “the more imperative is the need
to preserve inviolate the constitutional rights of free speech, free press and free assembly.” De
Jonge v. Oregon, 299 U.S. 353, 365 (1937). Without doubt, “[t]herein lies the security of the
Republic, the very foundation of constitutional government.” Id.
15.

It is beyond cavil that our commitment to our founding principles is most tested

and best calculated during times of crisis and uncertainty. Indeed, “[t]imes of crisis take the truest
measure of our commitment to constitutional values. Constitutional values are only as strong as
our willingness to reaffirm them when they seem most costly to bear.” Hartness v. Bush, 919
6
Appendix 057a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 7 of 46 PageID #:7

F.2d 170, 181 (D.C. Cir. 1990) (Edwards, J., dissenting) (emphasis added). Our willingness to
reaffirm our staunch commitment to our fundamental freedoms is imperative to the very survival
of the American experiment. For, “[h]istory reveals that the initial steps in the erosion of individual
rights are usually excused on the basis of an ‘emergency’ or threat to the public. But the ultimate
strength of our constitutional guarantees lies in the unhesitating application in times of crisis
and tranquility alike.” United States v. Bell, 464 F.2d 667, 676 (2d Cir. 1972) (Mansfield, J.,
concurring) (emphasis added).
16.

Plaintiffs bring this case to restrain the troubling transgression of their fundamental

and cherished liberties wrought by the imposition of Governor Pritzker’s orders surrounding
COVID-19. Plaintiffs seek not to discredit or discard the government’s unquestionable interest in
doing that task for which it was instituted—protecting the citizenry. But, as is often true in times
of crisis, Plaintiffs respectfully submit that in an effort to uphold his sworn duties Governor
Pritzker has stepped over a line the Constitution does not permit. Because of that, Plaintiffs bring
this action to ensure that this Court safeguards the cherished liberties for which so many have
fought and died. For, “[i]f the provisions of the Constitution be not upheld when they pinch as
well as when they comfort, they may as well be discarded.” Home Bldg. & Loan Ass’n v.
Blaisdell, 290 U.S. 398, 483 (1934) (Sutherland, J., dissenting) (emphasis added). Plaintiffs pray
unto the Court that it not permit the cherished and fundamental liberties enshrined in the
Constitution to be another tragic casualty of COVID-19.
17.

Indeed, Plaintiffs and many of their members chose America as their homeland

after fleeing communist oppression in Romania that, much like the COVID-19 Orders at issue
here, targeted religious gatherings, houses of worship, and communal exercise of their religion and
faith and imposed criminal sanctions for defiance of such prohibitions.

7
Appendix 058a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 8 of 46 PageID #:8

18.

Some of the pastors and members of Plaintiffs’ churches experienced such

persecution personally, and had hoped to never experience it again in the great experiment of
American freedom.
PARTIES
19.

Plaintiff ELIM ROMANIAN PENTECOSTAL CHURCH is a not-for-profit

corporation incorporated under the laws of the State of Illinois with its principal place of business
at 4850 N. Bernard Street, Chicago, Illinois 60625.
20.

Plaintiff LOGOS BAPTIST MINISTRIES is a not-for-profit corporation

incorporated under the laws of the State of Illinois with its principal place of business at 7280
North Caldwell Avenue, Niles, Illinois 60714.
21.

Defendant, JAY ROBERT PRITZKER, in his official capacity as Governor of the

State of Illinois (“Governor Pritzker” or the “State”), is responsible for enacting and enforcing the
COVID-19 Executive Orders and other Orders at issue in this litigation. Governor Pritzker is sued
in his official capacity.
JURISDICTION AND VENUE
22.

This action arises under the First and Fourteenth Amendments to the United States

Constitution and is brought pursuant to 42 U.S.C. § 1983. This action also arises under the
Religious Land Use and Institutionalized Persons Act, 42 U.S.C. § 2000cc, et seq. This action also
arises under Article I, Sections 3, 4, and 5 the Constitution of the State of Illinois, and the Illinois
Religious Freedom Restoration Act.
23.

This Court has jurisdiction over this action pursuant to 28 U.S.C. §§ 1331, 1343,

and 1367.
24.

Venue is proper in this Court pursuant to 28 U.S.C. § 1391(b)(2) because a

substantial part of the events or omissions giving rise to Plaintiffs’ claims occurred in this district.
8
Appendix 059a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 9 of 46 PageID #:9

25.

This Court is authorized to grant declaratory judgment under the Declaratory

Judgment Act, 28 U.S.C. §§ 2201–02, implemented through Rule 57 of the Federal Rules of Civil
Procedure, and is authorized to grant a temporary restraining order and injunctive relief pursuant
to Rule 65 of the Federal Rules of Civil Procedure.
26.

This Court is authorized to grant Plaintiffs’ prayer for relief regarding costs,

including a reasonable attorney’s fee, pursuant to 42 U.S.C. § 1988.
GENERAL ALLEGATIONS
A.

GOVERNOR PRITZKER’S EXECUTIVE ORDERS AND RELATED
ORDERS FROM THE STATE OF ILLINOIS.

27.

On March 9, 2020, in response to COVID-19, Governor Pritzker issued a

Gubernatorial Disaster Proclamation, which declared a state of emergency in the State of Illinois.
A true and correct copy of the March 9th Proclamation is attached hereto as EXHIBIT A and
incorporated herein.
28.

In the Emergency Proclamation, Governor Pritzker stated that COVID-19

represents a public health emergency and directed various government agencies to implement
certain restrictions and orders to facilitate the State’s response.
29.

On March 13, 2020, Governor Pritzker issued Executive Order 2020-04 stating that

“all public and private gatherings in the State of Illinois of 1,000 or more people are cancelled.” A
true and correct copy of Executive Order 2020-04 is attached hereto as EXHIBIT B and
incorporated herein.
30.

On March 16, 2020, Governor Pritzker issued Executive Order 2020-07, which

bans “all public and private gatherings in the State of Illinois of 50 or more people.” A true and
correct copy of Executive Order 2020-07 is attached hereto as EXHIBIT C and incorporated
herein.

9
Appendix 060a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 10 of 46 PageID #:10

31.

Executive Order 2020-07 explicitly states that its prohibitions apply to “faith-based

events” that “bring[] together 50 or more people in a single room or a single space at the same
time.” But, the plain langue of the order excludes so-called “essential” services, such as grocery
stores and gas stations.
32.

Executive Order 2020-07 also directs various government agencies, including the

Illinois State Police, to use all available resources “to enforce the provisions of this Executive
Order.”
33.

On March 20, 2020, Governor Pritzker issued Executive Order 2020-10, which

purports to mandate all individuals in the State of Illinois to “stay at home or at their place of
residence.” A true and correct copy of Executive Order 2020-10 is attached hereto as EXHIBIT D
and incorporated herein. The stay-at-home mandate exempts “Essential Travel,” including for
access to “Essential Activities” and “Essential Businesses and Operations.”
34.

Executive Order 2020-10 states that “[a]ll public and private gatherings of any

number of people . . . are prohibited” (emphasis added), and also (inconsistently) that “any
gathering of more than ten people is prohibited,” unless otherwise permitted by the Executive
Order. But, the order exempts from the gathering limitations “Essential Businesses and
Operations,” comprising health, human services, governmental, and infrastructure operations, and
23 categories of exempted businesses including, inter alia, grocery stores, alcoholic beverage
stores, hardware stores, cannabis stores, gas stations, law firms and professional businesses, labor
unions, and hotels, and also including warehouse, supercenter, and ‘big box’ stores combining
several categories.
35.

The only limitation placed on so-called “Essential Businesses and Operations” is

that they—“[t]o the greatest extent feasible” and “where possible”—comply with social distancing
and hygiene recommendations.
10
Appendix 061a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 11 of 46 PageID #:11

36.

On April 1, 2020, Governor Pritzker issued Executive Order 2020-18, which

continued the prohibitions of the previous executive orders through April 30, 2020. A true and
correct copy of Executive Order 2020-18 is attached hereto as EXHIBIT E and incorporated
herein.
37.

On April 2, 2020, Governor Pritzker issued another Disaster Proclamation,

extending his purported authority to issue emergency declarations in response to COVID-19. A
true and correct copy of the April 2 Proclamation is attached hereto as EXHIBIT F and
incorporated herein.
38.

On April 30, 2020, Governor Pritzker issued another Disaster Proclamation,

extending until May 30, 2020 the original disaster proclamation and purporting to extend his
authority to continue issuing executive orders related to COVID-19. A true and correct copy of the
April 30th Proclamation is attached hereto as EXHIBIT G and incorporated herein.
39.

On April 30, 2020, Governor Pritzker also issued Executive Order 2020-32, which

effectively replaced Executive Order 2020-10, and which continues to prohibit “[a]ll public and
private gatherings of any number of people” and (still inconsistently) “any gathering of more than
ten people.” A true and correct copy of Executive Order 2020-32 is attached hereto as EXHIBIT
H and incorporated herein.
40.

Executive Order 2020-32 also continues to require all individuals to stay in their

homes and places of residence except “for Essential Activities, Essential Governmental Functions,
or to operate Essential Businesses and Operations.”
41.

For the first time, Executive Order 2020-32 adds to “Essential Activities” for which

individuals may leave their homes or places of residence “engag[ing] in the free exercise of
religion, provided that such exercise must comply with Social Distancing Requirements and the
limit on gatherings of more than ten people.” The order also states that “[r]eligious organizations
11
Appendix 062a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 12 of 46 PageID #:12

and houses of worship are encouraged to use online or drive-in services to protect the health and
safety of their congregants.”
42.

So-called “Essential Businesses and Operations” are permitted to continue

accommodate large numbers of people without the 10-person limit imposed on religious
gatherings, subject only to—“to the greatest extent possible” and “where possible”—social
distancing and other hygiene precautions and an occupancy limit of 50% of building capacity for
retail stores.
43.

Executive Order 2020-32 continues to recognize a list of 23 categories of

exempted businesses as “Essential Businesses and Operations,” including, inter alia, grocery
stores, alcoholic beverage stores, hardware stores, cannabis stores, gas stations, law firms and
professional businesses, labor unions, and hotels, and also including warehouse, supercenter, and
‘big box’ stores combining several categories.
44.

On April 30, 2020, Governor Pritzker also issued Executive Order 2020-33,

continuing through May 29, 2020, inter alia, Executive Orders 2020-04 and 2020-07. A true and
correct copy of Executive Order 2020-33 is attached hereto as EXHIBIT I and incorporated
herein.
45.

On May 5, 2020, Governor Pritzker released his “Restore Illinois” plan, which

purports to set stages for the reopening of churches and religious gatherings in Illinois. A true and
correct copy of Restore Illinois is attached hereto as EXHIBIT J and incorporated herein.
46.

Restore Illinois states that Phases 1, 2, and 3 will continue to limit in-person

gatherings to 10 or fewer people, with the Phase 3 limit “subject to change based on latest data &
guidance.”
47.

Restore Illinois does not contemplate permitting religious gatherings of more than

10 people until Phase 4, when “[g]atherings of 50 people or fewer are allowed with this limit
12
Appendix 063a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 13 of 46 PageID #:13

subject to change based on latest data and guidance,” and if Governor Pritzker determines it is
appropriate to permit such gatherings. Also, beginning Phase 4 this plan “can and will be updated”
and is “subject to change” at any time and in the Governor’s discretion.
48.

Restore Illinois does not contemplate permitting gatherings of more than 50 people

until Phase 5, when “[l]arge gatherings of all sizes can resume,” but Phase 5 will not occur until
“a vaccine is developed,” “a treatment option is readily available,” or “there are no new cases over
a sustained period.”
49.

Restore Illinois is merely “an initial framework” with all criteria subject to change,

without commitments to timing, and contemplating backwards movement to prior phases as well
as forward movement to new phases. To be sure, in his press conference on May 6, 2020, Governor
Pritzker made it clear that in-person gathering limitations will apply to churches throughout the
phased openings, and that it might take more than 12 to 18 months for churches to be permitted to
have over 50 persons present, regardless of the sizes of facilities and whether social distancing
may be effected. See Gov. Pritzker’s Coronavirus (COVID-19) Press Conference, Wednesday,
May 6, 2020,

State

of

Illinois

Coronavirus (COVID-19) Response, available at

https://coronavirus.illinois.gov/s/news-archive, and https://vimeo.com/415693668 (last visited
May 7, 2020).
50.

Plaintiffs hereinafter refers to Executive Order 2020-04, Executive Order 2020-07,

Executive Order 2020-10, Executive Order 2020-18, Executive Order 2020-32, and Executive
Order 2020-33, the relevant disaster Proclamations, and the Restore Illinois plan (EXHIBITS A–
J) collectively as the “GATHERING ORDERS.”

13
Appendix 064a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 14 of 46 PageID #:14

B.

THE STATE’S ENFORCEMENT
GATHERING ORDERS.

OF

GOVERNOR

51.

On April 8, 2020, the Illinois State Police issued an enforcement guidance

PRITZKER

document (the “ISP Enforcement Guidance”) indicating that it will enforce Governor Pritzker’s
GATHERING ORDERS against churches and individuals found in violation of them. A true and
correct copy of the ISP Enforcement Guidance is attached hereto as EXHIBIT K and incorporated
herein.
52.

The ISP Enforcement Guidance states that the State Police are “free to use their

training to disperse the crowd” found in violation of Governor Pritzker’s GATHERING ORDERS.
53.

The ISP Enforcement Guidance further states that the State Police can fill out

“[s]top cards and field reports” concerning those found in violation of the GATHERING
ORDERS, and that non-compliance with the GATHERING ORDERS may result in misdemeanor
citations being issued for the offenses of Reckless Conduct and Disorderly Conduct under the
Illinois code.
54.

Through its ISP Enforcement Guidance, the Illinois State Police has unquestionably

demonstrated that it intends to enforce the GATHERING ORDERS, including against Plaintiffs
and their religious services.
C.

PLAINTIFFS’ CHURCHES SERVICES CAN AND WILL COMPLY WITH
SOCIAL
DISTANCING
AND
PERSONAL
HYGIENE
RECOMMENDATIONS.

55.

On Saturday May 2, 2020, Plaintiffs joined in a letter sent to Governor Pritzker

informing him that they are willing to voluntarily comply with social distancing and personal
hygiene practices for their in-person worship services. A true and correct copy of that letter is
attached hereto as EXHIBIT L and incorporated herein.

14
Appendix 065a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 15 of 46 PageID #:15

56.

In their letter, Plaintiffs stated that they would incorporate all of the following into

each of their in-person worship services: (1) reduced seating for in-person worship services; (2)
churches with moveable chairs will remove some of the chairs to maintain proper social distancing;
(3) marking chairs or pews for use or non-use, and/or ushers’ seating people with social distancing
guidelines (allowing family units to be seated together); (4) prior to and following any in-person
service, facilities will be sanitized; (5) attendees will be advised that, if they choose, they may
wear masks and/or gloves; (6) attendees will be advised not to engage in hand shaking or other
physical contact; (7) hand sanitizer will be available for use throughout the facility, and each
person may be given a squirt of sanitizer or a sanitizer wipe upon entering; (8) selected points of
entry and exit separated from each other establishing a one-way traffic pattern; (9) doors propped
open or held open by ushers to prevent the need for congregants to touch doors while entering and
exiting the church or sanctuary; and (10) asking anyone with any symptoms of COVID-19, anyone
who works in healthcare facilities that treat COVID-19 patients, and those that are elderly and/or
with auto-immune issues to forego our in-person gatherings for a time.
57.

Plaintiff Elim Romanian Pentecostal Church has a campus of approximately 40,000

square feet, with 750 seats in its main auditorium and an additional 550 seats in overflow rooms
(1,300 total seats).
58.

Plaintiff Logos Baptist Ministries has a campus of approximately 36,000 square

feet, with 425 seats in its main auditorium and 100 seats available in an overflow room (525 total
seats.
59.

Plaintiffs’ churches, and many others like them, could each easily accommodate

many more than 10 persons in a worship service while still observing all social distancing and
safety precautions imposed by Governor Pritzker’s GATHERING ORDERS (i.e., “to the greatest
extent feasible” or “when possible” for exempted businesses), and Plaintiffs can and would
15
Appendix 066a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 16 of 46 PageID #:16

practice the stringent social distancing and personal hygiene protocols outlined in their May 2,
2020 letter to Governor Pritzker.
D.

LESS RESTRICTIVE ALTERNATIVES
GOVERNOR PRITZKER.

ARE

AVAILABLE

TO

60.

Despite Governor Pritzker’s insistence that in-person religious gatherings of more

than 10 people cannot continue because they would spread COVID-19, the State has failed to
consider other, substantially less restrictive alternatives to an absolute prohibition on such
“religious” gatherings.
61.

Like the State of Illinois, the State of Florida has issued stay-at-home executive

orders and required the closure of all so-called “non-essential” businesses without unnecessarily
discriminating against religious gatherings. On April 1, 2020, Florida Governor Ron DeSantis
issued Executive Order 20-91, which included “religious services conducted in churches,
synagogues, and houses of worship” as essential activities permitted to continue subject to
social distancing and personal hygiene guidelines. A true and correct copy of Florida Executive
Order 20-91 is attached hereto as EXHIBIT M and incorporated herein.
62.

The State of Indiana has likewise issued stay-at-home executive orders and required

the closure of all so-called “non-essential” businesses without unnecessarily discriminating against
religious gatherings. Governor Eric. J. Holcomb’s Executive Order 20-08 declared that “[r]eligious
facilities, entities and groups, and religious gatherings” are essential and may continue to operate
provided they follow appropriate social distancing and personal hygiene practices. A true and
correct copy of Indiana’s Executive Order 20-08 is attached hereto as EXHIBIT N and
incorporated herein.
63.

The State of Arizona, in Executive Order 2020-18, classified “[e]ngaging in

constitutionally protected activities such as speech and religion” as essential activities, subject to

16
Appendix 067a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 17 of 46 PageID #:17

a flexible requirement that such engagement be “conducted in a manner that provides appropriate
physical distancing to the extent feasible.” The Arizona Attorney General, in Opinion I20-008,
interpreted such essential activities clearly to include assembling for religious worship. True and
correct copies of Arizona Executive Order 2020-18 and Arizona Attorney General Opinion
I20-008 are attached hereto as EXHIBIT O and EXHIBIT P, respectively, and incorporated
herein.
64.

The State of Alabama, in its final Order of the State Health Officer Suspending

Certain Public Gatherings Due to Risk of Infection by COVID-19, issued April 3, 2020, exempts
individuals attending religious worship services in person subject to certain requirements and
permits “drive-in” worship services without limitation. A true and correct copy of the Alabama
Order is attached hereto as EXHIBIT Q and incorporated herein.
65.

The State of Arkansas has likewise exempted “places of worship” from its

Executive Order 20-13 imposing restrictions to prevent the spread of COVID-19, provided that
they engage in adequate social distancing and personal hygiene practices. A true and correct copy
of the Arkansas Executive Order is attached hereto as EXHIBIT R and incorporated herein.
66.

The State of Connecticut has similarly shown that other, less restrictive alternatives

are available. In Executive Order No. 7N, Governor Ned Lamont permitted religious services to
continue to meet, but limited their in-person gatherings to 50 people, as opposed to the six-person
limit applicable to other gatherings. A true and correct copy of the Connecticut Executive Order
No. 7N is attached hereto as EXHIBIT S and incorporated herein.
67.

The State of Texas has likewise issued certain COVID-19 orders, but has provided

explicit protections to religious gatherings and issued directives outlining the protection for
religious freedom, even in these times of uncertainty. A true and correct copy of the Texas
Guidance for Houses of Worship is attached hereto as EXHIBIT T and incorporated herein. In
17
Appendix 068a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 18 of 46 PageID #:18

that Guidance, Texas notes that religious assemblies and houses of worship are “essential services”
and that in-person gatherings are permissible if social distancing and personal hygiene practices
are followed.
68.

The State of Ohio has likewise issued certain COVID-19 orders, including the Ohio

Department of Health’s Stay Safe Ohio Order. A true and correct copy of the Ohio order is attached
hereto as EXHIBIT U and incorporated herein. Ohio’s order likewise states that the stay at home
mandate “does not apply to religious facilities, entities and groups and religious gatherings.”
69.

Numerous other states have similarly permitted religious gatherings to be treated

equally with non-religious gatherings.
70.

As these other states have demonstrated, Governor Pritzker can continue to pursue

the State’s objective of preventing the spread of COVID-19 without unnecessarily treating
religious gatherings in a discriminatory manner, and the State has numerous other, less restrictive
alternatives available to it to do so.
71.

Governor Pritzker has neither tried without success nor considered and ruled

out for good reason these less restrictive alternatives.
72.

Governor Pritzker has constitutionally permissible alternatives available, but has

failed to attempt to achieve the State’s purported goals without unnecessarily interfering with
constitutionally protected activities.
E.

IRREPARABLE INJURY TO PLAINTIFFS
PRITZKER’S GATHERING ORDERS.

FROM

GOVERNOR

73.

Despite being capable of following all social distancing and personal hygiene

protocols recommended by the CDC and specified in the GATHERING ORDERS, Plaintiffs have
been explicitly targeted, singled out, and punished for participating in an in-person religious
gathering when exempted commercial and non-religious entities may accommodate gatherings,

18
Appendix 069a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 19 of 46 PageID #:19

crowds, and masses of people without numeric limitation, and without targeting or punishment by
the government.
74.

As a result of Governor Pritzker’s GATHERING ORDERS, Plaintiffs have

suffered and are suffering irreparable injury by having their pastors, members, and all attendees of
future services threatened with criminal sanction.
75.

As a result of Governor Pritzker’s GATHERING ORDERS, Plaintiffs have

suffered and are suffering irreparable injury by being prohibited from engaging in their
constitutionally and statutorily protected rights of free exercise, assembly, and speech.
76.

As a result of Governor Pritzker’s GATHERING ORDERS, Plaintiffs have

suffered and are suffering irreparable injury by the infringement of their constitutionally protected
rights to be free from government hostility toward religion.
77.

As a result of the Governor Pritzker’s GATHERING ORDERS and the explicit

threats from the Illinois State Police, Plaintiffs have suffered and are suffering irreparable injury
by the continuing threat of criminal sanctions on Plaintiffs’ pastors and congregants for merely
exercising their constitutionally protected freedoms.
78.

Due to the explicit threats of Governor Pritzker’s GATHERING ORDERS and the

announcements by the Illinois State Police, Plaintiffs have been forced to self-censor, cease their
religious worship services, and violate their sincerely held religious beliefs.
G.

PLAINTIFFS’ ATTEMPTS TO SECURE RELIEF WITHOUT JUDICIAL
INTERVENTION WERE IGNORED AND FURTHER ATTEMPTS TO
NOTIFY THE STATE ARE FUTILE AND IMPRACTICAL BEFORE THIS
SUNDAY.

79.

In addition to the May 2, 2020 letter to Governor Pritzker joined by Plaintiffs

(EXHIBIT L), on May 7, 2020, prior to the commencement of the instant action, Plaintiffs’ counsel
sent by email and facsimile a demand letter to Governor Pritzker (via Lieutenant Governor Juliana

19
Appendix 070a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 20 of 46 PageID #:20

Stratton), with copies to the Governor’s General Counsel and the Illinois Attorney General, in
which Plaintiffs’ counsel demanded, by 3:00 P.M. on May 7, written confirmation that the State
has withdrawn the ban on religious gatherings embodied in the GATHERING ORDERS, will
allow individuals to attend church services at Plaintiffs’ churches in an equal manner with other
essential and non-essential business permitted to continue provided certain social distancing and
personal hygiene practices are followed, and will cease enforcement of any church gathering ban
against members and/or attendees of Plaintiffs’ church services. A true and correct copy of the
demand letter is attached hereto as EXHIBIT V. No written response from Governor Pritzker’s
office was received by the requested deadline, or at any time prior to the filing of this Verified
Complaint.
80.

The failure of Governor Pritzker or his officials to confirm withdrawal or cessation

of enforcement of the discriminatory prohibitions on religious services in the GATHERING
ORDERS and applied to Plaintiffs shows that Plaintiffs’ irreparable injury to their constitutionally
protected freedoms is ongoing.
81.

The failure of Governor Pritzker or his officials to respond to Plaintiffs’

communication also shows that notice and an opportunity to respond to this lawsuit cannot be
effectuated, and would be futile, prior to this Sunday’s worship activities at Plaintiffs’ respective
churches, when Governor Pritzker or other State officials will again interfere with the
constitutional liberties of Plaintiffs and their congregants absent a temporary restraining order from
this Court.

20
Appendix 071a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 21 of 46 PageID #:21

CONSTITUTIONAL CLAIMS
COUNT I—THE GATHERING ORDERS VIOLATE
PLAINTIFFS’ RIGHTS TO FREE EXERCISE OF RELIGION
UNDER THE FIRST AMENDMENT
82.

Plaintiffs hereby reallege and adopt each and every allegation in paragraphs 1–81

83.

The Free Exercise Clause of the First Amendment to the United States Constitution,

above.

as applied to the states by the Fourteenth Amendment, prohibits the State from abridging Plaintiffs’
rights to free exercise of religion.
84.

Plaintiffs have sincerely held religious beliefs that Scripture is the infallible,

inerrant word of the Lord Jesus Christ, and that they are to follow its teachings.
85.

Plaintiffs have sincerely held religious beliefs, rooted in Scripture’s commands

(e.g., Hebrews 10:25), that followers of Jesus Christ are not to forsake the assembling of
themselves together, and that they are to do so even more in times of peril and crisis. Indeed, the
entire purpose of the Church (in Greek “ekklesia,” meaning “assembly”) is to assemble together
Christians to worship Almighty God.
86.

The GATHERING ORDERS, on their face and as applied, target Plaintiffs’

sincerely held religious beliefs by prohibiting religious gatherings.
87.

The GATHERING ORDERS, on their face and as applied, impermissibly burden

Plaintiffs’ sincerely held religious beliefs, compel Plaintiffs to either change those beliefs or to act
in contradiction to them, and force Plaintiffs to choose between the teachings and requirements of
their sincerely held religious beliefs in the commands of Scripture and the State’s imposed value
system.

21
Appendix 072a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 22 of 46 PageID #:22

88.

The GATHERING ORDERS, on their face and as applied, place Plaintiffs in an

irresolvable conflict between compliance with the GATHERING ORDERS and their sincerely
held religious beliefs.
89.

The GATHERING ORDERS, on their face and as applied, put substantial pressure

on Plaintiffs to violate their sincerely held religious beliefs by ignoring the fundamental teachings
and tenets of Scripture concerning the assembling of Believers.
90.

The GATHERING ORDERS, on their face and as applied, are neither neutral nor

generally applicable, but rather specifically and discriminatorily target the religious beliefs,
speech, assembly, and viewpoint of Plaintiffs.
91.

The GATHERING ORDERS, on their face and as applied, constitute a substantial

burden on Plaintiffs’ sincerely held religious beliefs.
92.

The State lacks a compelling, legitimate, or rational interest in the GATHERING

ORDERS’ application of different standards for churches and religious gatherings than those
applicable to exempted businesses or non-religious entities.
93.

Even if the GATHERING ORDERS’ restriction on religious gatherings were

supported by a compelling interest, which it is not, they are not the least restrictive means to
accomplish the government’s purported interest.
94.

The GATHERING ORDERS, on their face and as applied, fail to accommodate

Plaintiffs’ sincerely held religious beliefs.
95.

The GATHERING ORDERS, on their face and as applied, specifically target

Plaintiffs’ sincerely held religious beliefs and set up a system of individualized exemptions that
permits certain other similarly situated businesses or non-religious entities to continue operations
under certain guidelines while prohibiting religious gatherings, such as Plaintiffs’ church and
worship services, from operating with similar guidelines.
22
Appendix 073a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 23 of 46 PageID #:23

96.

The GATHERING ORDERS, on their face and as applied, constitute an express

and overt religious gerrymander.
97.

The GATHERING ORDERS, on their face and as applied, have caused, are

causing, and will continue to cause Plaintiffs immediate and irreparable harm, and actual and
undue hardship.
98.

Plaintiffs have no adequate remedy at law to correct the continuing deprivation of

their most cherished liberties.
WHEREFORE, Plaintiffs respectfully pray for relief against the State as hereinafter set
forth in their prayer for relief.
COUNT II—THE GATHERING ORDERS VIOLATE
PLAINTIFFS’ RIGHTS TO PEACEABLE ASSEMBLY
UNDER THE FIRST AMENDMENT
99.

Plaintiffs hereby reallege and adopt each and every allegation in paragraphs 1–81

100.

The First Amendment to the United States Constitution, as applied to the states by

above.

the Fourteenth Amendment, prohibits the State from abridging the right of the people peaceably
to assemble.
101.

The GATHERING ORDERS, on their face and as applied, are an unconstitutional

prior restraint on Plaintiffs’ right to assemble.
102.

The GATHERING ORDERS, on their face and as applied, unconstitutionally

discriminate on the basis of viewpoint.
103.

The GATHERING ORDERS, on their face and as applied, unconstitutionally

discriminate on the basis of content.

23
Appendix 074a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 24 of 46 PageID #:24

104.

The State lacks a compelling, legitimate, or rational interest in the GATHERING

ORDERS’ application of differential standards for churches and religious gatherings than those
applicable to exempted businesses or non-religious entities.
105.

The GATHERING ORDERS, on their face and as applied, are not the least

restrictive means to accomplish any permissible government purpose sought to be served by the
orders.
106.

The GATHERING ORDERS, on their face and as applied, are not narrowly tailored

to serve the government’s purported interest.
107.

The GATHERING ORDERS, on their face and as applied, do not leave open ample

alternative channels of communication for Plaintiffs.
108.

The GATHERING ORDERS, on their face and as applied, are irrational and

unreasonable and impose unjustifiable and unreasonable restrictions on Plaintiffs’ constitutionally
protected right to assemble.
109.

The GATHERING ORDERS, on their face and as applied, impermissibly vest

unbridled discretion in the hands of government officials, including Governor Pritzker and his
designees, to apply or not apply the GATHERING ORDERS in a manner to restrict free assembly.
110.

The GATHERING ORDERS, on their face and as applied, are underinclusive by

limiting their gathering prohibitions to only certain businesses or organizations deemed “nonessential.”
111.

The GATHERING ORDERS, on their face and as applied, are unconstitutionally

vague and overbroad as they chill and abridge the free assembly rights of Plaintiffs.
112.

On their face and as applied, the GATHERING ORDERS’ violation of Plaintiffs’

right to free assembly have caused, are causing, and will continue to cause Plaintiffs to suffer
immediate and irreparable injury and undue and actual hardship.
24
Appendix 075a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 25 of 46 PageID #:25

113.

Plaintiffs have no other adequate remedy at law to correct the continuing

deprivation of their most cherished liberties.
WHEREFORE, Plaintiffs respectfully pray for the relief against the State as hereinafter set
forth in their prayer for relief.
COUNT III - THE GATHERING ORDERS VIOLATE
PLAINTIFFS’ RIGHTS TO FREEDOM OF SPEECH
UNDER THE FIRST AMENDMENT
114.

Plaintiffs hereby reallege and adopt each and every allegation in paragraphs 1–81

115.

The Free Speech Clause of the First Amendment to the United States Constitution,

above.

as applied to the states by the Fourteenth Amendment, prohibits the State from abridging Plaintiffs’
freedom of speech.
116.

The GATHERING ORDERS, on their face and as applied, are an unconstitutional

prior restraint on Plaintiffs’ speech.
117.

The GATHERING ORDERS, on their face and as applied, unconstitutionally

discriminate on the basis of viewpoint.
118.

The GATHERING ORDERS, on their face and as applied, unconstitutionally

discriminate on the basis of content.
119.

The State lacks a compelling, legitimate, or rational interest in the GATHERING

ORDERS’ application of different standards for churches and religious gatherings than those
applicable to exempted businesses and non-religious entities.
120.

The GATHERING ORDERS, on their face and as applied, are not the least

restrictive means to accomplish any permissible government purpose sought to be served by the
orders.

25
Appendix 076a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 26 of 46 PageID #:26

121.

The GATHERING ORDERS, on their face and as applied, are not narrowly tailored

to serve the government’s purported interest.
122.

The GATHERING ORDERS, on their face and as applied, do not leave open ample

alternative channels of communication for Plaintiffs.
123.

The GATHERING ORDERS, on their face and as applied, are irrational and

unreasonable and impose unjustifiable and unreasonable restrictions on Plaintiffs’ constitutionally
protected speech.
124.

The GATHERING ORDERS, on their face and as applied, impermissibly vest

unbridled discretion in the hands of government officials, including Governor Pritzker and his
designees, to apply or not apply the GATHERING ORDERS in a manner to restrict free speech.
125.

The GATHERING ORDERS, on their face and as applied, are underinclusive by

limiting their prohibitions to only certain entities, organizations, or businesses deemed “nonessential.”
126.

The GATHERING ORDERS, on their face and as applied, are unconstitutionally

overbroad as they chill and abridge the free speech rights of Plaintiffs.
127.

On their face and as applied, the GATHERING ORDERS’ violation of Plaintiffs’

rights to free speech have caused, are causing, and will continue to cause Plaintiffs to suffer
immediate and irreparable injury and undue and actual hardship.
128.

Plaintiffs have no other adequate remedy at law to correct the continuing

deprivation of their most cherished liberties.
WHEREFORE, Plaintiffs respectfully pray for the relief against the State as hereinafter set
forth in their prayer for relief.

26
Appendix 077a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 27 of 46 PageID #:27

COUNT IV—THE GATHERING ORDERS VIOLATE
THE ESTABLISHMENT CLAUSE OF THE FIRST AMENDMENT
129.

Plaintiffs hereby reallege and adopt each and every allegation in paragraphs 1–81

130.

The Establishment Clause of the First Amendment to the United States

above.

Constitution, as applied to the states by the Fourteenth Amendment, prohibits the government from
establishing a religion.
131.

The Establishment Clause also prohibits excessive government entanglement with

religion.
132.

The Establishment Clause also prohibits the government from showing hostility

towards religion and prohibits showing favoritism towards one religious sect over another or
between non-religion and religion.
133.

The government mandated prohibition on “faith-based” or “religious” gatherings

in the GATHERING ORDERS violates the Establishment Clause because the State of Illinois
thereby dictates the manner in which Christians and churches must worship or worship online.
134.

The Establishment Clause does not permit the State of Illinois to dictate under

penalty of criminal sanctions the manner, style, form, practices, or sacraments of religious worship
and thereby impose its own version of religious worship on every church and citizen of the State.
135.

In fact, as the Supreme Court has unequivocally stated, “[i]f there is any fixed star

in our constitutional constellation, it is that no official, high or petty, can prescribe what shall be
orthodox in politics, nationalism, religion, or other matters of opinion or force citizens to confess
by word or act their faith therein.” W. Va. State Bd. of Educ. v. Barnette, 319 U.S. 624, 642 (1943)
(emphasis added).

27
Appendix 078a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 28 of 46 PageID #:28

136.

The State, through Governor Pritzker’s GATHERING ORDERS, is purporting to

prescribe what shall be orthodox in matters of religious worship, and is thus running roughshod
over the Establishment Clause.
137.

The GATHERING ORDERS, on their face and as applied, permit the State to

display impermissible hostility towards religious gatherings.
138.

The GATHERING ORDERS, on their face and as applied, impermissibly show

favoritism towards certain non-religious gatherings over religious gatherings.
139.

The GATHERING ORDERS, on their face and as applied, violate the

Establishment Clause because they excessively entangle the government with religion.
140.

The GATHERING ORDERS, on their face and as applied, purport to inform

religious adherents and believers how they may choose to worship, assemble together, or engage
in their religious freedoms.
141.

The GATHERING ORDERS, on their face and as applied, purport to establish an

acceptable method of religious practice and worship, place a numerical limitation on the scope of
how such religious practice and worship may occur, and provide a government imprimatur for
only certain forms of “permissible” worship.
142.

The GATHERING ORDERS, on their face and as applied, demonstrate overt

hostility to religious practice and worship that does not conform to government sanctioned
religious exercises.
143.

The GATHERING ORDERS, on their face and as applied, have caused, are

causing, and will continue to cause Plaintiffs immediate and irreparable harm, and actual and
undue hardship.
144.

Plaintiffs have no adequate remedy at law to correct the continuing deprivation of

their most cherished constitutional liberties.
28
Appendix 079a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 29 of 46 PageID #:29

WHEREFORE, Plaintiffs respectfully pray for the relief against the State as hereinafter set
forth in their prayer for relief.
COUNT V—THE GATHERING ORDERS VIOLATE
PLAINTIFFS’ RIGHTS TO EQUAL PROTECTION
UNDER THE FOURTEENTH AMENDMENT
145.

Plaintiffs hereby reallege and adopt each and every allegation in paragraphs 1–81

146.

The Fourteenth Amendment to the United States Constitution guarantees Plaintiffs

above.

the right to equal protection under the law.
147.

The GATHERING ORDERS, on their face and as applied, are an unconstitutional

abridgement of Plaintiffs’ right to equal protection under the law, are not neutral, and specifically
target Plaintiffs’ and other religious gatherings for unequal treatment.
148.

The GATHERING ORDERS, on their face and as applied, are an unconstitutional

abridgment of Plaintiffs’ right to equal protection because they permit the State to treat Plaintiffs
differently from other similarly situated businesses and non-religious entities on the basis of the
content and viewpoint of Plaintiffs’ gatherings.
149.

The GATHERING ORDERS create a system of exempt categories that permit

essential businesses and gatherings to continue to operate with restriction or threat of sanction, and
impose disparate treatment to those categories of businesses and gatherings called “non-essential.”
150.

The GATHERING ORDERS system of categories represents disparate treatment

based upon classification in violation equal protection.
151.

The GATHERING ORDERS, on their face and as applied, impermissibly

discriminate between certain non-religious gatherings and religious gatherings.

29
Appendix 080a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 30 of 46 PageID #:30

152.

The State lacks a compelling, legitimate, or rational interest in the GATHERING

ORDERS’ application of different standards for churches and religious gatherings than those
applicable to exempted businesses or non-religious entities.
153.

The GATHERING ORDERS, on their face and as applied, are not the least

restrictive means to accomplish any permissible government purpose sought to be served.
154.

The GATHERING ORDERS, on their face and as applied, do not have a rational

155.

The GATHERING ORDERS, on their face and as applied, are irrational and

basis.

unjustifiable and impose irrational and unjustifiable restrictions on Plaintiffs’ religious gatherings.
156.

The GATHERING ORDERS, on their face and as applied, have caused, are

causing, and will continue to cause Plaintiffs immediate and irreparable harm, and actual and
undue hardship.
157.

Plaintiffs have no adequate remedy at law to correct the continuing deprivation of

their most cherished liberties.
WHEREFORE, Plaintiffs respectfully pray for relief against the State as hereinafter set
forth in their prayer for relief.
COUNT VI—THE GATHERING ORDERS VIOLATE
PLAINTIFFS’ RIGHTS TO A REPUBLICAN FORM OF GOVERNMENT
UNDER THE GUARANTEE CLAUSE OF ARTICLE IV, § 4 OF
THE UNITED STATES CONSTITUTION
158.

Plaintiffs hereby reallege and adopt each and every allegation in paragraphs 1–81

159.

Article IV, § 4 of the United States Constitution requires the United States to

above.

guarantee to every citizen in the nation a republican form of government.

30
Appendix 081a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 31 of 46 PageID #:31

160.

The Guarantee Clause’s distinguishing feature is that the republican form of

government it guarantees is the right of the people to choose their own governmental
administration and pass their own laws.
161.

As interpreted by the federal judiciary and prominent scholars, the Guarantee

Clause mandates that the federal government guarantee a form of government for all citizens in
which supreme power resides in a body of citizens entitled to vote and exercised by elected officers
responsible to such citizens.
162.

The GATHERING ORDERS’ express, unilateral, and unequivocal exercises of

purported executive authority over the constitutional rights of Plaintiffs deprive Plaintiffs of the
right to select their own government administration, pass their own laws, and maintain a
government administration directly responsible to the people, including by laws that are enacted
by the legislature in constitutional recognition of the separation of powers.
163.

The impermissible exercise of exclusive and unaccountable executive authority

violates the Guarantee Clause of the United States Constitution.
164.

The GATHERING ORDERS, on their face and as applied, have caused, are

causing, and will continue to cause Plaintiffs immediate and irreparable harm, and actual and
undue hardship.
165.

Plaintiffs have no adequate remedy at law to correct the continuing deprivation of

their most cherished liberties.
WHEREFORE, Plaintiffs respectfully pray for the relief against the State as hereinafter set
forth in their prayer for relief.

31
Appendix 082a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 32 of 46 PageID #:32

COUNT VII—THE GATHERING ORDERS VIOLATE
PLAINTIFFS’ RIGHTS TO FREE EXERCISE OF RELIGION
UNDER ARTICLE I, SECTION 3 OF THE CONSTITUTION OF ILLINOIS
166.

Plaintiffs hereby reallege and adopt each and every allegation in paragraphs 1–81

167.

Article I, § 3 of the Constitution of Illinois states: “The free exercise and enjoyment

above.

of religious profession and worship, without discrimination, shall forever be guaranteed, and no
person shall be denied any civil or political right, privilege or capacity, on account of his religious
opinions.”
168.

Plaintiffs have sincerely held religious beliefs that Scripture is the infallible,

inerrant word of the Lord Jesus Christ, and that they are to follow its teachings.
169.

Plaintiffs have sincerely held religious beliefs, rooted in Scripture’s commands

(e.g., Hebrews 10:25), that followers of Jesus Christ are not to forsake the assembling of
themselves together, and that they are to do so even more in times of peril and crisis. Indeed, the
entire purpose of the Church (in Greek “ekklesia,” meaning “assembly”) is to assemble together
Christians to worship Almighty God.
170.

The GATHERING ORDERS, on their face and as applied, target Plaintiffs’

sincerely held religious beliefs by prohibiting religious gatherings.
171.

The GATHERING ORDERS, on their face and as applied, impermissibly burden

Plaintiffs’ sincerely held religious beliefs, compel Plaintiffs to either change those beliefs or to act
in contradiction to them, and force Plaintiffs to choose between the teachings and requirements of
their sincerely held religious beliefs in the commands of Scripture and the State’s imposed value
system.

32
Appendix 083a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 33 of 46 PageID #:33

172.

The GATHERING ORDERS, on their face and as applied, place Plaintiffs in an

irresolvable conflict between compliance with the GATHERING ORDERS and their sincerely
held religious beliefs.
173.

The GATHERING ORDERS, on their face and as applied, put substantial pressure

on Plaintiffs to violate their sincerely held religious beliefs by ignoring the fundamental teachings
and tenets of Scripture concerning the assembling of Believers.
174.

The GATHERING ORDERS, on their face and as applied, are neither neutral nor

generally applicable, but rather specifically and discriminatorily target the religious beliefs,
speech, assembly, and viewpoint of Plaintiffs.
175.

The GATHERING ORDERS, on their face and as applied, constitute a substantial

burden on Plaintiffs’ sincerely held religious beliefs.
176.

The State lacks a compelling, legitimate, or rational interest in the GATHERING

ORDERS’ application of different standards for churches and religious gatherings than those
applicable to exempted businesses or non-religious entities.
177.

Even if the GATHERING ORDERS’ restriction on religious gatherings were

supported by a compelling interest, which it is not, they are not the least restrictive means to
accomplish the government’s purported interest.
178.

The GATHERING ORDERS, on their face and as applied, fail to accommodate

Plaintiffs’ sincerely held religious beliefs.
179.

The GATHERING ORDERS, on their face and as applied, specifically target

Plaintiffs’ sincerely held religious beliefs and set up a system of individualized exemptions that
permits certain other similarly situated businesses or non-religious entities to continue operations
under certain guidelines while prohibiting religious gatherings, such as Plaintiffs’ church and
religious gatherings, from operating with similar guidelines.
33
Appendix 084a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 34 of 46 PageID #:34

180.

The GATHERING ORDERS, on their face and as applied, constitute an express

and overt religious gerrymander.
181.

The GATHERING ORDERS, on their face and as applied, have caused, are

causing, and will continue to cause Plaintiffs immediate and irreparable harm, and actual and
undue hardship.
182.

Plaintiffs have no adequate remedy at law to correct the continuing deprivation of

their most cherished liberties.
WHEREFORE, Plaintiffs respectfully pray for relief against the State as hereinafter set
forth in their prayer for relief.
COUNT VIII—THE GATHERING ORDERS VIOLATE
PLAINTIFFS’ RIGHTS TO FREEDOM OF SPEECH AND ASSEMBLY
UNDER ARTICLE I, SECTIONS 4–5 OF THE CONSTITUTION OF ILLINOIS
183.

Plaintiffs hereby reallege and adopt each and every allegation in paragraphs 1–81

184.

Article I, Section 4 of the Constitution of Illinois states that “[a]ll persons may

above.

speak, write and publish freely.”
185.

Article I, Section 5 states that “[t]he people have the right to assemble in a peaceable

manner.”
186.

The GATHERING ORDERS, on their face and as applied, are an unconstitutional

prior restraint on Plaintiffs’ speech and assembly.
187.

The GATHERING ORDERS, on their face and as applied, unconstitutionally

discriminate on the basis of viewpoint.
188.

The GATHERING ORDERS, on their face and as applied, unconstitutionally

discriminate on the basis of content.

34
Appendix 085a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 35 of 46 PageID #:35

189.

The State lacks a compelling, legitimate, or rational interest in the GATHERING

ORDERS’ application of different standards for churches and religious gatherings than those
applicable to exempted businesses and non-religious entities.
190.

The GATHERING ORDERS, on their face and as applied, are not the least

restrictive means to accomplish any permissible government purpose sought to be served by the
orders.
191.

The GATHERING ORDERS, on their face and as applied, are not narrowly tailored

to serve the government’s purported interest.
192.

The GATHERING ORDERS, on their face and as applied, do not leave open ample

alternative channels of communication for Plaintiffs.
193.

The GATHERING ORDERS, on their face and as applied, are irrational and

unreasonable and impose unjustifiable and unreasonable restrictions on Plaintiffs’ constitutionally
protected speech and right to assemble.
194.

The GATHERING ORDERS, on their face and as applied, impermissibly vest

unbridled discretion in the hands of government officials, including Governor Pritzker and his
designees, to apply or not apply the GATHERING ORDERS in a manner to restrict free speech
and assembly.
195.

The GATHERING ORDERS, on their face and as applied, are underinclusive by

limiting their prohibitions to only certain entities, organizations, or businesses deemed “nonessential.”
196.

The GATHERING ORDERS, on their face and as applied, are unconstitutionally

overbroad as they chill and abridge the free speech and assembly rights of Plaintiffs.

35
Appendix 086a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 36 of 46 PageID #:36

197.

On their face and as applied, the GATHERING ORDERS’ violation of Plaintiffs’

rights to free speech and assembly have caused, are causing, and will continue to cause Plaintiffs
to suffer immediate and irreparable injury and undue and actual hardship.
198.

Plaintiffs have no other adequate remedy at law to correct the continuing

deprivation of their most cherished liberties.
WHEREFORE, Plaintiffs respectfully pray for the relief against the State as hereinafter set
forth in their prayer for relief.
STATUTORY CLAIMS
COUNT IX—THE GATHERING ORDERS VIOLATE PLAINTIFFS’ RIGHTS UNDER
THE RELIGIOUS LAND USE AND INSTITUTIONALIZED PERSONS ACT
199.

Plaintiffs hereby reallege and adopt each and every allegation in paragraphs 1–81

200.

The Religious Land Use and Institutionalized Persons Act, 42 U.S.C. §§ 2000cc–

above.

2000cc-5 (“RLUIPA”), states that “[n]o government shall impose or implement a land use
regulation in a manner that imposes a substantial burden on the religious exercise of a person,
including a religious assembly or institution.” 42 U.S.C. § 2000cc(a)(1). If the government does
impose such a restriction, it must then demonstrate that such a burden on the religious assembly is
supported by a compelling interest and is the least restrictive means to further that alleged interest.
201.

RLUIPA further mandates that no government “impose or implement a land use

regulation in a manner that treats a religious assembly or institution on less than equal terms with
a nonreligious assembly or institution.” 42 U.S.C. § 2000cc(b)(1).
202.

RLUIPA further states that “[n]o government shall impose or implement a land use

regulation that (A) totally excludes religious assemblies from a jurisdiction; or (B) unreasonably

36
Appendix 087a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 37 of 46 PageID #:37

limits religious assemblies, institutions, or structures within a jurisdiction.” 42 U.S.C.
§ 2000cc(b)(3).
203.

Plaintiffs have sincerely held religious beliefs that Scripture is the infallible,

inerrant word of the Lord Jesus Christ, and that Plaintiffs are to follow its teachings.
204.

Plaintiffs have sincerely held religious beliefs, rooted in Scripture’s commands

(e.g., Hebrews 10:25), that followers of Jesus Christ are not to forsake the assembling of
themselves together, and that they are to do so even more in times of peril and crisis. Indeed, the
entire purpose of the Church (in Greek “ekklesia,” meaning “assembly”) is to assemble together
Christians to worship Almighty God.
205.

The GATHERING ORDERS, on their face and as applied, target Plaintiffs’

sincerely held religious beliefs by prohibiting religious gatherings.
206.

The GATHERING ORDERS, on their face and as applied, impermissibly and

substantially burden Plaintiffs’ sincerely held religious beliefs, compel Plaintiffs to either change
those beliefs or to act in contradiction to them, and force Plaintiffs to choose between the teachings
and requirements of their sincerely held religious beliefs in the commands of Scripture and the
State’s imposed value system.
207.

The GATHERING ORDERS, on their face and as applied, constitute a substantial

burden on Plaintiffs’ sincerely held religious beliefs.
208.

The State lacks a compelling interest in the GATHERING ORDERS’ application

of different standards for churches and religious gatherings than those applicable to exempted
businesses and non-religious entities.
209.

Even if the GATHERING ORDERS’ restrictions on religious gatherings was

supported by a compelling interest, which it is not, they are not the least restrictive means to
accomplish the government’s purported interest.
37
Appendix 088a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 38 of 46 PageID #:38

210.

The GATHERING ORDERS, on their face and as applied, have caused, are

causing, and will continue to cause Plaintiffs immediate and irreparable harm, and actual and
undue hardship.
211.

Plaintiffs have no adequate remedy at law to correct the continuing deprivation of

their most cherished liberties.
WHEREFORE, Plaintiffs respectfully pray for relief against the State as hereinafter set
forth in their prayer for relief.
COUNT X – THE GATHERING ORDERS VIOLATE PLAINTIFFS’ RIGHTS UNDER
THE ILLINOIS RELIGIOUS FREEDOM RESTORATION ACT
212.

Plaintiffs hereby reallege and adopt each and every allegation in paragraphs 1–81

213.

Illinois’s Religious Freedom Restoration Act prohibits the government from

above.

substantially burdening Plaintiffs’ free exercise of religion. 775 I.L.C.S. §35/15. If the government
does burden a person’s sincerely held religious beliefs, it must demonstrated that it is in furtherance
of a compelling government interest and is the least restrictive means of achieving that interest.
214.

Plaintiffs have sincerely held religious beliefs that Scripture is the infallible,

inerrant word of the Lord Jesus Christ, and that they are to follow its teachings.
215.

Plaintiffs have sincerely held religious beliefs, rooted in Scripture’s commands

(e.g., Hebrews 10:25), that followers of Jesus Christ are not to forsake the assembling of
themselves together, and that they are to do so even more in times of peril and crisis. Indeed, the
entire purpose of the Church (in Greek “ekklesia,” meaning “assembly”) is to assemble together
Christians to worship Almighty God.
216.

The GATHERING ORDERS, on their face and as applied, target Plaintiffs’

sincerely held religious beliefs by prohibiting faith-based gatherings.

38
Appendix 089a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 39 of 46 PageID #:39

217.

The GATHERING ORDERS, on their face and as applied, impermissibly and

substantially burden Plaintiffs’ sincerely held religious beliefs, compel Plaintiffs to either change
those beliefs or to act in contradiction to them, and force Plaintiffs to choose between the teachings
and requirements of their sincerely held religious beliefs in the commands of Scripture and
Defendant’s imposed value system.
218.

The GATHERING ORDERS, on their face and as applied, constitute a substantial

burden on Plaintiffs’ sincerely held religious beliefs.
219.

Defendant lacks a compelling interest in the GATHERING ORDERS’ application

of differential standards for churches and faith-based gatherings than those applicable to other socalled “non-life-sustaining” businesses or services.
220.

Even if the GATHERING ORDERS’s restriction on faith-based gatherings was

supported by a compelling interest, which it is not, they are not the least restrictive means to
accomplish the government’s purported interest.
221.

The State has not and cannot demonstrate a compelling government interest in

treating Plaintiffs’ faith-based or religious gatherings differently that other non-religious
gatherings of so-called “non-life-sustaining” businesses or services.
222.

The State has not and cannot demonstrate that it has deployed the least restrictive

means to further its purported compelling interest.
223.

The GATHERING ORDERS, on their face and as applied, have caused, are

causing, and will continue to cause Plaintiffs immediate and irreparable harm, and actual and
undue hardship.
224.

Plaintiffs have no adequate remedy at law to correct the continuing deprivation of

their most cherished liberties.

39
Appendix 090a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 40 of 46 PageID #:40

WHEREFORE, Plaintiffs respectfully pray for the relief against Defendant as hereinafter
set forth in their prayer for relief
PRAYER FOR RELIEF
WHEREFORE, Plaintiffs prays for relief as follows:
A.

That the Court issue a Temporary Restraining Order restraining and enjoining

Governor Pritzker, all State officers, agents, employees, and attorneys, and all other persons in
active concert or participation with them, from enforcing, attempting to enforce, threatening to
enforce, or otherwise requiring compliance with the GATHERING ORDERS or any other order
to the extent any such order prohibits religious worship services or in-person church services at
Plaintiffs’ churches, if Plaintiffs meet the social distancing, enhanced sanitization, and personal
hygiene guidelines pursuant to which the State allows so-called “essential” commercial and nonreligious entities (e.g., beer, wine, and liquor stores, warehouse clubs, ‘big box,” ‘supercenter’
stores, and marijuana dispensaries) to accommodate gatherings of persons without numerical limit.
To be clear, Plaintiffs merely seeks a TRO preventing Plaintiffs, their pastors, and their
congregants from being subject to criminal sanctions for hosting in-person worship services
on Sunday during which Plaintiffs will implement social distancing and hygiene protections
on an equal basis with other non-religious gatherings. In making such a request, Plaintiffs
merely seek to be treated equally with other businesses, and seek only to be permitted to meet in
person so long as they abide by social distancing, enhanced sanitizing, and personal hygiene
recommendations that other businesses are allowed to follow and remain open.
B.

That the Court issue a Preliminary Injunction pending trial, and a Permanent

Injunction upon judgment, restraining and enjoining Governor Pritzker, all State officers, agents,
employees, and attorneys, and all other persons in active concert or participation with them, from
enforcing the GATHERING ORDERS so that:
40
Appendix 091a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 41 of 46 PageID #:41

i.

The State will not apply the GATHERING ORDERS in any manner as to
infringe Plaintiffs’ constitutional and statutory rights by discriminating
against their right to assembly, speech, free exercise of religion, equal
protection, and all other constitutional and statutory rights outlined herein;

ii.

The State will apply the GATHERING ORDERS in a manner that treats
Plaintiffs’ religious gatherings on equal terms as gatherings for or in socalled “essential” businesses and non-religious entities;

iii.

The State will permit religious gatherings so long as they comply with the
same social distancing and personal hygiene recommendations pursuant to
which the State allows so-called “essential” commercial and non-religious
entities (e.g., beer, wine, and liquor stores, cannabis stores, warehouse
clubs, and supercenters) to accommodate gatherings of persons without
numerical limit under the GATHERING ORDERS;

iv.

The State will permit Plaintiffs the opportunity to comport their behavior to
any further limitations or restrictions that the State may impose in any future
modification, revision, or amendment of the GATHERING ORDERS or
similar legal directive; and

v.

The State will not bring any enforcement, criminal, or other public health
actions against Plaintiffs as threatened in Governor Pritzker’s public
statements.

C.

That the Court render a Declaratory Judgment declaring that the GATHERING

ORDERS both on their face and as applied by the State are unconstitutional under the United
States Constitution and Constitution of Illinois, and further declaring that:

41
Appendix 092a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 42 of 46 PageID #:42

i.

The State has violated Plaintiffs’ rights to freedom of assembly by
impermissibly prohibiting religious gatherings;

ii.

The State has violated Plaintiffs’ rights to freedom of speech by
impermissibly prohibiting religious gatherings;

iii.

The State has violated Plaintiffs’ rights to free exercise of religion by
impermissibly prohibiting religious gatherings, substantially burdening
their sincerely held religious beliefs, applying criteria that are neither
neutral nor generally applicable to religious and non-religious gatherings,
by establishing a religious gerrymander against religious gatherings, and by
establishing a system of individualized exemptions that exclude similarly
situated non-religious gatherings from the prohibitions applicable to
Plaintiffs’ religious gatherings;

iv.

The State has violated Plaintiffs’ rights to equal protection of the laws by
impermissibly prohibiting religious gatherings, and by applying criteria that
treats religious gatherings in a discriminatory and dissimilar manner as that
applied to various non-religious gatherings;

v.

The State has violated the Establishment Clause by impermissibly
demonstrating hostility towards religious gatherings and by impermissibly
showing favoritism to certain non-religious gatherings;

vi.

The State has violated the Guarantee Clause by impermissibly exercising
executive authority in an unconstitutional manner;

vii.

The State has violated the Religious Land Use and Institutionalized Persons
Act by substantially and impermissibly burdening Plaintiffs’ sincerely held
religious beliefs and treating unequally as compared to other non-religious
42
Appendix 093a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 43 of 46 PageID #:43

assemblies or institutions, by imposing draconian prohibitions on Plaintiffs’
sincerely held religious beliefs without a compelling government interest,
and without deploying the least restrictive means to achieve any permissible
government interest; and
viii.

The State has violated the Illinois Religious Freedom Restoration Act by
substantially and impermissibly burdening Plaintiffs’ sincerely held
religious beliefs and treating unequally as compared to other non-religious
assemblies or institutions, by imposing draconian prohibitions on Plaintiffs’
sincerely held religious beliefs without a compelling government interest,
and without deploying the least restrictive means to achieve any permissible
government interest

D.

That the Court award Plaintiffs nominal damages for the violation of Plaintiffs’

constitutional rights.
E.

That the Court adjudge, decree, and declare the rights and other legal relations

within the subject matter here in controversy so that such declaration shall have the full force and
effect of final judgment.
F.

That the Court retain jurisdiction over the matter for the purposes of enforcing the

Court’s order.
G.

That the Court declare Plaintiffs are prevailing parties and award Plaintiffs the

reasonable costs and expenses of this action, including a reasonable attorney’s fee, in accordance
with 42 U.S.C. § 1988.
H.

That the Court grant such other and further relief as the Court deems equitable and

just under the circumstances.

43
Appendix 094a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 44 of 46 PageID #:44

Respectfully submitted,
/s/ Horatio G. Mihet
Mathew D. Staver*
Horatio G. Mihet*
Roger K. Gannam*
Daniel J. Schmid*
LIBERTY COUNSEL
P.O. Box 540774
Orlando, FL 32854
Phone: (407) 875-1776
Facsimile: (407) 875-0770
Email: court@lc.org
hmihet@lc.org
rgannam@lc.org
dschmid@lc.org
*Pro hac vice applications pending
Attorneys for Plaintiffs

44
Appendix 095a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 45 of 46 PageID #:45

VERIFICATION
I, Cristian Ionescu, am over the age of eighteen years and the Pastor of Elim Romanian
Pentecostal Church, one of the Plaintiffs in this action. The statements and allegations that pertain
to me and/or Plaintiff Elim Romanian Pentecostal Church or which I make in this VERIFIED
COMPLAINT are true and correct, and based upon my personal knowledge (unless otherwise
indicated). If called upon to testify to their truthfulness, I would and could do so competently. I
declare under penalty of perjury, under the laws of the United States and the State of Illinois, that
the foregoing statements are true and correct to the best of my knowledge.
Dated: May 7, 2020
/s/ Cristian Ionescu
Christian Ionescu

45
Appendix 096a

Case: 1:20-cv-02782 Document #: 1 Filed: 05/07/20 Page 46 of 46 PageID #:46

VERIFICATION
I, Daniel Chiu, am over the age of eighteen years and the Pastor of Logos Baptist
Ministries, one of the Plaintiffs in this action. The statements and allegations that pertain to me
and/or Plaintiff Logos Baptist Ministries or which I make in this VERIFIED COMPLAINT are
true and correct, and based upon my personal knowledge (unless otherwise indicated). If called
upon to testify to their truthfulness, I would and could do so competently. I declare under penalty
of perjury, under the laws of the United States and the State of Illinois, that the foregoing
statements are true and correct to the best of my knowledge.
Dated: May 7, 2020
/s/ Daniel Chiu
Daniel Chiu

46
Appendix 097a

Case: 1:20-cv-02782 Document #: 1-12 Filed: 05/07/20 Page 1 of 4 PageID #:197

Post Office Box 540774
Orlando, FL 32854-0774
Telephone: 407•875•1776
Facsimile: 407•875•0770
www.LC.org

122 C Street N.W., Suite 360
Washington, DC 20001
Telephone: 202•289•1776
Facsimile: 202•737•1776

Post Office Box 11108
Lynchburg, VA 24506-1108
Telephone: 434•592•7000
Facsimile: 407•875•0770
liberty@LC.org

Reply to: Florida

May 2, 2020
VIA FEDERAL EXPRESS
Governor J.B. Pritzker
Office of the Governor
207 State House
Springfield, IL 62706
Dear Governor Pritzker:
We the undersigned are Pastors and faith leaders of Romanian-American churches in
Metropolitan Chicago. Our congregations, some large and some small, comprise over 2,700
congregants. We have for decades faithfully served our communities within the State of Illinois,
both in preaching the Gospel and through a multitude of vibrant programs and outreaches.
The Romanian-Americans in our congregations have chosen Chicago as their homeland,
many of them after fleeing communist oppression that targeted religious gatherings, houses
of worship and communal exercise of their religion and faith.
We found a home in Illinois, where the promise of freedom has been consistently and faithfully
achieved, until your Executive Order 2020-10 unlawfully required that our churches shut their
doors to our congregants, irrespective of any social distancing and health precautions that we are
willing and able to implement, while allowing many other non-religious businesses and
organization to remain open.
We love our adopted country, and the Freedom we have found here, too much to stay silent
as you trample on our God-given rights. In light of our shared experience living behind the
Iron Curtain – where discriminatory treatment of Churches by authoritarian governments
was the norm – we are determined to do everything that we can to ensure that our beloved
country and our State remain the beacons of freedom that brought us here.
We recognize your recent attempt to change course, yet we deem your April 30, 2020 allowance
of churches to gather together with only 10 persons or less wholly inadequate. We regard this as
further evidence of the arbitrary nature of your orders.
Appendix 098a

Case: 1:20-cv-02782 Document #: 1-12 Filed: 05/07/20 Page 2 of 4 PageID #:198
Governor J.B. Pritzker
May 2, 2020
Page 2 of 4

You have allowed supermarkets, liquor stores, hardware stores, abortion clinics and a host of
other businesses deemed “essential” to operate without the same limitations. You have singled
out churches as not essential, and you have closed our doors even though we are willing and
able to implement the same safety measures employed by those that remain open. This is a
flagrant violation of the United States Constitution, and the liberties we have risked our lives to
be able to enjoy in this once-free Nation.
Our willing compliance with your orders thus far has been voluntary. But this should not be
misunderstood as our acquiescence to the improper and unconstitutional authority you have
sought to exercise over our worship.
Your orders are in clear violation of our First Amendment rights. The Constitution and the rights
enshrined therein are not suspended during a pandemic, and neither is our religion.
Please be advised that, beginning on May 10, 2020, our congregations will resume in-person
church gatherings, and we will no longer adhere to the 10-person limit or the other
unconstitutional restrictions comprised within your orders.
Our corporate worship is not only commanded by the Holy Scripture, but it has been a
foundational element of religious duty in the Christian Church for over 2,000 years. This has
been the sacred practice of the Romanian-American faith community in Chicago for decades.
These gatherings are how we worship our God, and the means by which our soul is healed and
restored.
We have not only a biblical mandate but also a legal right to meet. The prohibition on religious
assembly and church worship services under various government COVID-19 closure orders have
already been successfully challenged as a violation of the First Amendment.
In a decision issued on May 2, 2020, the Sixth Circuit Court of Appeal entered an injunction
against Kentucky Governor Andy Beshear, and rebuked his unequal treatment of churches in his
COVID-19 orders. See Maryville Baptist Church, Inc. v. Andy Beshear, Case No. 20-5427 (6th
Cir.),
copy
available
at
http://lc.org/PDFs/Attachments2PRsLAs/2020/
050220MaryvilleBaptistIPA.pdf.
The Sixth Circuit held that “Orders prohibiting religious gatherings, enforced by police officers
telling congregants they violated a criminal law and by officers taking down license plate
numbers, amount to a significant burden on worship gatherings.” The Sixth Circuit also held that
treating churches differently from other “essential” or “life sustaining” non-religious
organizations and businesses violates the Constitution.
In a stunning rebuke of Governor Beshear’s constitutional overreach, which is similar to yours,
the Sixth Circuit said that “while the law may take periodic naps during a pandemic, we will not
let it sleep through one.”

Appendix 099a

Case: 1:20-cv-02782 Document #: 1-12 Filed: 05/07/20 Page 3 of 4 PageID #:199
Governor J.B. Pritzker
May 2, 2020
Page 3 of 4

In two other cases, the federal district courts have stated unequivocally that the government has
no right to close churches, even in times of a pandemic, and certainly no right to treat churches
unequally from other non-religious groups, organizations and business that are deemed
“essential” and allowed to remain open. See, e.g., On Fire Christian Center, Inc. v. Fischer, No.
3:20-CV-264-JRW, 2020 WL 1820249 (W.D. Ky. Apr. 11, 2020) (“On Fire”); First Baptist
Church v. Kelly, No. 20-1102-JWB, 2020 WL 1910021 (D. Kan. Apr. 18, 2020) (“First
Baptist”). A copy of the court opinions in On Fire may be found at
http://lc.org/042920OnFireOpinion.pdf, and in First Baptist may be found at
http://lc.org/042920FirstBaptistTRO.pdf.
Both of these cases recognize that – even during COVID-19 – the government may not prohibit
churches from hosting drive-in and parking lot worship services (On Fire), and may not prohibit
churches from hosting in-person worship services on equal terms with other businesses and
organizations that are permitted to remain open provided certain guidelines are practiced (First
Baptist).
We recognize that you have limited gatherings with the stated goal of reducing the spread of
COVID-19 and protecting medical staff. We share this desire and commit to doing our part
in protecting the physical well-being of all those who attend our church services.
During the COVID-19 pandemic, we will implement protocols such as those recommended by
the CDC, including but not limited to:
(1)
(2)
(3)
(4)
(5)
(6)
(7)
(8)
(9)
(10)

reduced seating for our in-person worship services;
our churches with moveable chairs will remove some of the chairs to maintain proper
social distancing;
we will mark chairs or pews for use or non-use, and/or ushers can seat people with social
distancing guidelines (while our family units can be seated together);
prior to and following any in-person service, our facilities will be sanitized;
attendees will be advised that, if they choose, they may wear masks and/or gloves;
attendees will be advised not to engage in hand shaking or other physical contact;
hand sanitizer will be available for use throughout the facility, and each person may be
given a squirt of sanitizer or a sanitizer wipe upon entering;
we will have selected points of entry and exit separated from each other establishing a
one-way traffic pattern;
our doors will be propped open or held open by ushers to prevent the need for congregants
to touch doors while entering and exiting the church or sanctuary; and
we will ask anyone with any symptoms of COVID-19 illness, anyone who works in
healthcare facilities that treat COVID-19 patients, and those that are elderly and/or with
auto-immune issues to forego our in-person gatherings for a time.

These steps and others not enumerated here demonstrate our commitment to the well-being of
the members of our congregations. This level of care and attention cannot be ordered by the state.
We do this out of religious duty – it is our privilege to care for the bodies and the souls in our
congregation, because no one can love our congregants more than we do.

Appendix 100a

Case: 1:20-cv-02782 Document #: 1-12 Filed: 05/07/20 Page 4 of 4 PageID #:200

Appendix 101a

Case: 1:20-cv-02782 Document #: 25-4 Filed: 05/10/20 Page 1 of 6 PageID #:453

IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
Eastern Division
ELIM ROMANIAN PENTECOSTAL
CHURCH, LOGOS BAPTIST
MINISTRIES,
Plaintiff,
v.
JAY ROBERT PRITZKER, in his
official capacity as Governor of the
State of Illinois,
Defendant.

)
)
)
)
)
)
)
)
)
)
)
)
)

Case No. 1:20-cv-02782

SUPPLEMENTAL DECLARATION OF PASTOR CRISTIAN IONESCU
IN SUPPORT OF PLAINTIFFS’ MOTION FOR
TEMPORARY RESTRAINING ORDER AND PRELIMINARY INJUNCTION

I, CRISTIAN IONESCU, being first duly sworn and cautioned, hereby testify as follows:
1)

I am over the age of 18 years, I have personal knowledge of the matters set forth in

this declaration, and if called to testify upon these matters I would and could do so competently.
2)

I am Senior Pastor of Elim Romanian Pentecostal Church, one of the Plaintiffs in

this action. I submit this Supplemental Declaration to supplement the verified facts in Plaintiffs’
Verified Complaint, and to bring to the Court’s attention some factual developments since that
Complaint was filed.
3)

Today, Sunday May 10, 2020, Elim Church held a religious service on its premises

(hereinafter “Sunday service”), as we indicated to Governor Pritzker that we would in our pre-suit
communication, in which we requested that he permit us to hold the service subject to strict social
distancing and health precautions that we indicated we would voluntarily undertake. (Dkt. 1-12).

Appendix 102a

Case: 1:20-cv-02782 Document #: 25-4 Filed: 05/10/20 Page 2 of 6 PageID #:454

4)

Elim Church strictly complied with each of the 10 safety points on page 3 of our

letter to Governor Pritzker. (Dkt. 1-12 at 3).
5)

Because we wanted to be beyond reproach, and because we care deeply about the

health and safety of our members and congregants, we even went many steps farther than we
indicated in our letter.
6)

For instance:
a)

On Saturday, May 9, we cordoned off with yellow tape approximately 85%
of the 750 seats in our auditorium, leaving only approximately 120 seats
(15%) available for attendees of our Sunday service, so that we can be sure
that attendees are spaced at least 6 feet apart. The first 1 minute and 40
seconds of the video available at this link accurately depicts the auditorium
with the blocked seats: https://youtu.be/Ccwq9BTdUPc.

b)

On Saturday, May 9, 2020, the day before the service, we hired a
professional industrial cleaning company to thoroughly clean and disinfect
our premises, including treatment for microbial and virologic agents. The
first 1 minute and 40 seconds of the video available at this link accurately
depicts

the

cleaning

company

at

work

in

our

auditorium:

https://youtu.be/Ccwq9BTdUPc.
c)

In advance of the service, we requested any person with any symptoms of
communicable illness, any person exposed to anyone diagnosed with
COVID-19, and any person advanced in age or with secondary
immunological conditions to refrain from attending our service.

2
Appendix 103a

Case: 1:20-cv-02782 Document #: 25-4 Filed: 05/10/20 Page 3 of 6 PageID #:455

d)

At the entrance to our Sunday service, we had our personnel take the
temperature of each person wishing to be admitted into our service, with
contactless thermometers. We are aware of commercial companies, such as
Frontier Airlines, taking their customers’ temperatures and refusing service
to

customers

with

temperatures

above

100.4

degrees.

(See

https://www.washingtonpost.com/travel/2020/05/07/frontier-just-becamefirst-us-airline-require-passenger-temperature-screening/).

Because

we

wanted to be extra-safe and beyond reproach, we instructed our personnel
to refuse admittance to anyone with a temperature of above 99.5 degrees.
e)

At the Sunday service, we had to and did turn away several people after our
designated capacity of 15% (120 seats) was filled.

f)

At the entrance to our Sunday service, we provided complimentary hand
sanitizer, gloves and masks for anyone wishing to use them.

g)

At the Sunday service we created and strictly enforced a six-foot bubble
zone around each person attending the service. Because we knew that media
and other people would be watching our service and would be unaware of
which people belong to the same household, and because we wanted to be
above reproach, we even asked family members from the same household,
who are not otherwise socially distanced off our premises, to generally
maintain the six foot separation on our premises, so that no one will be
confused or doubt our commitment to the health and safety of our
congregants. Although there may have been a parent and child from the

3
Appendix 104a

Case: 1:20-cv-02782 Document #: 25-4 Filed: 05/10/20 Page 4 of 6 PageID #:456

same household that did come closer to each other than six feet, no persons
who are not living together came closer to each other than six feet.
h)

The following picture accurately reflects our choir members, appropriately
distanced, during our Sunday service:

i)

The following picture accurately reflects our congregation, appropriately
distanced, during our Sunday Service

4
Appendix 105a

Case: 1:20-cv-02782 Document #: 25-4 Filed: 05/10/20 Page 5 of 6 PageID #:457

j)

During our service, we requested our attendees to sing and pray in much
lower and softer voices than they might otherwise.

7)

Even though we voluntarily took these extensive precautions, we were extremely

concerned that our service would be interrupted by law enforcement, and that I and other members
would be arrested and hauled off to jail, because our service was held in violation of Governor
Pritzker’s 10-person limit that is discriminatorily applied against churches such as hours but not
against other non-religious entities deemed essential, and because Governor Pritzker and law
enforcement agencies promised enforcement through arrests, fines and other punitive and criminal
measures.
8)

Because the Governor’s 10-person limit on churches – without regard to size or

capacity, and without regard to any social distancing or safety measures – remains in effect, we
continue to be very concerned that law enforcement agents will interrupt and interfere with our
future services, and will arrest me and other members of the church.
9)

The concerns we have about being fined, arrested, hauled off to jail or subjected to

other punitive measures have interfered with and diminished our collective worship experience, to
a much greater extent than COVID-19, and the precautionary measures we have voluntarily
employed, ever could. Because of the threat of criminal arrest and punishment, we are unable to
gather in peace and to worship God freely and without intimidation, according to our conscience.
10)

The measures we voluntarily took for this Sunday service, we are willing to

voluntarily take again – and will take again. No one is more concerned about the safety and health
of our church members and attendees than we are.
11)

We do not seek to make a political statement. We do not seek special treatment,

such as to be able to meet for worship free of any precautionary measures. We only seek to be

5
Appendix 106a

Case: 1:20-cv-02782 Document #: 25-4 Filed: 05/10/20 Page 6 of 6 PageID #:458

treated equally with other “essential” places, so that – with proper safety precautions and social
distancing that meet or exceed what the others are doing – we can corporately and collectively
worship God according to our religious mandates and our conscience.
12)

As long as Governor Pritzker’s 10-person limit remains in effect against our 750-

seat church, and as long as the threat of criminal punishment hangs over us, we will not be able to
do that freely, in peace and without intimidation. And thus, we will not be able to enjoy the freedom
that many of our members fled an oppressive regime to be able to enjoy in this country.

I DECLARE under penalty of perjury that the foregoing is true and correct.
EXECUTED this May 10, 2020.
/s/ Cristian Ionescu
___________
Pastor, Elim Romanian Pentecostal Church

6
Appendix 107a

Case: 1:20-cv-02782 Document #: 31-1 Filed: 05/12/20 Page 1 of 5 PageID #:541

IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
Eastern Division
ELIM ROMANIAN PENTECOSTAL
CHURCH, LOGOS BAPTIST
MINISTRIES,
Plaintiff,
v.
JAY ROBERT PRITZKER, in his
official capacity as Governor of the
State of Illinois,
Defendant.

)
)
)
)
)
)
)
)
)
)
)
)
)

Case No. 1:20-cv-02782

SECOND SUPPLEMENTAL DECLARATION OF PASTOR CRISTIAN IONESCU
IN SUPPORT OF PLAINTIFFS’ MOTION FOR
TEMPORARY RESTRAINING ORDER AND PRELIMINARY INJUNCTION

I, CRISTIAN IONESCU, being first duly sworn and cautioned, hereby testify as follows:
1)

I am over the age of 18 years, I have personal knowledge of the matters set forth in

this declaration, and if called to testify upon these matters I would and could do so competently.
2)

I am Senior Pastor of Elim Romanian Pentecostal Church, one of the Plaintiffs in

this action.
3)

I have reviewed the photograph on page 4 of the Governor’s Sur-reply filed today

(dkt. 30), along with the accusation that church “leaders [were] standing six feet of each other”
during the service on Sunday, May 20, 2020. (Id.). This accusation is both false and insulting.
4)

The accusation is insulting because the two persons circled in red on this photo are

me (on the right) and my assistant pastor (in the middle, at the pulpit). The Governor is essentially

Appendix 108a

Case: 1:20-cv-02782 Document #: 31-1 Filed: 05/12/20 Page 2 of 5 PageID #:542

accusing me of recklessness and hypocrisy, in that I went to great lengths to ensure that everyone
else in our church was maintaining a six-foot distance, but I didn’t follow this strict rule myself.
5)

This is false. At no time during the Sunday service on May 10, 2020, did I come

closer than six-feet from my assistant pastor. The picture attached by the Governor in his Sur-reply
is misleading and deceptive, because it was clearly shot from the very back of our large church,
and, from that distance, it suffers from perspective distortion and foreshortening. The image does
not show that I am actually standing behind and to the right of the assistant pastor, at a distance
of greater than six feet.
6)

I know for certain that I was more than 6 feet away from the assistant pastor when

this picture was taken, because I personally measured the distance from the pulpit where the
assistant pastor is standing to the seat where I am standing – both before the Sunday service
(wanting to make sure we would follow our strict social distancing rules), and after the Sunday
service (today, to provide this response to the Governor’s unjust accusation).
7)

The following picture was taken today, and it shows that there are at least 80 inches

from the pulpit where the assistant pastor was standing, to the seat where I was standing:

2
Appendix 109a

Case: 1:20-cv-02782 Document #: 31-1 Filed: 05/12/20 Page 3 of 5 PageID #:543

8)

The following picture, also taken today, shows that there is a distance of seven feet

between the two outside seats behind the pulpit, which were the only two seats available for
seating during our service, because we cordoned the two middle seats (next to the table) with
yellow tape to maintain social distancing:

3
Appendix 110a

Case: 1:20-cv-02782 Document #: 31-1 Filed: 05/12/20 Page 4 of 5 PageID #:544

9)

Because pictures sometimes do not tell the entire picture, I also filmed this very

short (1 minute 19 seconds) video demonstration today, showing the Court that the distance
between the two available seats behind the pulpit is greater than six feet, and that the distance
between my seat and the pulpit is greater than six feet. The video also shows how we have
cordoned off the two middle seats behind the pulpit, to ensure six-foot distancing. This video is
available here: https://drive.google.com/open?id=1mnG8wRsLpGX4d0XJDSrxbg4d14O6nTER.
10)

This picture, taken during our Sunday Service on May 10, 2020, shows a better

perspective of how the two outside seats (one of them in this instance) are actually behind the
pulpit, and not next to it, as it incorrectly and misleadingly appears in the Governor’s photo:

4
Appendix 111a

Case: 1:20-cv-02782 Document #: 31-1 Filed: 05/12/20 Page 5 of 5 PageID #:545

11)

While I did not wear a mask during the Sunday service, I did wear a mask before

and after the service.
12)

I have watched countless press conferences given by Governor Pritzker and by

Chicago Mayor Lori Lightfoot on the COVID-19 situation, and I have not seen either of them
wearing a mask during their press conferences, despite the presence of reporters.

I DECLARE under penalty of perjury that the foregoing is true and correct.
EXECUTED this May 12, 2020.
/s/ Cristian Ionescu
___________
Pastor, Elim Romanian Pentecostal Church

5
Appendix 112a

Case: 20-1811

Document: 6-9

Filed: 05/15/2020

Pages: 2

(362 of 363)

Pastor Reverend Cristian Ionescu
Elim Romanian Pentecostal Church
4850 N. Bernard Street
Chicago, IL 60625
May 15, 2020
Dear Pastor Reverend Cristian Ionescu:
As you know, we are in unprecedented times. On March 11, 2020, the World Health
Organization (WHO), characterized the current outbreak of COVID19 as a pandemic. Here in
Chicago, as of May 14, 2020, we have seen more than 33,000 reported cases of COVID19 and
more than 1,500 deaths.
It is against this backdrop that the State of Illinois remains under a “Stay at Home” order
which was initially issued by Governor Pritzker on April 30, 2020, and subsequently extended.
The intent of that order is to ensure the maximum number of people self-isolate in their places of
residence to slow the spread of COVID-19 to the greatest extent possible. Let there be no doubt,
despite the Stay at Home order and the cooperation and commitment of Chicago residents, Chicago
is still seeing a rise in COVID19 cases and death. While we are bending the curve, we are not yet
seeing a decline in daily cases. It is not just those that are deemed high-risk that are getting ill,
even young and healthy people have been diagnosed with COVID19 and become ill.
The Stay at Home order permits individuals to leave their homes, however, in order to slow
the spread of this disease, such exercise must comply with social distancing requirements which
includes limiting gatherings of more than ten people. Thus, traditional faith-based services of more
than ten individuals are not permitted at this time. Such religious services if held can result in the
unintentional spread of the disease to our most vulnerable residents. Individuals attending such
services may come into contact with an asymptomatic individual who may transmit the virus to
others in attendance.
The City has announced a phased-in reopening plan that will allow for more interaction,
when appropriate and following strict guidance. We are aware of, and sensitive to, the impact this
order is having on the economy and communities but our over-riding goal is to protect our health
system and residents, and we must continue to follow the proper guidance. Again, we remain under
the Stay at Home order and must continue to comply with it.
It is important to note that if you, as the leader of your congregation, do not adhere to the
order, the Chicago Department of Public Health (CDPH) has the authority to cite you or may cause
any building or any premises to be cleansed, disinfected, or closed to visitors, investigated or

Appendix 113a

Case: 20-1811

Document: 6-9

Filed: 05/15/2020

Pages: 2

(363 of 363)

vacated. 8-4-010; 2-112-200; 2-112-210; 2-112-220 Municipal Code of Chicago, Ill. Similarly, the
Governor’s Executive Order has the force of law and is enforceable by law enforcement agencies
in Chicago and throughout the state. The Chicago Department of Public Health (CDPH) has the
authority, pursuant to the Department of Public Health Act (20 ILCS 2305/1-1.1 et seq.), the Civil
Administrative Code of Illinois (Department of Public Health Powers and Duties Law) (20 ILCS
2310/1 et seq.) and the Control of Communicable Diseases Code (77 Ill. Adm. Code 690), to order
that a location be closed and made off limits to the public “to prevent the probable spread of a
dangerously contagious or infectious disease… until such time as the condition can be corrected
or the danger to the public health eliminated or reduced in such a manner that no substantial danger
to the public’s health any longer exists.” 20 ILCS 2305/2(b). The process of issuing such an order
is set forth in 20 ILCS 2305/2(c).
As the Commissioner of the Department of Public Health for the City of Chicago, I
consider the health, safety, and welfare of all Chicagoans as my utmost responsibility. I implore
you to consider the deep responsibility you hold as a resident and as a pastor to those that depend
upon you as leader.
I am hopeful that you, as a religious leader, share my goal of ensuring the safety of Chicago
residents and your congregants in a collective and collaborative response to this disease and not
hold in-person services until such time as the science and guidance from public health officials
dictates that it is safe to do so.
Sincerely,

Allison Arwady, MD
Commissioner
Chicago Department of Public Health

Appendix 114a

Appendix 115a

Appendix 116a

Appendix 117a

Appendix 118a

Hand delivered
Pastor Reverend Cristian Ionescu
Elim Romanian Pentecostal Church
4850 N. Bernard Street
Chicago, IL 60625
May 22, 2020
Dear Pastor Reverend Cristian Ionescu:
On May 15, 2020, I directed that you not hold gatherings at 4850 N. Bernard Street until such
time as the data and guidance from public health officials indicates that it is safe to do so.
Contrary to the State’s “Stay at Home” Order (Executive Order) and my directive, you held
services on May 17, 2020 at 4850 N. Bernard Street. You were reported to have gatherings far
in excess of ten individuals allowed by the Executive Order. As a result, you were issued an
Administrative Notice of Violation by the Chicago Police Department.
As you may know, here in Chicago, we have lost three faith leaders to Coronavirus
Disease 2019 (COVID-19) and many more congregants who have been linked to churches with
clusters outbreaks. In February 2020, the CDC reported1 that one COVID-19 positive individual
experiencing mild respiratory symptoms, unknowingly spread COVID to 16 people, ages 5 to 86
years, after attending a church funeral and a birthday party. Three of those individuals tragically
died from the disease.
On a national level, just this week, the Center for Disease Control and Prevention’s
(CDC’s) Morbidity and Mortality Weekly Report (MMWR) described a large outbreak of
COVID19, including several deaths, among a church congregation in Arkansas.2 The CDC
reported that among 92 attendees at a rural Arkansas church over just a five-day period, from
March 6–11, 35 (38%) developed laboratory-confirmed COVID-19, and three persons died.
This occurred as a result of just two individuals (index cases) participating in church events
several days before they developed symptoms of nonspecific respiratory symptoms and fever.
This outbreak highlights the likelihood for widespread transmission of COVID-19 at group
gatherings, even before any participants show symptoms. It further emphasizes the paramount

1

“Community Transmission of SARS-CoV-2 at Two Family Gatherings — Chicago, Illinois, February–March

2020.”
www.cdc.gov/mmwr/volumes/69/wr/mm6915e1.htm?s_cid=mm6915e1_w
“High COVID-19 Attack Rate Among Attendees at Events at a Church — Arkansas, March 2020.”
https://www.cdc.gov/mmwr/volumes/69/wr/mm6920e2.htm?s_cid=mm6920e2_w.
2

Appendix 119a

importance of adhering to guidance from the Chicago Department of Public Health (CDPH) and
the CDC, including avoiding any gatherings of groups of more than 10 individuals.
As I previously provided, the Governor’s Executive Order has the force of law and is
enforceable by law enforcement agencies in Chicago and throughout the state. CDPH has the
authority, pursuant to the Department of Public Health Act (20 ILCS 2305/1-1.1 et seq.), the
Civil Administrative Code of Illinois (Department of Public Health Powers and Duties Law) (20
ILCS 2310/1 et seq.) and the Control of Communicable Diseases Code (77 Ill. Adm. Code 690),
to order that a location be closed and made off limits to the public “to prevent the probable
spread of a dangerously contagious or infectious disease… until such time as the condition can
be corrected or the danger to the public health eliminated or reduced in such a manner that no
substantial danger to the public’s health any longer exists.” 20 ILCS 2305/2(b). In addition, as
the Health Commissioner, I have the power and duty “to cause all nuisances affecting the health
of the public to be abated with all reasonable promptness,” and general police powers “to correct,
by whatever means are necessary, any health hazard that presents an immediate risk to the life or
health of one or more citizens of the City of Chicago.” See Chi. Muni. Code § 2-112-160 and §
2-112-080.
Please be advised, any continued operation of 4850 N. Bernard Street in defiance of my directive
and the Executive Order is hereby declared a public health nuisance. Pursuant to the Municipal
Code of Chicago, I am authorized to seek to enjoin such nuisance or to cause the same to be
summarily abated in such manner as I may direct pursuant to the applicable provisions of the Code.
See Chi. Muni. Code § 7-28-020. Through this Notice, I am exercising my authority to order the
abatement of the public health nuisance at 4850 N. Bernard Street which may contribute to the
continued spread of COVID19 by failing to comply with restrictions set out in the Executive Order.
See Chi. Muni. Code § 7-28-010.
This Notice to Abate is being served upon you as the leader of your congregation. Given
the heightened risk of spread of COVID19 in gatherings of 10 of more, you are hereby ordered to
abate immediately. You are prohibited from having any in-person gatherings contrary to the
Executive Order. You are required to cancel all gatherings contrary to the law. If you continue to
host gatherings in violation of the Executive Order, the City of Chicago will take all necessary
measures to abate the nuisance to ensure the safety of the City’s residents. Please be further
advised, pursuant to section 7-28-010 of the Chicago Municipal Code:
“If the person so notified shall neglects, refuses or otherwise fails to
comply with any of the requirements of such order within the time
specified in the notice required under this section, such person shall
be fined not less than $250.00 nor more than $500.00 for each such
offense. Each day that a violation continues shall constitute a
separate and distinct offense to which a separate fine shall apply.”
* * * “In addition to any fine or other penalty provided by law, the
person who created, continued or suffered the nuisance to exist shall
be liable to the city for any and all costs and expenses incurred by
the city in abating the nuisance, plus a penalty of up to three times
the amount of the costs and expenses incurred by the city.” Chi.
Muni. Code § 7-28-010.

Appendix 120a

Gatherings held contrary to the Executive Order can result in the unintentional spread of
the disease to some of our most vulnerable residents. I appeal to you as a leader in your
community and remain hopeful that you will work with me for the health, safety, and welfare of
all Chicagoans. If you continue to operate in defiance of the Executive Order, the City will
pursue all available legal remedies, including those outlined above. Any future gatherings
conducted contrary to the Order will be considered a failure to abate and the City will take steps
necessary to abate, including Summary Abatement.
Sincerely,

Allison Arwady, MD
Commissioner
Chicago Department of Public Health

Appendix 121a

Deposition of:

6/12/20 Hearing
September 18, 2020
In the Matter of:

20-1811 Elim Pentecostal Church Vs.
Jay Pritzker

Veritext Legal Solutions
800-734-5292 | calendar-dmv@veritext.com |

Appendix 122a

Page 1
1
2
3

UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
ELIM PENTECOSTAL CHURCH,

4

Appellant

5

vs.

6

JAY PRITZKER,

7
8
9
10
11

Appellee.

BEFORE THE HONORABLES:

12
13
14

APPEARANCES:
For Appellants:

18
19
20
21
22
23
24

Case No. 20-1811

June 12, 2020
219 S. Dearborn Street
Room 2722
Chicago, IL

ARGUMENT

15
16
17

)
)
)
)
)
)
)
)
)

For Appellee:

HON. HAMILTON
HON. EASTERBROOK
UNIDENTIFIED JUDGE
HORATIO G. MIHET, ESQ.
LIBERTY COUNSEL
P.O. Box 540774
Orlando, FL 32854
PRIYANKA GUPTA, ESQ.
OFFICE OF THE ATTORNEY GEN.
100 West Randolph Street
12th Floor
Chicago, IL 60601

Veritext National Court Reporting Company
Mid-Atlantic Region
1801 Market Street – Suite 1800
Philadelphia, PA 19103
1-888-777-6690

25
Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 123a

Page 2
1

I N D E X

2

PAGE

3

ARGUMENT, BY MR. MIHET

3

4

ARGUMENT, BY MS. GUPTA

14

5

REBUTTAL ARGUMENT, BY MR. MIHET

31

6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 124a

Page 3
1

P R O C E E D I N G S

2

(NOTE:

No reporter notes received;

3

therefore, cannot identify which judge is speaking;

4

all noted as “The Court”).

5

THE CLERK:

The Honorable Judges of the

6

United States Court of Appeals in and for the 7th

7

Judicial Circuit.

8

persons having business before this Honorable Court

9

are admonished to draw near and give their attention,

Hear ye, hear ye, hear ye.

10

as the Court is now sitting.

11

States and this Honorable Court.

12

THE COURT:

All

God save the United

Good afternoon, ladies and

13

gentlemen.

We are ready to hear oral arguments in the

14

case of Elim Romanian Pentecostal Church against

15

Pritzker.

16

Mr. Mihet?

17

MR. MIHET:

Good afternoon, Your

18

Honors.

19

reserve 6 of my 20 minutes for rebuttal, please.

20

Horatio Mihet, for the Appellants.

I would

May it please the Court, this Court

21

should reverse the District Court's denial of a

22

preliminary injunction, because this appeal is not

23

moot and because the governor's disparate ten-person

24

limit on worship services is subject to strict

25

scrutiny and cannot overcome it.

Now, this appeal is

Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 125a

Page 4
1

not moot for two reasons.

2

has left himself complete and total discretion to

3

return to the old policy, and number two, the dispute

4

is one that is capable of --

5

Number one, the governor

(Audio gap)

6

THE COURT:

Hello?

Hello?

Hori?

7

MR. MIHET:

And, number two, because

8

this dispute is capable of repetition and, yes,

9

evading review.

Taking them in turn, number one, the

10

governor has not disclaimed his intent to return to

11

the old policy, and the governor has not disavowed the

12

legality of his policy.

13

vigorously defending it before this Court, before the

14

lower court, and also at the Supreme Court.

15

On the contrary, he is

Now, the most that the governor can say

16

is that it is speculation for us to surmise what he

17

will do next and what -- what it is that he won't tell

18

us.

19

to the appellants, when, in fact, the Supreme Court

20

said in Already v. Nike that it is the governor who

21

has a burden, and is a formidable burden, of making it

22

absolutely clear that he will not return to the

23

allegedly wrongful conduct.

24

that here.

25

disclaiming any intent to return to the policy.

However, that shifts to -- that shifts the burden

The governor has not done

He has not submitted an affidavit

Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 126a

He

Page 5
1

has not said that he has seen the error of his ways

2

and -- and will not return.

3

In fact, --

4

THE COURT:

Mr. Mihet?

5

MR. MIHET:

Yes, Your Honor?

6

JUDGE HAMILTON:

This is Judge

7

Hamilton.

8

and agree that this is not moot, what do you think an

9

injunction should actually say that would issue now?

10

If we were to agree with you on the merits

MR. MIHET:

The injunction would enjoin

11

the government from enforcing Order 32 either now or

12

in any eventual reiteration or resurfacing of that

13

order.

14

employing any measures that treat the churches

15

disparately, whether in Order 32 or some other order.

16

So it would prohibit the governor from

And so, what I'd say is, in Trinity

17

Lutheran, the Supreme Court said that the matter was

18

not moot, because there is clearly -- there was no

19

clearly-effective barrier that would prevent the

20

department from reinstating its policy.

21

same -- that same thing is -- is true here.

22

no barrier for the governor to return back to the

23

policy, and, in fact, if you look at the governor's

24

Executive Order 38, which was the most recent one

25

passed on May 29, the one that announced the change in

Well, that
There is

Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 127a

Page 6
1

policy, the whereas clauses in t he first 2 pages of

2

that order are chock full of dire, dire warnings that

3

indicate that the governor is still very concerned

4

about the situation, still -- he says that -- that the

5

situation is such that the health care resources are

6

taxed, are over-taxed, and even the peak of this virus

7

has not happened yet, according to the governor.

8

so, for all of those reasons, it remains likely that

9

the governor can and will return back to the policy,

And

10

and I also would be remiss if I didn't point out that

11

the timing of the policy change is very suspect,

12

because this policy change was announced mere hours

13

before the governor was called to give an account at

14

the Supreme Court, before Supreme Court Justice

15

Cavanaugh, and the only change that took place is to

16

relieve the churches, and only the churches of the

17

ten-person limit.

18

challenge the policy and -- which everyone else whose

19

restriction the governor did not have to justify at

20

the Supreme Court was not relieved of that

21

restriction.

Everybody else that didn't

22

Now, in the governor's five-phase plan,

23

it was not until phase five that the restrictions were

24

supposed to go away, and the governor said that was

25

going to take place 12 to 18 months down the road.
Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 128a

In

Page 7
1

fact, he said there would be -- one of three

2

conditions would have to -- to happen.

3

vaccine would be developed, or a therapeutic treatment

4

would be developed, or there would be no new cases for

5

a significant period of time.

6

last page of Exhibit C, in Appendix No. 2.

7

Either a

You can see that on the

Well, indisputably, none of those

8

conditions took place or happened by May 29, when the

9

governor issued this -- this new order.

And so, for

10

those reasons, there's no doubt here that the governor

11

hasn't had a change of heart.

12

litigation-driven change of policy maintaining

13

complete and total discretion to return back.

14

This is just a

The second reason why this case is not

15

moot is because the dispute is capable of repetition

16

yet evading review.

17

opposition, we have on page 5 a chart that traces the

18

-- the various iterations of these orders and shows

19

that the average life span is less than 30 days.

20

iterations were only in effect for 10 days, and on

21

page 15 -- 16, rather, of our opposition, we have 4

22

Supreme Court cases.

23

is too short.

24

says 1 year is too short.

25

30 days or 10 days is definitely too short for a

In our motion to dismiss

Some

Two of them say that two years

One says 18 months is too short, and 1
If that is the case, then

Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 129a

Page 8
1
2

dispute to be fully played out.
And the last thing I'll say about this

3

is the governor only cites to the Supreme Court case

4

of Kern (ph), which was on page 17 of its brief, on

5

this capable of repetition issue.

6

the premise from the Supreme Court where the Supreme

7

Court says, quote, "Defendants' good faith

8

representation that they had no intention of returning

9

to the old policy might have properly led to the

Kern was based on

10

denial of injunctive relief," end quote.

11

have any such representation here from the governor.

12

For all of these reasons, this case is not moot, and

13

this Court should reach the merits.

14

We do not

And so, moving to the merits, in our

15

briefs, we explained several reasons why we get to

16

strict scrutiny in this case.

17

free exercise path right now, and in Lukume (ph), the

18

Supreme Court held that a law falls well below the

19

minimum standard necessary to protect First Amendment

20

rights when it's nailed --

I will focus on the

21

THE COURT:

Mr. Mihet?

Mr. Mihet?

22

MR. MIHET:

Yes, Your Honor?

23

THE COURT:

Excuse me.

If we were to

24

get to strict scrutiny, you've conceded the compelling

25

state interest, I believe, and I guess my -- my
Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 130a

Page 9
1

question is how should courts, as you see it, enforce

2

the requirements that restrictions be narrowly

3

tailored in the least restrictive means available, as

4

it in the cases of an infectious disease pandemic?

5

Are they required to first try less restrictive

6

measures and wait and see if they fail?

7

required to try the -- in our federal system, the

8

least restrictive governor's approach, so that we can

9

go with the lowest common denominator, as a matter of

10

Are they

constitutional mandate?

11

MR. MIHET:

Under the Supreme Court's

12

teaching of McCoomey (ph) and also the Bruney (h) case

13

out of the Third Circuit, the -- the governor would

14

have to, either try other measures and -- and

15

determine that they do not work, or, if the exigencies

16

--

17

THE COURT:

That sounds crazy.

18

MR. MIHET:

Well, the other alternative

19

-- if the exigencies are such that that cannot be

20

done, what the governor would have to do is, quote,

21

"seriously consider other alternatives" and make out a

22

compelling case as to why they would not work.

23

so, either you try them, or if you cannot try them,

24

you have to show in the record that you actually

25

seriously considered them and found them wanting for
Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 131a

And

Page 10
1

good reason.

It's not enough to simply say that you

2

considered them.

3

they would not work.

4

evidence that you have a -- a -- a compelling

5

justification to treat religious exercise disparately.

6

And let me say something -- and this is

It's not enough to simply say that
You have to have compelling

7

what makes these -- this particular Order 32 so

8

offensive, from a constitutional standpoint.

9

particular order doesn't just exempt 23 other

This

10

categories of -- of businesses from the -- the 10-

11

person requirement, but if you look on page 8 of

12

Executive Order 32, this essentially talks --

13

THE COURT:

Well, Counsel, --

14

MR. MIHET:

Yes, Your Honor?

15

JUDGE EASTERBROOK:

This is Judge --

16

this is Judge Easterbrook.

17

making, like much of your brief, supposes that there

18

is discrimination against religion, which is what you

19

contend takes this case outside the scope of Smith.

20

wonder whether it's proper to suppose that as opposed

21

to argue it.

22

The argument you're now

I

If you look at the case, the California

23

case, when it got to the Supreme Court, the dispute

24

between the Chief Justice and the dissenting opinions

25

dealt with what the right comparison group was to find
Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 132a

Page 11
1

out whether there was religion (sic).

2

Justice thought the right comparison group was

3

something like concerts or movies, and the dissent

4

thought the right comparison group was something like

5

grocery stores.

6

there.

7

group is grocery stores or law offices?

It seems to me we need to start

Why is it that you think the right comparison

8
9

The Chief

MR. MIHET:
Your Honor.

For -- for two reasons,

Number one, even grocery stores and

10

warehouses -- they will have dozens and dozens,

11

perhaps sometimes hundreds of employees working

12

together for eight hours, ten hours or more per day

13

without any limitation.

14

employee meetings.

15

at the shopper, and -- and -- and I wouldn't even

16

accept the -- the premise that all shoppers only go

17

inside Walmart for ten minutes.

18

They would be able to have

So it's incorrect to simply look

I -- I think that several of them could

19

-- could spend a lot more time there.

Certainly, no

20

legal requirement that they only go in for a certain

21

amount of time, but the employees are there for hours

22

and hours of time.

23

restriction upon them, in terms of having employee

24

meetings, in terms of interacting with customers,

25

touching the same products, the same credit cards, the

They have -- there is no

Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 133a

Page 12
1

same cash.

In all of those respects, these places are

2

actually more dangerous than a properly-distanced

3

church service, where people are six feet apart and --

4

and where things have been properly sanitized.

5

basic error that is being made in these comparisons is

6

that that is seems like some people are willing to

7

assume that -- that folks would change their behavior

8

at Walmart, but then at church, they would continue to

9

do what they've always done before this virus, which

The

10

is to have close meetings or to have handshaking or

11

hugging or all those other things, when, in fact,

12

people at church are the same people that go to

13

Walmart, and they can adjust that conduct at church,

14

too.

15

But the other point that I really want

16

to make, which is really, really important here, and

17

-- and makes this case very different from what Chief

18

Justice Roberts was commenting upon in California.

19

Here, if you look on page 8 of Executive Order 32,

20

this is Section 2.12, Subsection C.

21

executive order does is it removes the ten-person

22

limit on churches when they are engaged in non-

23

religious activity, such as, for example, feeding the

24

hungry or housing the homeless overnight.

25

this -- this order, a church could have 500 people in

What this

So under

Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 134a

Page 13
1

its auditorium and feed them a meal or house them

2

overnight, and under the Subsection C, they have no

3

numerical limit, but as soon as that gathering turns

4

into a worship service, a religious service, then they

5

are no longer considered engaging in a protected

6

activity.

7

have criminal punishment that's subject.

The ten-person limit kicks in, and now you

8
9

If that's not a content-based
restriction, if that's not a -- a discriminatory

10

provision that punishes churches only when they engage

11

in religious conduct -- you know, the virus doesn't

12

know why the people are there for.

13

imagine what else would suffice, and I would submit

14

that Chief Justice Roberts did not have that kind of

15

an opinion beforehand.

16

Then I can't

The other thing I'd say about the --

17

the California case, Chief Justice Roberts there, and

18

the whole Court -- they were very concerned with the

19

exceedingly high burden that you have when you

20

approach the Court on an emergency motion, such as was

21

the case there.

22

traditional interlocutory appeal, where the

23

plaintiffs' burden is merely to show a more than

24

negligible chance of success on the merits.

25

to you that there is no way in our Constitution, under

Here, before Your Honors, we're on a

I submit

Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 135a

Page 14
1

our Constitution, that this Subsection C, that this

2

order that discriminates against only religious use of

3

church property in such a profound manner can survive,

4

and I see that my time is up.

5

if the Court will allow, or stop here.

6
7

THE COURT:
up.

MR. MIHET:

12
13

Oh, I'm sorry.

I'm sorry.

I thought that my time was up, but I'm happy to --

10
11

Counsel, your time isn't

If you're into your rebuttal time and you're --

8
9

I'm happy to continue,

UNIDENTIFIED SPEAKER:

He said you had

rebuttal.
MR. MIHET:

Yeah, just to save the rest

of my time for rebuttal.

14

THE COURT:

15

Ms. Gupta?

16

MS. GUPTA:

Certainly, Counsel.

Good afternoon, and may it

17

please the Court.

18

Gupta, for Defendant/Appellee Governor Pritzker.

19

like to first start by talking about why this appeal

20

is moot, and begin by clarifying the voluntary

21

cessation standard.

22

Assistant Attorney General Priyanka
I'd

The standard there is that we need to

23

show that it is clear that there could not be a

24

reasonable expectation of this type of restriction

25

being imposed on the future.

The standard does not

Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 136a

Page 15
1

require the Government to disavow any conduct that

2

they've taken in the past or make clear that they will

3

never take it again in the future.

4

Advertising, this Court explained that it does not

5

presume bad faith on the part of the Government.

6

when there has been a voluntary cessation of activity

7

by the Government, this Court will look instead to see

8

whether the reasons for stopping the activity were

9

genuine and therefore, cannot reasonable be expected

10

In Federation

So

to reoccur.

11

And here, we have made that showing for

12

at least four reasons.

13

governor's decision to lift the restrictions in E.O.

14

38 on religious gatherings were tied to the data and

15

the situation in Illinois.

16

the infection rate --

17

The first is that the

The order explained that

JUDGE EASTERBROOK:

Counsel?

Counsel,

18

this is Judge Easterbrook.

19

worries me.

20

tied to the current situation.

21

Virus spike in Illinois, is there anything to prevent

22

the governor from changing course?

23

That's exactly what

The governor's decision, he said, was

MS. GUPTA:

If cases of Corona

Your Honor, there is not,

24

but there are reasons to believe that this level of

25

restriction wouldn't be necessary, even if we were hit
Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 137a

Page 16
1

with a second wave, and that's because we already know

2

a lot more about this virus than (indiscernible)

3

already do.

4

JUDGE EASTERBROOK:

I'm not -- look,

5

I'm -- I'm not worried about what's necessary or what

6

the governor is likely to conclude.

7

the Supreme Court's test, it's something like whether

8

it is absolutely clear that the alleged wrongful

9

behavior could not reasonably be expected to recur.

If I understand

10

And that's a quotation from one of the Supreme Court's

11

decisions.

12

it can recur if the governor is reserving his right to

13

change the rule when the date change.

14

I wonder how it is absolutely clear that

MS. GUPTA:

Well, Your Honor, I think

15

Federation Advertising is helpful again, here, because

16

there, the City of Chicago had repealed the challenge

17

ordinance while litigation was ongoing and had

18

proposed a new one, and this Court found that that

19

proposal was not enough to show that there was a

20

reasonable expectation of the conduct reoccurring for

21

two reasons.

22

different and second, it was simply a proposal, and

23

there the City had not disavowed its previous repeal

24

order.

25

that he will impose such a restriction on religious

The first is that the ordinance seemed

So here, the governor has not even proposed

Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 138a

Page 17
1

gatherings, nor has he said that he would treat

2

religious gatherings different from the secular

3

gatherings that plaintiffs challenge.

4

many unknown variables right now.

5

We have too

So the -- the mere possibility that

6

this type of restriction might be necessary on

7

religious gatherings and that it might operate in the

8

same way with regards to secular gatherings is not

9

enough to show a reasonable expectation.

And so,

10

that's why we've made it absolutely clear, because the

11

governor's actions have always been tied to scientific

12

--

13

THE COURT:

I -- I wish -- Counsel, I

14

wish you would deal with this in the Supreme Court's

15

terms.

16

reasonable expectation of anything.

17

defendant's burden, the Supreme Court says, to make it

18

absolutely clear that the allegedly wrongful behavior

19

could not reasonably be expected to recur, and I wish

20

you would address that standard, which is the Supreme

21

Court's standard.

22

It is not the plaintiff's burden to show a

MS. GUPTA:

It is the

Your Honor, we've made it

23

absolutely clear that this restriction is not

24

reasonably expected to recur, because the governor's

25

actions have always been tied to medical research, and
Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 139a

Page 18
1

now we know a lot more about the virus.

For example,

2

we know that it doesn't transmit as easily outdoors or

3

even indoors if the window is open or there is more

4

ventilation.

5

virus, the governor --

And as we've learned more about the

6

THE COURT:

So -- so you say --

7

MS. GUPTA:

-- has (indiscernible).

8

THE COURT:

Now, you say we now know

9

enough about the virus.

So is the governor willing to

10

make an iron-clad commitment not to rescind the

11

current order?

12

MS. GUPTA:

No, Your Honor, we are not.

14

THE COURT:

On basis -- well, if we --

15

MS. GUPTA:

Your Honor, --

16

THE COURT:

If, as you say, we now know

13

Not --

17

enough about the virus to be sure, why won't the

18

governor make such a commitment?

19

MS. GUPTA:

Because, Your Honor, this

20

virus has been so unprecedented that, even though we

21

know more about the virus, there's still a lot more

22

for us to learn.

23

a declaration, which I, again, point out was not

24

required by the Supreme Court's standard, then the

25

possibility is still out there, even though it's

So if the governor were to make such

Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 140a

Page 19
1

hypothetical, that a new strain of this virus could

2

come by in Illinois and more restrictions would be

3

necessary.

4

voluntary cessation exception applies here and would

5

like to go to the merits of this case, we still think

6

that a preliminary injunction is not necessary here,

7

and that's first, because the Jacobson (ph) framework

8

applies here.

But even if this Court finds that the

9

This is an emergent situation, the

10

likes of which the world has not seen before, and the

11

governor --

12

JUDGE EASTERBROOK:

Okay, okay.

13

Counsel, I want to ask you the same question that I

14

asked your adversary, which is how do we determine the

15

right comparison group if we're trying to apply the

16

Smith standard and look for neutrality in treatment

17

between religion and non-religion, what is the right

18

comparison group?

19

dissenting justices in the California case took very

20

different views about that, and the plaintiff's lawyer

21

just invoked warehouses, where people congregate for

22

long periods.

23

view, that's not a good comparison group.

24
25

The Chief Justice and the

I'd like you to explain why, in your

MS. GUPTA:

Your Honor, I believe it's

not a good comparison group, because, even though it's
Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 141a

Page 20
1

possible that, for example, as my opposing counsel

2

pointed out, employees might work for more than an

3

hour for a long time at a place like Walmart, you do

4

not go to these stores to stand together in groups for

5

hours at a time.

6

registers go to their separate stations, which are

7

spaced apart.

8

an aisle go in, complete that task, and then leave

9

that space.

For example, people who work at cash

People who are tasked with restocking

10

So the intention of working in these

11

stores is not to stand together for long periods of

12

time.

13

grocery store or at a warehouse, just like there are

14

risks with conducting almost any other activity

15

currently, but E.O. 32 was tailored to those risks.

16

For example, it recognized that people stand in

17

manufacturing plants, but it asks manufacturing plants

18

to limit the amount of lines that they operate and

19

stagger shifts, among other things, so that people

20

would not be grouped together for long periods of

21

time.

22

one-way aisles so people aren't passing each other,

23

and employees are supposed to engage in social

24

distancing and wear masks when they cannot do so.

25

There are, of course, risks with working at a

Same way grocery stores are supposed to have

So E.O. 32 does recognize that there
Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 142a

Page 21
1

are some risks at working at these stores, but simply

2

that the activity is different.

3

Justice's reasoning is useful here, because the test

4

from McCoomey is to compare secular conduct that

5

endangers the Government's interest in the same way.

6

Here, meeting for a lecture in a school or for a

7

concert or a movie theater is more similar to the type

8

of activity that religious worship entails.

9

involves --

10

JUDGE HAMILTON:

11

MS. GUPTA:

12
13

And that's why Chief

It

Ms. Gupta?

-- standing together in a

group.
JUDGE HAMILTON:

Excuse me, Ms. Gupta.

14

This is Judge Hamilton.

15

was so -- so well-tailored, why does the -- why does

16

the worship restriction apply to same, a cap of 10

17

people, whether we're talking about a cathedral with

18

room for 1,000 or a storefront with room for 30?

19

MS. GUPTA:

If -- if the -- if Order 32

Your Honor, that limit was

20

consistent with guidance from the CDC at that time

21

about how big gatherings should be, and no matter how

22

big a cathedral might be, a gathering of 50 people is

23

necessarily more dangerous than 10 people.

24

at the time the virus was spreading so rapidly in

25

Illinois and the national guidance was to limit

So because

Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 143a

Page 22
1

gatherings, it seemed appropriate to limit gatherings

2

to ten people.

3

in Illinois, this restriction has been limited, and

4

because of this, the governor's actions past the

5

deferential framework set out in Jacobson.

6

the type of case to which that framework would apply,

7

and it has two prongs.

8
9

Now that the situation has increased

This is

The first is that the Government action
be rooted in a substantial public health interest,

10

which is, of course, present here, where the governor

11

was attempting to curb the spread of Covid-19, and the

12

second is that the Government's action does not go

13

beyond -- it does not, beyond all question, constitute

14

a possible invasion of constitutional rights.

15

understand that is very important.

16

THE COURT:

Counsel?

We

Counsel, excuse

17

me.

18

few minutes ago about the, for example, social

19

services being provided by churches in the same

20

buildings, when you're feeding the homeless -- feeding

21

the hungry, housing the homeless, and so on?

22

But could you address plaintiffs' point made a

MS. GUPTA:

Yes, Your Honor.

We think

23

that this exemption actually shows that the governor

24

was not discriminating against religions.

25

many organizations, whether secular or religious,

There are

Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 144a

Page 23
1

providing these types of charitable services as

2

central to their mission or their religion, but these

3

types of activities can be provided without extended

4

verbal interaction in close quarters.

5

let in to stay somewhere in the church without that

6

person and the pastor being grouped together for long

7

periods of time.

8
9

Someone can be

The church can leave food out on tables
for people to take without standing together in rooms

10

for long periods of time.

11

to allow whatever activity you could, given the

12

information we had about the virus at the time.

13

so, he recognized that many religious organizations

14

find it essential to provide such services, and

15

recognizing that this activity was different than

16

standing together, for example, as a lecture at a

17

school allowed these organizations to continue to

18

conduct such activity in a safe manner.

19

So the governor was trying

And

So we don't think this exemption

20

actually shows religious animus, but rather shows that

21

the governor was cognizant of the type of activities

22

that religious organizations engage in, and he tried

23

to permit them when it was safe to do so.

24

think counsel's argument --

25

JUDGE HAMILTON:

And so, I

Counsel, this is Judge

Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 145a

Page 24
1

Hamilton.

Another question I want to put out for --

2

there for you to address.

3

that, in those palpable violations of the

4

Constitution, we would find, for example, an order

5

that decided to shut down one faith's worship services

6

and not another's or one party's rallies and not

7

another's.

8

apply, in the pandemic context, concerns about

9

discrimination and pretext, and you -- we see, for

We know that -- I assume

But I wonder how you think we should

10

example around the country the exercise of some

11

constitutional rights is more controversial than

12

others.

13

It's pretty hard to find animus against

14

religion in an elected leader in the United States,

15

but it's not hard to find people who are elected to

16

office and want to, for example, impose greater

17

restrictions on access to firearms or greater access

18

-- restrictions on access to abortions, for instance.

19

MS. GUPTA:

Your Honor, --

20

JUDGE HAMILTON:

21

MS. GUPTA:

22

JUDGE HAMILTON:

So --

-- I think there --- how do we go about

23

distinguishing between discriminatory or pretextural

24

(ph) features of some of these orders and -- and

25

legitimate deference?
Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 146a

Page 25
1

MS. GUPTA:

Your Honor, I think there

2

are a few ways to determine whether the Government's

3

actions are pretextural.

4

the medical experts are recommending, and even the CDC

5

is recommending limiting in-person worship gatherings

6

and limiting gatherings in general.

7

The first is to look at what

Another way is to look at how the order

8

is treating other conduct.

This is, of course,

9

similar to the Smith analysis, but I -- I think it is

10

helpful to look at the context in which the order is

11

issued.

12

prohibiting religious exercise but was allowing large

13

funerals to occur, as was the case in the North

14

Carolina case for Ian Dockets (ph), now that could

15

suggest it had some pretext, where the gatherings were

16

functionally similar, but one was being allowed but

17

not the other.

So if, for example, the governor was

18

But here, we don't have any evidence of

19

pretext.

If we look at the events leading up to the

20

issuance of E.O. 32, we were in the beginning months

21

of the pandemic, and what we did know is that it was

22

spreading quickly in gatherings, and it spread quickly

23

from people speaking and singing.

24

information at the time, there -- there was no

25

evidence that there was pretext.

So, given that

Rather, there was

Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 147a

Page 26
1

evidence of the governor's orders was constant with

2

medical advice, including that from the CDC.

3

THE COURT:

I have -- I have to follow-

4

up by asking about marches and demonstrations and how

5

those compare.

6

MS. GUPTA:

Of course, Your Honor.

7

There are, of course, risks in marching or in

8

protesting in large groups, and those types of things

9

are occurring now, but at the same time, there aren't

10

any restrictions on religious gatherings.

11

governor has made a permissive policy choice, given

12

that the situation in Illinois has been steadily

13

increasing, to allow these activities that implement

14

First Amendment concerns, and especially because these

15

protests and marches are occurring outside, where the

16

virus doesn't transmit as easily.

17

So the

He's also made the permissive policy

18

choice to ease restrictions on businesses right now,

19

because many Illinois residents and businesses have

20

suffered financial damage.

21

is -- is to balance the safety of Illinois residents,

22

but also recognize that people need to resume their

23

normal activity, and an important category of that

24

activity is First Amendment liberties, such as

25

religious exercise.

So what he's trying to do

Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 148a

Page 27
1

And we think there is no question that

2

this type of deference was due when E.O. 32 was

3

entered.

4

Covid-19 exists in the world, that there will continue

5

to be this need for a deference to every government

6

action.

7

entered, the situation was so dire in Illinois and

8

people were dying so rapidly, that this type of

9

deference was needed, and we believe easily met.

We're not trying to suggest that, as long as

But simply, when you look at when E.O. 32 was

10
11

But even if this Court to go to the
Smith --

12

THE COURT:

13

Feeney (ph).

14

shows.

15

you know?

Counsel, this is Judge

You talk about the -- what the record

And how many deaths were there in churches, do
Do you resolve --

16

MS. GUPTA:

I --

17

THE COURT:

Go ahead.

18

MS. GUPTA:

I'm sorry.

I personally do

19

not have the information o f how many deaths were due

20

to churches, but there were accounts that were going

21

on that these types of gatherings caused outbreaks of

22

the virus.

23

THE COURT:

Well, these type of

24

gatherings doesn't exactly answer the question.

25

- and also, there is not universal -- you speak as if
Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 149a

The -

Page 28
1

there is a universal finding with regard to the

2

medical evidence in this thing.

3

the case, is it?

4

MS. GUPTA:

I don't think that's

Your Honor, it is correct

5

that there is a lot that we don't know about this

6

virus.

7

but what is undisputed is that it travels primarily

8

through respiratory transmission.

9

speaks or sings, these droplets can be transmitted,

10

and what I meant about these types of gatherings is

11

that there are numerous accounts throughout the world

12

of religious gatherings leading to outbreaks, and we

13

have to keep in mind the context of when this order

14

was entered, at the end of April.

15

You know, there's a lot of dispute about it,

So when someone

This wasn't a situation where everyone

16

had a lot of time to compile years of research and

17

figure out what was going on.

18

accordance with the knowledge that we had at the time,

19

and that knowledge showed that in-person gatherings

20

that center around verbal interaction are dangerous,

21

and that's why schools have been closed.

22

doubts that going to school is very important, but

23

they have been closed for the past few months and have

24

only right now been opened for summer school on a

25

short-term basis.

We had to act in

No one

And other activities, such as going

Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 150a

Page 29
1

to a movie theater or concert hall, which the Chief

2

Justice found comparable, are still prohibited.

3

looking at the broader context, there is no evidence

4

of religious animus.

5

look at --

So

Instead, there is an effort to

6

THE COURT:

Counsel?

7

MS. GUPTA:

Yes, Your Honor?

8

THE COURT:

You have two minutes

10

MS. GUPTA:

Thank you, Your Honor.

11

I would like to -- note that I address

9

12

Counsel?

remaining.

any (indiscernible le).

13

THE COURT:

I do have a question,

14

though.

15

you will not enforce or go back to the original order

16

without coming to this Court to seek permission?

17

Would you be willing to agree and to say that

MS. GUPTA:

Your Honor, we are not

18

willing to do this at this time, but I would like to

19

point out that neither the governor nor the state has

20

taken any enforcement measures against the church.

21

The enforcement measures via -- in plaintiff's

22

(indiscernible) have been from local governments,

23

which have (indiscernible) authority and can take

24

measures more strict than the governor does.

25

far, the governor has not taken any enforcement

So so

Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 151a

Page 30
1

actions against plaintiff or churches or any places of

2

worship.

3

But I -- I would like to point out

4

that, no matter what happens in the future, the

5

context is going to be important, because we have to

6

look at not only what restriction was placed on

7

churches, but also on other secular gatherings and how

8

they operate together.

9

Court thinks there is a wide case here, we still think

So we do understand, if this

10

that there is no evidence of religious animus under

11

McCoomey or Smith, for the reasons that I outlined.

12

And we think that the South Bay (ph) case is still

13

useful here, because even though the standard is

14

different there, Chief Justice Roberts' opinion

15

emphasized the need for publicly-elected officials in

16

this context, and the governor has thus taken steps to

17

protect the people of Illinois, and they will continue

18

to rely on this publicly-elected official to protect

19

them from a virus that has already taken the lives of

20

more than 6,000 individuals.

21

So I know that I am almost out of time,

22

and unless the Court has any further questions, I ask

23

this Court to deny this request for preliminary

24

injunction.

25

THE COURT:

Thank you, Counsel.

Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 152a

Page 31
1
2
3

Mr. Mihet, anything further?

You have

about four-and-a-half minutes.
MR. MIHET:

Yes, I have several quick

4

hits here, Your Honor.

Number one, when discussing

5

the difference between warehouses and churches, my

6

colleague on the other side said that the intention of

7

the people going to these places is different.

8

due respect, the virus doesn't care what the intention

9

of the people is.

With

What matters is the proximity of

10

the people, and there is no reason why people -- there

11

is no reason why people cannot be distanced in a

12

church, like they would be anywhere else.

13

Counsel mentioned that some of these

14

warehouses have different doors for egress and ingress

15

or one-way aisles going in and out or various measures

16

that they have taken.

17

have, taken the same, exact measures, and so, there is

18

no reason why we would not even give the churches a

19

chance to -- to try to implement the same measure.

20

That's all the churches are asking for.

21

Well, the churches can, and

Now, with respect to the provision that

22

discriminates against the religious use of the church

23

property, you know, the Section 2.12(c) says

24

businesses and religious and secular non-profit

25

organizations, including food banks, when they are
Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 153a

Page 32
1

providing food, shelter, social services, and other

2

necessities of life for needy people, are exempt from

3

the ten-person requirement.

4

know, these things can be done without close

5

interaction, but, you know, a church could literally

6

have 500 people in its auditorium feeding them a meal

7

or housing them overnight or teaching them how to

8

submit a jobless benefits applications and it would

9

not have any of those limits to contend with.

So counsel said that, you

But as

10

soon as the church starts preaching or praying or

11

worshipping with the same people in the same

12

auditorium, this provision kicks in.

13

unconscionable.

14

That is

I would also say that the -- with

15

respect to the -- the protests and what not that are

16

happening, you know, everybody else other than

17

churches continues to remain subject to the ten-person

18

limit that was beforehand.

19

governor has decided to make exceptions for other

20

people.

21

provisions, that he governor can just decide to impose

22

and give exemptions to whomever he wants without

23

anything to cabin (ph) his discretion.

This shows the arbitrary nature of these

24
25

Except that now, the

I do want to spend a little bit of time
on enforcement.

You know, every enforcement action

Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 154a

Page 33
1

that was taken against these churches, from the

2

citations that they have received, the criminal

3

citations, right over to the letter that threatens to

4

actually bulldoze the churches, all of them have

5

referenced the governor's orders specifically saying

6

that the enforcement action is being taken because of

7

the the -- the governor's orders.

8

would say then with respect to the movements issue,

9

the Federation Advertising case is different, because,

And so, what I

10

in that case, they were dealing with a legislative

11

enactment, not with a governor that was ruling by

12

fiat.

13

something and then repeals it, it is entitled to more

14

deference than when one single person gets to make

15

these decisions willy -- willy-nilly, without any kind

16

of things to cabin their discretion.

17

And so, when a -- when a legislature enacts

I would say that it's very clear that

18

Jacobson does not stand for the proposition that there

19

is a pandemic exception to the Constitution, and I

20

would say that the Chief Justice in the California

21

opinion -- he was alone.

22

other justices in the majority joined that concurrent.

Not even the -- the four

23

And I would end this presentation by

24

asking the Court to again, spend some time with the

25

first two pages of Order 38.

This is the new, the

Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 155a

Page 34
1

brand new order that was issued on May 290th.

2

are so many dire predictions in these whereas clauses

3

about where the state is now.

4

that would support the governor's claim that things,

5

all of a sudden, have gotten better, and they've

6

gotten better only for churches.

7

sorry.

8

There

There is noting in here

And so, -- yes?

I'm

THE COURT:

I think they weren't

10

MR. MIHET:

Oh.

11

THE COURT:

Go ahead.

12

MR. MIHET:

And so, there is nothing in

9

asking.

13

this order that would suggest that -- that the

14

restriction on churches was removed because the

15

situation had gotten better for churches and only for

16

churches, and what this also shows is that --

17

THE COURT:

Thank you, Counsel.

18

MR. MIHET:

I'm sorry?

19

THE COURT:

Thank -- thank you,

MR. MIHET:

Oh, time is up?

20

Counsel.

21
22

sorry.

23

Okay, I'm

I didn't hear.
THE COURT:

24

sides.

25

Court will be in recess.

Thank you very much to both

The case is taken under advisement, and the

Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 156a

Page 35
1
2
3

MR. MIHET:

Thank you.

(Proceedings concluded.)
* * * * * *

4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 157a

Page 36
1

1

C E R T I F I C A T I O N

2

2

3

3

4

4

transcript is a true and accurate record of the

5

5

proceedings.

6

6

7

7

8

8 /s/ Nicole Yawn

I, Nicole Yawn certify that the foregoing

______________________________
9

Nicole Yawn
9

10
11

10

12
11
13
14

12

15

Date:

September 22, 2020

13
16
17

14

18
15
19
20

16

21
17
22
23

18

24
25

19
Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 158a

Page 37
1

21

2
3
4

Veritext National Court Reporting Company
22

5
6
7

Mid-Atlantic Region
23

8
9
10

1801 Market Street – Suite 1800
24

11
12
13

Philadelphia, PA 19103
25

14
15
16
17
18
19
20
21
22
23
24
25
Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 159a

[1 - asking]

Page 1

1
1 7:23,24 36:1
1,000 21:18
1-888-777-6690
1:24
10 7:20,25 10:10
21:16,23 36:11
100 1:18
11 36:12
12 1:5 6:25 36:14
12th 1:18
13 36:15
14 2:4 36:17
15 7:21 36:18
16 7:21 36:20
17 8:4 36:21
18 6:25 7:23 36:23
1800 1:23 37:9
1801 1:23 37:9
19 22:11 27:4
36:25
19103 1:24 37:12
2
2 6:1 7:6 36:2
2.12 12:20 31:23
20 3:19
20-1811 1:3
2020 1:5 36:15
21 37:1
219 1:6
22 36:15 37:4
23 10:9 37:7
24 37:10
25 37:13
2722 1:6
29 5:25 7:8
290th 34:1

3
3 2:3 36:3
30 7:19,25 21:18
31 2:5
32 5:11,15 10:7,12
12:19 20:15,25
21:14 25:20 27:2
27:6
32854 1:15
38 5:24 15:14
33:25
4
4 7:21 36:4
5
5 7:17 36:5
50 21:22
500 12:25 32:6
540774 1:15
6
6 3:19 36:6
6,000 30:20
60601 1:19
7
7 36:7
7th 3:6
8
8 10:11 12:19 36:8
9
9 36:9
a
able 11:13
abortions 24:18
absolutely 4:22
16:8,11 17:10,18
17:23
accept 11:16
access 24:17,17,18

account 6:13
accounts 27:20
28:11
accurate 36:4
act 28:17
action 22:8,12
27:6 32:25 33:6
actions 17:11,25
22:4 25:3 30:1
activities 23:3,21
26:13 28:25
activity 12:23 13:6
15:6,8 20:14 21:2
21:8 23:11,15,18
26:23,24
address 17:20
22:17 24:2 29:11
adjust 12:13
admonished 3:9
adversary 19:14
advertising 15:4
16:15 33:9
advice 26:2
advisement 34:24
affidavit 4:24
afternoon 3:12,17
14:16
ago 22:18
agree 5:7,8 29:14
ahead 27:17 34:11
aisle 20:8
aisles 20:22 31:15
alleged 16:8
allegedly 4:23
17:18
allow 14:5 23:11
26:13
allowed 23:17
25:16
allowing 25:12

alternative 9:18
alternatives 9:21
amendment 8:19
26:14,24
amount 11:21
20:18
analysis 25:9
animus 23:20
24:13 29:4 30:10
announced 5:25
6:12
another's 24:6,7
answer 27:24
apart 12:3 20:7
appeal 3:22,25
13:22 14:19
appeals 1:1 3:6
appearances 1:13
appellant 1:4
appellants 1:14
3:18 4:19
appellee 1:7,17
14:18
appendix 7:6
applications 32:8
applies 19:4,8
apply 19:15 21:16
22:6 24:8
approach 9:8
13:20
appropriate 22:1
april 28:14
arbitrary 32:20
argue 10:21
argument 1:9 2:3
2:4,5 10:16 23:24
arguments 3:13
asked 19:14
asking 26:4 31:20
33:24 34:9

Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 160a

[asks - concerns]
asks 20:17
assistant 14:17
assume 12:7 24:2
atlantic 1:23 37:6
attempting 22:11
attention 3:9
attorney 1:17
14:17
audio 4:5
auditorium 13:1
32:6,12
authority 29:23
available 9:3
average 7:19
b
back 5:22 6:9 7:13
29:15
bad 15:5
balance 26:21
banks 31:25
barrier 5:19,22
based 8:5 13:8
basic 12:5
basis 18:14 28:25
bay 30:12
beginning 25:20
behavior 12:7
16:9 17:18
believe 8:25 15:24
19:24 27:9
benefits 32:8
better 34:5,6,15
beyond 22:13,13
big 21:21,22
bit 32:24
box 1:15
brand 34:1
brief 8:4 10:17
briefs 8:15
broader 29:3

Page 2
bruney 9:12
buildings 22:20
bulldoze 33:4
burden 4:18,21,21
13:19,23 17:15,17
business 3:8
businesses 10:10
26:18,19 31:24
c
c 3:1 7:6 12:20
13:2 14:1 31:23
36:1,1
cabin 32:23 33:16
california 10:22
12:18 13:17 19:19
33:20
called 6:13
cap 21:16
capable 4:4,8 7:15
8:5
cards 11:25
care 6:5 31:8
carolina 25:14
case 1:3 3:14 7:14
7:24 8:3,12,16
9:12,22 10:19,22
10:23 12:17 13:17
13:21 19:5,19
22:6 25:13,14
28:3 30:9,12 33:9
33:10 34:24
cases 7:4,22 9:4
15:20
cash 12:1 20:5
categories 10:10
category 26:23
cathedral 21:17
21:22
caused 27:21
cavanaugh 6:15

cdc 21:20 25:4
26:2
center 28:20
central 23:2
certain 11:20
certainly 11:19
14:14
certify 36:3
cessation 14:21
15:6 19:4
challenge 6:18
16:16 17:3
chance 13:24
31:19
change 5:25 6:11
6:12,15 7:11,12
12:7 16:13,13
changing 15:22
charitable 23:1
chart 7:17
chicago 1:7,19
16:16
chief 10:24 11:1
12:17 13:14,17
19:18 21:2 29:1
30:14 33:20
chock 6:2
choice 26:11,18
church 1:3 3:14
12:3,8,12,13,25
14:3 23:5,8 29:20
31:12,22 32:5,10
churches 5:14
6:16,16 12:22
13:10 22:19 27:14
27:20 30:1,7 31:5
31:16,18,20 32:17
33:1,4 34:6,14,15
34:16
circuit 1:1 3:7
9:13

citations 33:2,3
cites 8:3
city 16:16,23
clad 18:10
claim 34:4
clarifying 14:20
clauses 6:1 34:2
clear 4:22 14:23
15:2 16:8,11
17:10,18,23 33:17
clearly 5:18,19
clerk 3:5
close 12:10 23:4
32:4
closed 28:21,23
cognizant 23:21
colleague 31:6
come 19:2
coming 29:16
commenting 12:18
commitment
18:10,18
common 9:9
company 1:22
37:3
comparable 29:2
compare 21:4 26:5
comparison 10:25
11:2,4,6 19:15,18
19:23,25
comparisons 12:5
compelling 8:24
9:22 10:3,4
compile 28:16
complete 4:2 7:13
20:8
conceded 8:24
concerned 6:3
13:18
concerns 24:8
26:14

Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 161a

[concert - draw]
concert 21:7 29:1
concerts 11:3
conclude 16:6
concluded 35:2
concurrent 33:22
conditions 7:2,8
conduct 4:23
12:13 13:11 15:1
16:20 21:4 23:18
25:8
conducting 20:14
congregate 19:21
consider 9:21
considered 9:25
10:2 13:5
consistent 21:20
constant 26:1
constitute 22:13
constitution 13:25
14:1 24:4 33:19
constitutional
9:10 10:8 22:14
24:11
contend 10:19
32:9
content 13:8
context 24:8 25:10
28:13 29:3 30:5
30:16
continue 12:8 14:4
23:17 27:4 30:17
continues 32:17
contrary 4:12
controversial
24:11
corona 15:20
correct 28:4
counsel 1:14 10:13
14:6,14 15:17,17
17:13 19:13 20:1
22:16,16 23:25

Page 3
27:12 29:6,6
30:25 31:13 32:3
34:17,20
counsel's 23:24
country 24:10
course 15:22
20:12 22:10 25:8
26:6,7
court 1:1,22 3:4,6
3:8,10,11,12,20,20
4:6,13,14,14,19
5:4,17 6:14,14,20
7:22 8:3,6,7,13,18
8:21,23 9:17
10:13,23 13:18,20
14:5,6,14,17 15:4
15:7 16:18 17:13
17:17 18:6,8,14,16
19:3 22:16 26:3
27:10,12,17,23
29:6,8,13,16 30:9
30:22,23,25 33:24
34:8,11,17,19,23
34:25 37:3
court's 3:21 9:11
16:7,10 17:14,21
18:24
courts 9:1
covid 22:11 27:4
crazy 9:17
credit 11:25
criminal 13:7 33:2
curb 22:11
current 15:20
18:11
currently 20:15
customers 11:24
d
d 2:1 3:1
damage 26:20

dangerous 12:2
21:23 28:20
data 15:14
date 16:13 36:15
day 11:12
days 7:19,20,25,25
deal 17:14
dealing 33:10
dealt 10:25
dearborn 1:6
deaths 27:14,19
decide 32:21
decided 24:5
32:19
decision 15:13,19
decisions 16:11
33:15
declaration 18:23
defendant 14:18
defendant's 17:17
defendants 8:7
defending 4:13
deference 24:25
27:2,5,9 33:14
deferential 22:5
definitely 7:25
demonstrations
26:4
denial 3:21 8:10
denominator 9:9
deny 30:23
department 5:20
determine 9:15
19:14 25:2
developed 7:3,4
difference 31:5
different 12:17
16:22 17:2 19:20
21:2 23:15 30:14
31:7,14 33:9

dire 6:2,2 27:7
34:2
disavow 15:1
disavowed 4:11
16:23
disclaimed 4:10
disclaiming 4:25
discretion 4:2 7:13
32:23 33:16
discriminates 14:2
31:22
discriminating
22:24
discrimination
10:18 24:9
discriminatory
13:9 24:23
discussing 31:4
disease 9:4
dismiss 7:16
disparate 3:23
disparately 5:15
10:5
dispute 4:3,8 7:15
8:1 10:23 28:6
dissent 11:3
dissenting 10:24
19:19
distanced 12:2
31:11
distancing 20:24
distinguishing
24:23
district 3:21
dockets 25:14
doors 31:14
doubt 7:10
doubts 28:22
dozens 11:10,10
draw 3:9

Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 162a

[driven - genuine]
driven 7:12
droplets 28:9
due 27:2,19 31:8
dying 27:8
e
e 2:1 3:1,1 36:1
e.o. 15:13 20:15,25
25:20 27:2,6
ease 26:18
easily 18:2 26:16
27:9
easterbrook 1:11
10:15,16 15:17,18
16:4 19:12
effect 7:20
effective 5:19
effort 29:4
egress 31:14
eight 11:12
either 5:11 7:2
9:14,23
elected 24:14,15
30:15,18
elim 1:3 3:14
emergency 13:20
emergent 19:9
emphasized 30:15
employee 11:14,23
employees 11:11
11:21 20:2,23
employing 5:14
enactment 33:11
enacts 33:12
endangers 21:5
enforce 9:1 29:15
enforcement
29:20,21,25 32:25
32:25 33:6
enforcing 5:11
engage 13:10
20:23 23:22

Page 4
engaged 12:22
engaging 13:5
enjoin 5:10
entails 21:8
entered 27:3,7
28:14
entitled 33:13
error 5:1 12:5
especially 26:14
esq 1:14,17
essential 23:14
essentially 10:12
evading 4:9 7:16
events 25:19
eventual 5:12
everybody 6:17
32:16
evidence 10:4
25:18,25 26:1
28:2 29:3 30:10
exact 31:17
exactly 15:18
27:24
example 12:23
18:1 20:1,5,16
22:18 23:16 24:4
24:10,16 25:11
exceedingly 13:19
exception 19:4
33:19
exceptions 32:19
excuse 8:23 21:13
22:16
executive 5:24
10:12 12:19,21
exempt 10:9 32:2
exemption 22:23
23:19
exemptions 32:22
exercise 8:17 10:5
24:10 25:12 26:25

exhibit 7:6
exigencies 9:15,19
exists 27:4
expectation 14:24
16:20 17:9,16
expected 15:9 16:9
17:19,24
experts 25:4
explain 19:22
explained 8:15
15:4,15
extended 23:3
f
f 27:19 36:1
fact 4:19 5:3,23
7:1 12:11
fail 9:6
faith 8:7 15:5
faith's 24:5
falls 8:18
far 29:25
features 24:24
federal 9:7
federation 15:3
16:15 33:9
feed 13:1
feeding 12:23
22:20,20 32:6
feeney 27:13
feet 12:3
fiat 33:12
figure 28:17
financial 26:20
find 10:25 23:14
24:4,13,15
finding 28:1
finds 19:3
firearms 24:17
first 6:1 8:19 9:5
14:19 15:12 16:21
19:7 22:8 25:3

26:14,24 33:25
five 6:22,23
fl 1:15
floor 1:18
focus 8:16
folks 12:7
follow 26:3
food 23:8 31:25
32:1
foregoing 36:3
formidable 4:21
found 9:25 16:18
29:2
four 15:12 31:2
33:21
framework 19:7
22:5,6
free 8:17
full 6:2
fully 8:1
functionally 25:16
funerals 25:13
further 30:22 31:1
future 14:25 15:3
30:4
g
g 1:14 3:1
gap 4:5
gathering 13:3
21:22
gatherings 15:14
17:1,2,3,7,8 21:21
22:1,1 25:5,6,15
25:22 26:10 27:21
27:24 28:10,12,19
30:7
gen 1:17
general 14:17 25:6
gentlemen 3:13
genuine 15:9

Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 163a

[give - interlocutory]
give 3:9 6:13 31:18
32:22
given 23:11 25:23
26:11
go 6:24 9:9 11:16
11:20 12:12 19:5
20:4,6,8 22:12
24:22 27:10,17
29:15 34:11
god 3:10
going 6:25 27:20
28:17,22,25 30:5
31:7,15
good 3:12,17 8:7
10:1 14:16 19:23
19:25
gotten 34:5,6,15
government 5:11
15:1,5,7 22:8 27:5
government's 21:5
22:12 25:2
governments
29:22
governor 4:1,10
4:11,15,20,23 5:13
5:22 6:3,7,9,13,19
6:24 7:9,10 8:3,11
9:13,20 14:18
15:22 16:6,12,24
18:5,9,18,22 19:11
22:10,23 23:10,21
25:11 26:11 29:19
29:24,25 30:16
32:19,21 33:11
governor's 3:23
5:23 6:22 9:8
15:13,19 17:11,24
22:4 26:1 33:5,7
34:4
greater 24:16,17

Page 5
grocery 11:5,7,9
20:13,21
group 10:25 11:2
11:4,7 19:15,18,23
19:25 21:12
grouped 20:20
23:6
groups 20:4 26:8
guess 8:25
guidance 21:20,25
gupta 1:17 2:4
14:15,16,18 15:23
16:14 17:22 18:7
18:12,15,19 19:24
21:10,11,13,19
22:22 24:19,21
25:1 26:6 27:16
27:18 28:4 29:7
29:10,17
h
h 9:12
half 31:2
hall 29:1
hamilton 1:11 5:6
5:7 21:10,13,14
23:25 24:1,20,22
handshaking
12:10
happen 7:2
happened 6:7 7:8
happening 32:16
happens 30:4
happy 14:4,9
hard 24:13,15
health 6:5 22:9
hear 3:7,7,7,13
34:22
heart 7:11
held 8:18
hello 4:6,6

helpful 16:15
25:10
high 13:19
hit 15:25
hits 31:4
homeless 12:24
22:20,21
hon 1:11,11
honor 5:5 8:22
10:14 11:9 15:23
16:14 17:22 18:12
18:15,19 19:24
21:19 22:22 24:19
25:1 26:6 28:4
29:7,10,17 31:4
honorable 3:5,8
3:11
honorables 1:11
honors 3:18 13:21
horatio 1:14 3:18
hori 4:6
hour 20:3
hours 6:12 11:12
11:12,21,22 20:5
house 13:1
housing 12:24
22:21 32:7
hugging 12:11
hundreds 11:11
hungry 12:24
22:21
hypothetical 19:1
i
ian 25:14
identify 3:3
il 1:7,19
illinois 15:15,21
19:2 21:25 22:3
26:12,19,21 27:7
30:17

imagine 13:13
implement 26:13
31:19
important 12:16
22:15 26:23 28:22
30:5
impose 16:25
24:16 32:21
imposed 14:25
including 26:2
31:25
incorrect 11:14
increased 22:2
increasing 26:13
indicate 6:3
indiscernible 16:2
18:7 29:12,22,23
indisputably 7:7
individuals 30:20
indoors 18:3
infection 15:16
infectious 9:4
information 23:12
25:24 27:19
ingress 31:14
injunction 3:22
5:9,10 19:6 30:24
injunctive 8:10
inside 11:17
instance 24:18
intent 4:10,25
intention 8:8
20:10 31:6,8
interacting 11:24
interaction 23:4
28:20 32:5
interest 8:25 21:5
22:9
interlocutory
13:22

Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 164a

[invasion - motion]
invasion 22:14
invoked 19:21
involves 21:9
iron 18:10
issuance 25:20
issue 5:9 8:5 33:8
issued 7:9 25:11
34:1
iterations 7:18,20
j
jacobson 19:7
22:5 33:18
jay 1:6
jobless 32:8
joined 33:22
judge 1:12 3:3 5:6
5:6 10:15,15,16
15:17,18 16:4
19:12 21:10,13,14
23:25,25 24:20,22
27:12
judges 3:5
judicial 3:7
june 1:5
justice 6:14 10:24
11:2 12:18 13:14
13:17 19:18 29:2
30:14 33:20
justice's 21:3
justices 19:19
33:22
justification 10:5
justify 6:19
k
keep 28:13
kern 8:4,5
kicks 13:6 32:12
kind 13:14 33:15
know 13:11,12
16:1 18:1,2,8,16

Page 6
18:21 24:2 25:21
27:15 28:5,6
30:21 31:23 32:4
32:5,16,25
knowledge 28:18
28:19
l
ladies 3:12
large 25:12 26:8
law 8:18 11:7
lawyer 19:20
le 29:12
leader 24:14
leading 25:19
28:12
learn 18:22
learned 18:4
leave 20:8 23:8
lecture 21:6 23:16
led 8:9
left 4:2
legal 11:20
legality 4:12
legislative 33:10
legislature 33:12
legitimate 24:25
letter 33:3
level 15:24
liberties 26:24
liberty 1:14
life 7:19 32:2
lift 15:13
likes 19:10
limit 3:24 6:17
12:22 13:3,6
20:18 21:19,25
22:1 32:18
limitation 11:13
limited 22:3
limiting 25:5,6

limits 32:9
lines 20:18
literally 32:5
litigation 7:12
16:17
little 32:24
lives 30:19
local 29:22
long 19:22 20:3,11
20:20 23:6,10
27:3
longer 13:5
look 5:23 10:11,22
11:14 12:19 15:7
16:4 19:16 25:3,7
25:10,19 27:6
29:5 30:6
looking 29:3
lot 11:19 16:2 18:1
18:21 28:5,6,16
lower 4:14
lowest 9:9
lukume 8:17
lutheran 5:17
m
maintaining 7:12
majority 33:22
making 4:21 10:17
mandate 9:10
manner 14:3
23:18
manufacturing
20:17,17
marches 26:4,15
marching 26:7
market 1:23 37:9
masks 20:24
matter 5:17 9:9
21:21 30:4
matters 31:9

mccoomey 9:12
21:4 30:11
meal 13:1 32:6
means 9:3
meant 28:10
measure 31:19
measures 5:14 9:6
9:14 29:20,21,24
31:15,17
medical 17:25
25:4 26:2 28:2
meeting 21:6
meetings 11:14,24
12:10
mentioned 31:13
mere 6:12 17:5
merely 13:23
merits 5:7 8:13,14
13:24 19:5
met 27:9
mid 1:23 37:6
mihet 1:14 2:3,5
3:16,17,18 4:7 5:4
5:5,10 8:21,21,22
9:11,18 10:14
11:8 14:8,12 31:1
31:3 34:10,12,18
34:21 35:1
mind 28:13
minimum 8:19
minutes 3:19
11:17 22:18 29:8
31:2
mission 23:2
months 6:25 7:23
25:20 28:23
moot 3:23 4:1 5:8
5:18 7:15 8:12
14:20
motion 7:16 13:20

Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 165a

[movements - policy]
movements 33:8
movie 21:7 29:1
movies 11:3
moving 8:14
n
n 2:1 3:1 36:1
nailed 8:20
narrowly 9:2
national 1:22
21:25 37:3
nature 32:20
near 3:9
necessarily 21:23
necessary 8:19
15:25 16:5 17:6
19:3,6
necessities 32:2
need 11:5 14:22
26:22 27:5 30:15
needed 27:9
needy 32:2
negligible 13:24
neither 29:19
neutrality 19:16
never 15:3
new 7:4,9 16:18
19:1 33:25 34:1
nicole 36:3,8,9
nike 4:20
nilly 33:15
non 12:22 19:17
31:24
normal 26:23
north 25:13
note 3:2 29:11
noted 3:4
notes 3:2
noting 34:3
number 4:1,3,7,9
11:9 31:4

Page 7
numerical 13:3
numerous 28:11
o
o 3:1 27:19 36:1
occur 25:13
occurring 26:9,15
offensive 10:8
office 1:17 24:16
offices 11:7
official 30:18
officials 30:15
oh 14:8 34:10,21
okay 19:12,12
34:21
old 4:3,11 8:9
ongoing 16:17
open 18:3
opened 28:24
operate 17:7 20:18
30:8
opinion 13:15
30:14 33:21
opinions 10:24
opposed 10:20
opposing 20:1
opposition 7:17,21
oral 3:13
order 5:11,13,15
5:15,24 6:2 7:9
10:7,9,12 12:19,21
12:25 14:2 15:15
16:24 18:11 21:14
24:4 25:7,10
28:13 29:15 33:25
34:1,13
orders 7:18 24:24
26:1 33:5,7
ordinance 16:17
16:21
organizations
22:25 23:13,17,22

31:25
original 29:15
orlando 1:15
outbreaks 27:21
28:12
outdoors 18:2
outlined 30:11
outside 10:19
26:15
overcome 3:25
overnight 12:24
13:2 32:7
p
p 3:1
p.o. 1:15
pa 1:24 37:12
page 2:2 7:6,17,21
8:4 10:11 12:19
pages 6:1 33:25
palpable 24:3
pandemic 9:4 24:8
25:21 33:19
part 15:5
particular 10:7,9
party's 24:6
passed 5:25
passing 20:22
pastor 23:6
path 8:17
peak 6:6
pentecostal 1:3
3:14
people 12:3,6,12
12:12,25 13:12
19:21 20:5,7,16,19
20:22 21:17,22,23
22:2 23:9 24:15
25:23 26:22 27:8
30:17 31:7,9,10,10
31:11 32:2,6,11,20

period 7:5
periods 19:22
20:11,20 23:7,10
permission 29:16
permissive 26:11
26:17
permit 23:23
person 3:23 6:17
10:11 12:21 13:6
23:6 25:5 28:19
32:3,17 33:14
personally 27:18
persons 3:8
ph 8:4,17 9:12
19:7 24:24 25:14
27:13 30:12 32:23
phase 6:22,23
philadelphia 1:24
37:12
place 6:15,25 7:8
20:3
placed 30:6
places 12:1 30:1
31:7
plaintiff 30:1
plaintiff's 17:15
19:20 29:21
plaintiffs 13:23
17:3 22:17
plan 6:22
plants 20:17,17
played 8:1
please 3:19,20
14:17
point 6:10 12:15
18:23 22:17 29:19
30:3
pointed 20:2
policy 4:3,11,12
4:25 5:20,23 6:1,9
6:11,12,18 7:12

Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 166a

[policy - requirements]
8:9 26:11,17
possibility 17:5
18:25
possible 20:1
22:14
praying 32:10
preaching 32:10
predictions 34:2
preliminary 3:22
19:6 30:23
premise 8:6 11:16
present 22:10
presentation
33:23
presume 15:5
pretext 24:9 25:15
25:19,25
pretextural 24:23
25:3
pretty 24:13
prevent 5:19
15:21
previous 16:23
primarily 28:7
pritzker 1:6 3:15
14:18
priyanka 1:17
14:17
proceedings 35:2
36:5
products 11:25
profit 31:24
profound 14:3
prohibit 5:13
prohibited 29:2
prohibiting 25:12
prongs 22:7
proper 10:20
properly 8:9 12:2
12:4

property 14:3
31:23
proposal 16:19,22
proposed 16:18,24
proposition 33:18
protect 8:19 30:17
30:18
protected 13:5
protesting 26:8
protests 26:15
32:15
provide 23:14
provided 22:19
23:3
providing 23:1
32:1
provision 13:10
31:21 32:12
provisions 32:21
proximity 31:9
public 22:9
publicly 30:15,18
punishes 13:10
punishment 13:7
put 24:1
q
quarters 23:4
question 9:1 19:13
22:13 24:1 27:1
27:24 29:13
questions 30:22
quick 31:3
quickly 25:22,22
quotation 16:10
quote 8:7,10 9:20
r
r 3:1 36:1
rallies 24:6
randolph 1:18

Page 8
rapidly 21:24 27:8
rate 15:16
reach 8:13
ready 3:13
really 12:15,16,16
reason 7:14 10:1
31:10,11,18
reasonable 14:24
15:9 16:20 17:9
17:16
reasonably 16:9
17:19,24
reasoning 21:3
reasons 4:1 6:8
7:10 8:12,15 11:8
15:8,12,24 16:21
30:11
rebuttal 2:5 3:19
14:7,11,13
received 3:2 33:2
recess 34:25
recognize 20:25
26:22
recognized 20:16
23:13
recognizing 23:15
recommending
25:4,5
record 9:24 27:13
36:4
recur 16:9,12
17:19,24
referenced 33:5
regard 28:1
regards 17:8
region 1:23 37:6
registers 20:6
reinstating 5:20
reiteration 5:12
relief 8:10

relieve 6:16
relieved 6:20
religion 10:18
11:1 19:17,17
23:2 24:14
religions 22:24
religious 10:5
12:23 13:4,11
14:2 15:14 16:25
17:2,7 21:8 22:25
23:13,20,22 25:12
26:10,25 28:12
29:4 30:10 31:22
31:24
rely 30:18
remain 32:17
remaining 29:9
remains 6:8
remiss 6:10
removed 34:14
removes 12:21
reoccur 15:10
reoccurring 16:20
repeal 16:23
repealed 16:16
repeals 33:13
repetition 4:8 7:15
8:5
reporter 3:2
reporting 1:22
37:3
representation 8:8
8:11
request 30:23
require 15:1
required 9:5,7
18:24
requirement
10:11 11:20 32:3
requirements 9:2

Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 167a

[rescind - stay]

Page 9

rescind 18:10
research 17:25
28:16
reserve 3:19
reserving 16:12
residents 26:19,21
resolve 27:15
resources 6:5
respect 31:8,21
32:15 33:8
respects 12:1
respiratory 28:8
rest 14:12
restocking 20:7
restriction 6:19,21
11:23 13:9 14:24
15:25 16:25 17:6
17:23 21:16 22:3
30:6 34:14
restrictions 6:23
9:2 15:13 19:2
24:17,18 26:10,18
restrictive 9:3,5,8
resume 26:22
resurfacing 5:12
return 4:3,10,22
4:25 5:2,22 6:9
7:13
returning 8:8
reverse 3:21
review 4:9 7:16
right 8:17 10:25
11:2,4,6 16:12
17:4 19:15,17
26:18 28:24 33:3
rights 8:20 22:14
24:11
risks 20:12,14,15
21:1 26:7
road 6:25

roberts 12:18
13:14,17 30:14
romanian 3:14
room 1:6 21:18,18
rooms 23:9
rooted 22:9
rule 16:13
ruling 33:11
s
s 1:6 3:1 36:8
safe 23:18,23
safety 26:21
sanitized 12:4
save 3:10 14:12
saying 33:5
says 6:4 7:23,24
8:7 17:17 31:23
school 21:6 23:17
28:22,24
schools 28:21
scientific 17:11
scope 10:19
scrutiny 3:25 8:16
8:24
second 7:14 16:1
16:22 22:12
section 12:20
31:23
secular 17:2,8
21:4 22:25 30:7
31:24
see 7:5 9:1,6 14:4
15:7 24:9
seek 29:16
seen 5:1 19:10
separate 20:6
september 36:15
seriously 9:21,25
service 12:3 13:4,4
services 3:24
22:19 23:1,14

24:5 32:1
set 22:5
seventh 1:1
shelter 32:1
shifts 4:18,18
20:19
shopper 11:15
shoppers 11:16
short 7:23,23,24
7:25 28:25
show 9:24 13:23
14:23 16:19 17:9
17:15
showed 28:19
showing 15:11
shows 7:18 22:23
23:20,20 27:14
32:20 34:16
shut 24:5
sic 11:1
side 31:6
sides 34:24
significant 7:5
similar 21:7 25:9
25:16
simply 10:1,2
11:14 16:22 21:1
27:6
singing 25:23
single 33:14
sings 28:9
sitting 3:10
situation 6:4,5
15:15,20 19:9
22:2 26:12 27:7
28:15 34:15
six 12:3
smith 10:19 19:16
25:9 27:11 30:11
social 20:23 22:18
32:1

soon 13:3 32:10
sorry 14:8,8 27:18
34:7,18,22
sounds 9:17
south 30:12
space 20:9
spaced 20:7
span 7:19
speak 27:25
speaker 14:10
speaking 3:3
25:23
speaks 28:9
specifically 33:5
speculation 4:16
spend 11:19 32:24
33:24
spike 15:21
spread 22:11
25:22
spreading 21:24
25:22
stagger 20:19
stand 20:4,11,16
33:18
standard 8:19
14:21,22,25 17:20
17:21 18:24 19:16
30:13
standing 21:11
23:9,16
standpoint 10:8
start 11:5 14:19
starts 32:10
state 8:25 29:19
34:3
states 1:1 3:6,11
24:14
stations 20:6
stay 23:5

Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 168a

[steadily - various]
steadily 26:12
steps 30:16
stop 14:5
stopping 15:8
store 20:13
storefront 21:18
stores 11:5,7,9
20:4,11,21 21:1
strain 19:1
street 1:6,18,23
37:9
strict 3:24 8:16,24
29:24
subject 3:24 13:7
32:17
submit 13:13,24
32:8
submitted 4:24
subsection 12:20
13:2 14:1
substantial 22:9
success 13:24
sudden 34:5
suffered 26:20
suffice 13:13
suggest 25:15 27:3
34:13
suite 1:23 37:9
summer 28:24
support 34:4
suppose 10:20
supposed 6:24
20:21,23
supposes 10:17
supreme 4:14,19
5:17 6:14,14,20
7:22 8:3,6,6,18
9:11 10:23 16:7
16:10 17:14,17,20
18:24

Page 10
sure 18:17
surmise 4:16
survive 14:3
suspect 6:11
system 9:7
t
t 6:1 36:1,1
tables 23:8
tailored 9:3 20:15
21:15
take 6:25 15:3
23:9 29:23
taken 15:2 29:20
29:25 30:16,19
31:16,17 33:1,6
34:24
takes 10:19
talk 27:13
talking 14:19
21:17
talks 10:12
task 20:8
tasked 20:7
taxed 6:6,6
teaching 9:12 32:7
tell 4:17
ten 3:23 6:17
11:12,17 12:21
13:6 22:2 32:3,17
term 28:25
terms 11:23,24
17:15
test 16:7 21:3
thank 29:10 30:25
34:17,19,19,23
35:1
theater 21:7 29:1
therapeutic 7:3
thing 5:21 8:2
13:16 28:2

things 12:4,11
20:19 26:8 32:4
33:16 34:4
think 5:8 11:6,18
16:14 19:5 22:22
23:19,24 24:7,21
25:1,9 27:1 28:2
30:9,12 34:8
thinks 30:9
third 9:13
thought 11:2,4
14:9
threatens 33:3
three 7:1
tied 15:14,20
17:11,25
time 7:5 11:19,21
11:22 14:4,6,7,9
14:13 20:3,5,12,21
21:20,24 23:7,10
23:12 25:24 26:9
28:16,18 29:18
30:21 32:24 33:24
34:21
timing 6:11
total 4:2 7:13
touching 11:25
traces 7:17
traditional 13:22
transcript 36:4
transmission 28:8
transmit 18:2
26:16
transmitted 28:9
travels 28:7
treat 5:14 10:5
17:1
treating 25:8
treatment 7:3
19:16

tried 23:22
trinity 5:16
true 5:21 36:4
try 9:5,7,14,23,23
31:19
trying 19:15 23:10
26:20 27:3
turn 4:9
turns 13:3
two 4:1,3,7 7:22
7:22 11:8 16:21
22:7 29:8 33:25
type 14:24 17:6
21:7 22:6 23:21
27:2,8,23
types 23:1,3 26:8
27:21 28:10
u
unconscionable
32:13
understand 16:6
22:15 30:8
undisputed 28:7
unidentified 1:12
14:10
united 1:1 3:6,10
24:14
universal 27:25
28:1
unknown 17:4
unprecedented
18:20
use 14:2 31:22
useful 21:3 30:13
v
v 4:20
vaccine 7:3
variables 17:4
various 7:18 31:15

Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 169a

[ventilation - years]
ventilation 18:4
verbal 23:4 28:20
veritext 1:22 37:3
view 19:23
views 19:20
vigorously 4:13
violations 24:3
virus 6:6 12:9
13:11 15:21 16:2
18:1,5,9,17,20,21
19:1 21:24 23:12
26:16 27:22 28:6
30:19 31:8
voluntary 14:20
15:6 19:4
vs 1:5
w
wait 9:6
walmart 11:17
12:8,13 20:3
want 12:15 19:13
24:1,16 32:24
wanting 9:25
wants 32:22
warehouse 20:13
warehouses 11:10
19:21 31:5,14
warnings 6:2
wave 16:1
way 13:25 17:8
20:21,22 21:5
25:7 31:15
ways 5:1 25:2
we've 17:10,22
18:4
wear 20:24
west 1:18
wide 30:9
willing 12:6 18:9
29:14,18

Page 11
willy 33:15,15
window 18:3
wish 17:13,14,19
wonder 10:20
16:11 24:7
work 9:15,22 10:3
20:2,5
working 11:11
20:10,12 21:1
world 19:10 27:4
28:11
worried 16:5
worries 15:19
worship 3:24 13:4
21:8,16 24:5 25:5
30:2
worshipping
32:11
wrongful 4:23
16:8 17:18
x
x 2:1
y
yawn 36:3,8,9
ye 3:7,7,7
yeah 14:12
year 7:24
years 7:22 28:16

Veritext Legal Solutions
215-241-1000 ~ 610-434-8588 ~ 302-571-0510 ~ 202-803-8830
Appendix 170a

